<html>
<title> - PROTECTING OUR COMMERCE: ENHANCING THE SECURITY OF AMERICA'S PORTS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




   PROTECTING OUR COMMERCE: ENHANCING THE SECURITY OF AMERICA'S PORTS

=======================================================================

                                HEARING

                               before the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 21, 2003

                               __________

                           Serial No. 108-12

                               __________

    Printed for the use of the Select Committee on Homeland Security


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
98-045                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012005


                 SELECT COMMITTEE ON HOMELAND SECURITY



                 CHRISTOPHER COX, California, Chairman

JENNIFER DUNN, Washington            JIM TURNER, Texas, Ranking Member
C.W. BILL YOUNG, Florida             BENNIE G. THOMPSON, Mississippi
DON YOUNG, Alaska                    LORETTA SANCHEZ, California
F. JAMES SENSENBRENNER, JR.,         EDWARD J. MARKEY, Massachusetts
Wisconsin                            NORMAN D. DICKS, Washington
W.J. (BILLY) TAUZIN, Louisiana       BARNEY FRANK, Massachusetts
DAVID DREIER, California             JANE HARMAN, California
DUNCAN HUNTER, California            BENJAMIN L. CARDIN, Maryland
HAROLD ROGERS, Kentucky              LOUISE McINTOSH SLAUGHTER,
SHERWOOD BOEHLERT, New York              New York
LAMAR S. SMITH, Texas                PETER A. DeFAZIO, Oregon
CURT WELDON, Pennsylvania            NITA M. LOWEY, New York
CHRISTOPHER SHAYS, Connecticut       ROBERT E. ANDREWS, New Jersey
PORTER J. GOSS, Florida              ELEANOR HOLMES NORTON,
DAVE CAMP, Michigan                      District of Columbia
LINCOLN DIAZ-BALART, Florida         ZOE LOFGREN, California
BOB GOODLATTE, Virginia              KAREN McCARTHY, Missouri
ERNEST J. ISTOOK, JR., Oklahoma      SHEILA JACKSON-LEE, Texas
PETER T. KING, New York              BILL PASCRELL, JR., New Jersey
JOHN LINDER, Georgia                 DONNA M. CHRISTENSEN,
JOHN B. SHADEGG, Arizona                 U.S. Virgin Islands
MARK E. SOUDER, Indiana              BOB ETHERIDGE, North Carolina
MAC THORNBERRY, Texas                CHARLES GONZALEZ, Texas
JIM GIBBONS, Nevada                  KEN LUCAS, Kentucky
KAY GRANGER, Texas                   JAMES R. LANGEVIN, Rhode Island
PETE SESSIONS, Texas                 KENDRICK B. MEEK, Florida
JOHN E. SWEENEY, New York

                      JOHN GANNON, Chief of Staff

         UTTAM DHILLON, Chief Counsel and Deputy Staff Director

                  STEVEN CASH Democrat Staff Director

                    MICHAEL S. TWINCHEK, Chief Clerk

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Select Committee on 
  Homeland Security..............................................     1
The Honorable Donna M. Christensen, a Delegate in Congress From 
  the U.S. Virgin Islands........................................    10
The Honorabl Lincoln Diaz-Balart, a Representative in Congress 
  From the State of Florida......................................    48
The Honorable Jennifer Dunn, a Representative in Congress From 
  the State of Washington........................................     5
The Honorable Jane Harman, a Representative in Congress From the 
  State of California............................................     6
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas........................................     8
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California........................................    41

                               WITNESSES

Ms. Vera Adams, Interim Port Director, Los Angeles/Long Beach 
  Bureau of Customs and Border Protection, Department of Homeland 
  Security
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Mr. Leroy D. Baca, Sheriff, Los Angeles County, California
  Oral Statement.................................................    53
  Prepared Statement.............................................    56
Mr. Michael S. Carona, Sheriff, Orange County, California
  Oral Statement.................................................    58
  Prepared Statement.............................................    60
Mr. Noel K. Cunningham, Chief of Police and Director of 
  Operation, Port of Los Angeles
  Oral Statement.................................................    23
  Prepared Statement.............................................    27
Ms. Doris E. Ellis, Director, International Security Programs, 
  Sandia National Laboratories
  Oral Statement.................................................    51
  Prepared Statement.............................................    52
Mr. William Ellis, Director of Security, Port of Long Beach
  Oral Statement.................................................    21
  Prepared Statement.............................................    21
Captain John Holmes, United States Coast Guard
  Oral Statement.................................................    17
  Prepared Statement.............................................    19
Ms. John Miller, Special Assistant to the Chief of Police on 
  Counter-Terrorism, Los Angeles Police Department...............    65
Mr. Kenneth A. Price, Senior Inspector, Bureau of Customs and 
  Border Protection, Department of Homeland Security
  Oral Statement.................................................    62
  Prepared Statement.............................................    64

                                APPENDIX
                   Material Submiited for the Record

Prepared Statement for the Record from Mr. C. Paul Robinson, 
  Director, Sandia National Laboratories.........................    77

 
   PROTECTING OUR COMMERCE: ENHANCING THE SECURITY OF AMERICA'S PORTS

                              ----------                              


                        Saturday, June 21, 2003

                          House of Representatives,
                     Select Committee on Homeland Security,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 3:31 p.m., in the 
Main Board Room, Metropolitan Transit Authority, One Gateway 
Plaza, Los Angeles, California, Hon. Christopher Cox [chairman 
of the committee] presiding.
    Present: Representatives Dunn, Diaz-Balart, Sanchez, 
Harman, Jackson-Lee, and Christensen.
    Chairman Cox. Good afternoon. We are about to begin our 
hearing, and I would like to invite our first panel forward.
    A quorum being present, the Select Committee on Homeland 
Security is in order.
    The Committee meeting to hear testimony on the security of 
America's ports. Later on the next panel will have the 
opportunity to hear from Orange County Sheriff Michael Carona 
and Los Angeles County Sheriff Lee Baca. I want to thank the 
army and the Coast Guard for all their assistance in supporting 
the Homeland Security Committee while we're here on the West 
Coast.
    Let me introduce the Committee members that are present.
    Jennifer Dunn, who is on the Select Committee's 
Subcommittee on Infrastructure and Border Security, the 
Subcommittee on Rules, and the Subcommittee on Intelligence and 
Counterterrorism;.
    Loretta Sanchez, who is Ranking Member of the Subcommittee 
on Infrastructure and Border Security, on the Subcommittee on 
Rules and a member of the Subcommittee on Cybersecurity, 
Science, and Research and Development;.
    Jane Harman, who also serves as Ranking Member of the 
Subcommittee on Intelligence and Counterterrorism and serves on 
the Subcommittee on Emergency Preparedness and Response;.
    Sheila Jackson-Lee, who is a member of the Subcommittee on 
Infrastructure and Border Security and is also member of the 
Subcommittee on Cybersecurity, Science, and Research and 
Development;.
    Donna Christensen, who is a member of the Subcommittee on 
Emergency Preparedness and Response and the Subcommittee on 
Cybersecurity, Science, and Research and Development.
    We are honored today to be here in Los Angeles for a 
hearing to answer important topics on port security.
    Just a few hours ago, we completed an air, land and 
waterway inspection at the Ports of Los Angeles and Long Beach. 
Each of us could not help but notice the enormous challenges of 
security this megaport has, third largest in the world, largest 
in our country. We were equally impressed by the initiatives of 
local and regional leaders, both to secure these ports from 
terrorism and preserve its contribution to our country's 
economy.
    I'm pleased that we will be hearing from a Sandia 
Laboratory representative.
    On a typical day, 15 commercial vessels, 8,093 containers, 
2,177 passengers and crew, 20,000 trucks pass through the Ports 
of Los Angeles and Long Beach. The total value of that daily 
cargo is more than one-third of a trillion dollars. The ports 
collect $12 million in duties each day.
    Overall this port complex is responsible for over $200 
million in annual trade, a figure that must be preserved, 
though, and increased in the years ahead.
    From the air we saw not only how vast and complex these 
ports are, but also how they uniquely concentrate maritime, 
commercial, energy, tourist, residential and entertainment 
activities.
    National and regional leaders recognize the danger of 
terrorism that result from this. While much remains to be done, 
we are making progress.
    President Bush made clear in the days after September 11, 
that our efforts to secure our borders and ports against 
terrorism must preserve America's strong economic position in 
the world. We need not only to protect the American people, but 
we must also protect their freedom and way of life.
    The creation of the Department of Homeland Security was a 
major step in integrating the nation's security efforts to 
improve overall safety by putting all agencies responsible for 
protecting our homeland under one command with a new shared 
sense of mission.
    The former Immigration and Naturalization Service, Border 
Patrol, U.S. Customs and elements of the Department of 
Agriculture merged to form the new Bureau of Customs and Border 
Protection within the Department of Homeland Security.
    This merger marked a historic moment. For the first time in 
our nation's history, one federal agency, working hand in hand 
with the U.S. Coast Guard, is responsible for guarding 
America's ports and borders.
    Prior to September 11, port security involved routine 
waterborne security patrols and a limited number of container 
inspection folks named AZBAT.
    September 11 forced the Congress, Coast Guard, port 
authorities, State and local officials to re-evaluate, refocus 
and develop programs to improve the way our ports are secured. 
While we have challenges ahead, we are doing more and better 
than before.
    The Container Shipping Initiative employs Customs and 
Border Patrol officers to stations overseas to prescreen the 
high-risk cargo containers bound before they leave. By pushing 
out our perimeter, we can prevent terrorists from exploiting 
containerized shipping.
    Since the Container Shipping Initiative, the world's top 
megaports joined CSI and are in the various stages of 
implementation.
    These megaports are points of passage for approximately 
two-thirds of the containers shipped to the United States. Port 
security is a growing part of the Department of Homeland 
Security.
    This year DHS provided over $1 billion to secure our ports. 
Supplemental DHS funds in fiscal year 2003 went to the U.S. 
Coast Guard, $628 million; The Bureau of Immigration, Customs 
and Enforcement; the Bureau of Customs and Border Patrol, $90 
million; the Container Security Initiative, $35 million; $170 
million to the Transportation Security Administration for port 
security guarantees; $58 million for Operation Safe Commerce; 
and $75 million for port security administered by the Office 
for Domestic Preparedness.
    As the Department considers future investment, it will 
become increasingly important to direct federal funds where the 
terrorist threat is greatest. The local initiative showed most 
probability of containers to be the threat. Intelligence 
information is a key element of the success.
    Since the Container Shipping Initiative informs the agent 
on the ground of high-risk containers and allows the agents to 
target their efforts. With good intelligence, we can reduce our 
risk and promote the flow of commerce.
    In this, and other areas, of the homeland security mission, 
we need better intelligence to understand the terrorist threat, 
and we need to get this information to the first-responders who 
need it to enhance our security.
    We must get better intelligence and find ways to share it 
more broadly if we are to bind the terrorist threat and develop 
cost-effective solutions.
    Terrorists win not only by a successful attack, but also by 
forcing us to slow down commerce.
    By using intelligent information to target security efforts 
towards high-risk containers and by employing innovative 
technologies and innovative processes; like securing containers 
before they embark for the United States, we achieve the goal 
of increasing security but also avoid creating a bottleneck for 
commerce. This is one of numerous efforts to secure our ports.
    The Ports of Los Angeles and Long Beach are leaders in 
undertaking initiatives such as these to improve security 
before September 11. A Port Security Committee was established 
in January 2001 to coordinate the many entities that contribute 
to overall security, including vessel boardings, sea marshal 
operations and air, water and shore patrols.
    The Port Security Committee was the first in the country to 
establish a full-time multi-agency plan and staff to develop 
the port security mandates by the Marine Transportation 
Security Act of 2002. The shock of 9/11 heightened our 
awareness of our vulnerability to terrorist attack. Two years 
later, challenges remain.
    Thanks to the wisdom, courage and foresight of regional and 
national leaders, we have a much clearer understanding of the 
threat to the Ports of Los Angeles and Long Beach, and we are 
identifying smart-technology based solutions, such as those 
proposed by Sandia, to enhance security and increase overall 
efficiency of the port operations and preserve the vigorous 
activity of the Los Angeles and Long Beach ports that are 
critical to its economic sustainability.
    The Chair recognizes Ms. Sanchez, the ranking democrat, for 
any statement that she may have.
    Ms. Sanchez. Thank you, Mr. Chairman.
    I would like to thank all the witnesses for being here 
today, and I would also like to extend a warm welcome to my 
colleagues who are not from the Southern California area, and I 
hope you enjoyed so far seeing what we have to offer here.
    I am pleased that so many of you made time to come and see 
the challenges that we have.
    Today's topic, ``Protecting Our Commerce: Enhancing the 
Security of America's Ports,'' gets to the heart of the 
challenge that we all have, and it just goes to show how 
difficult and how daunting this task could be. The Bureau of 
Customs and Border Protection, the Coast Guard, the sheriffs 
and others are charged with making sure that dangerous goods 
and people are denied access to our country while still 
guaranteeing that all legitimate cargo and visitors are 
welcome.
    Nowhere is that task more daunting than here in the Los 
Angeles/Long Beach area where percent or so of all merchandise 
and people coming to our country comes through this port.
    I'm told it's two and a half times the size of our next 
port, which would be New York/Newark, New Jersey area.
    Out of the millions of containers and billions of tons of 
cargo loaded here in Los Angeles, you are the ones charged with 
finding anything that might do harm to our citizens while 
expediting, from an economic standpoint, legitimate cargo 
through the port.
    Many of the ideas we put forward from the federal level, 
Customs Trade Partnership Against Terrorism, the Container 
Security Initiative, the Operation Safe Commerce, they all 
sound good. But I really have concerns as to how well this 
mission is proceeding and how it's affecting here at the local 
level at the ports.
    Earlier this year I attended a strategic policy forum at 
the National Defense University with some other members of 
Congress, some executive branch officials, military leaders, 
where they do up a scenario for us to figure out how we as a 
nation would react to it. In fact, our particular exercise had 
to do with ports and attacks on our ports on a nationwide 
basis.
    It was really interesting because, of course, I had just 
come out of the 10-day breakdown that we had here with respect 
to our cargo coming in and out of the ports here in Long Beach 
and Los Angeles.
    And I can remember so often flying back into California and 
into Los Angeles and Orange County Airport and seeing the lines 
and lines of freighters and cargo ships lined up all the way 
down to Huntington Beach. Even being from Orange County, we 
experienced what it would be like.
    $1 billion a day to 2--or 3 billion for days, it created a 
loss of almost $20 billion to our economy.
    It wasn't just here in the Los Angeles area. It stretches 
across the United States. So we understand how important our 
ports are.
    And any homeland security expert would agree that the 
highest security risks in our nation are those targets that 
allow for the lowest risk of detection but deal the most severe 
blow as possible. And the ports could be characterized in that 
manner.
    Seaport managers have reported to me that they aren't 
getting enough intelligence to perform some of the basic 
security functions.
    The Container Security Initiative relies primarily on cargo 
manifest information which we know historically has been some 
of the most unreliable data in the trade industry.
    The Custom's Trade Partnership Against Terrorism is 
designed to promote trade and expedite processing time but 
doesn't have the manpower to ensure its compliance.
    And the Coast Guard, of course, has been understaffed and 
underequipped for many years though their carefully considered 
recommendations for port security grants, for example, I 
believe remain dangerously underfunded. In short, there's a lot 
of gaps that still exist in order to protect our ports.
    And as I said earlier, that I think there's some good 
strategy going on, but I worry that we simply don't have the 
resources for the job. And as the ranking Democrat on the 
subcommittee that deals with protection of all infrastructure, 
ports falls under that.
    But the biggest problem we've had so far is that we haven't 
really taken a look at all of the infrastructure that we have 
and try to decide what is more vulnerable. What is it going to 
take to fix that? What is the time line?
    Until we do that, we will not really be able to place the 
ports in any kind of a pecking order with how much money we 
have, with the limited resources at the federal level, to come 
and to help.
    I applaud locally the work of all the municipalities 
involved, the county, the Port Authority, for putting forward 
your own money to fund so many of these initiatives that I 
believe you are going to talk about today.
    I do believe it's time that we get the story straight at 
the federal level and that we begin to help you.
    I look forward to your testimony. I and the other members 
here today want to help you accomplish your mission, and we can 
only do that, we can really only do that by getting your 
testimony, by hearing or having a real frank discussion of what 
are the weaknesses and what does it require to get the job done 
so that we can go back and we can talk to our colleagues and 
get this done from a federal level.
    Thank you, Mr. Chairman.
    Chairman Cox. The Chair now recognizes the Vice-Chairwoman 
of the Full Committee, Ms. Dunn, for an opening statement.
    Ms. Dunn. Thank you very much, Mr. Chairman. And thank you 
everybody for hosting us here today.
    Not only is this a gorgeous building but a pleasure for us 
who haven't seen it before to come in and be welcomed here 
because it's also a wonderful facility with some pretty great 
high-tech equipment that we would like to see be brought into 
use on the floor of the House of Representatives or Committee 
meetings.
    So you are giving us all sorts of ideas, not only how to 
better protect our constituents but how better to provide for 
our own ability to do our job better.
    I want to thank you, the Chairman of the Homeland Security 
Committee. We greatly appreciate the time and the effort of all 
of you in providing a wonderful overview and an overflight of 
the waterways and the port facility here at Los Angeles/Long 
Beach.
    I come from the area surrounding the ports in Tacoma and 
Seattle. Port security obviously is a very major concern of 
mine with our state's ports, known as SEA-TAC, looking for the 
same answers that you are looking for.
    That's why I was most interested in learning what security 
measures and coordinating efforts work here and that we will be 
able to utilize in Seattle and in Tacoma as we continue to 
review port security upgrades and efforts at our port facility.
    Later this year as we travel as a Committee for a hearing 
to Seattle, Washington, we will most likely investigate areas 
of port security that we haven't looked at today, and I suspect 
we may focus a bit more on port security that pertains 
particularly to airports.
    As we approach homeland security issues, one of the key 
concerns for our purposes of oversight is to ensure that 
coordination and cooperation are watchwords for our homeland 
protectors at all levels.
    Coordination and cooperation are not easily achieved. 
Different organizations have different missions, and they have 
different needs and different cultures. Planning, practicing 
and sharing information, such has been recently accomplished 
through the TOPOFF II Exercises, one of which I was able to 
review in Seattle, Washington recently, have always been key 
for first-responders, whether city and county leadership or 
with state and military leadership, or in the case of this 
state and my own state, across shared borders with Mexico and 
Canada.
    The need to share and utilize information in a newly 
focused way because of 9/11 has only increased as we have added 
the broader context of coordination within the brand new 
Department of Homeland Security.
    But the challenge of working together on these partnerships 
and learning from any and all units will only pay off in the 
end. It will pay off in terms of enhanced homeland security for 
all of us and for those folks whom we represent in our various 
districts around the country.
    I want to thank you, Mr. Chairman, and I look forward to 
receiving testimony from our witnesses this afternoon, and I 
look forward to making observations that have occurred to me as 
we have had our discussions before the formality of this panel.
    Chairman Cox. Thank you for your statement.
    The Chair now recognizes the gentlelady from Southern 
California, Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman.
    I would point out to our witnesses and our audience that 
you and I are immediate neighbors on the hall in the Rayburn 
Office Building in Washington--.
    Ms. Harman. --neighbors in Southern California, along with 
Loretta Sanchez, we are six of the Californians in the Homeland 
Security Committee in Washington, and two of the most powerful 
ones are immediately to my right.
    And it matters that there's three Southern Californians on 
the Committee. As a representative for the ports' surrounding 
communities of Wilmington and San Pedro, I recognize the need 
to increase the security measures at our ports.
    From my vantage point of Ranking Member of the House 
Intelligence Committee, I know just how dangerous the security 
threat is.
    In fact, in today's New York Times is a lead editorial 
called, ``A chilling reminder,'' which, reads in part, ``That 
these--this arrest by the Justice Department of the Ohio truck 
driver who was plotting with leaders of Al-Quaeda to blow up 
the Brooklyn Bridge points out the critical importance of 
security forces against terror and the fact that Al-Quaeda is 
still fixated against American cities.''
    I suggest that one of those targeted American cities is the 
city of Los Angeles, county of Los Angeles, and the Southern 
California region. This is a deadly serious endeavor we are 
embarking on.
    Let me make some broader comments than the other comments 
made that I agree with.
    To me the importance of establishing a Department of 
Homeland Security was not to rearrange the deck chairs but to 
create one deck, a single integrated national homeland security 
strategy. Seven months after passing a law, we still lack that 
strategy.
    It was President Eisenhower who said, ``The right 
organization doesn't guarantee success, but the wrong one or 
none guarantees failure.''
    Homeland security is one of the most complex endeavor this 
country ever attempted, and it is doomed to fail without a 
strategy.
    Without a strategy all we have is the patchwork of isolated 
security improvements. And they do matter. And some of them are 
excellent. But there always will be, without a strategy, those 
areas where terrorists who are, as I call them, digital, they 
can see the whole picture and asymmetrically can attack. 
Without a strategy we're vulnerable to attacks.
    And we also need a strategy to command scarce resources. 
There will never be enough money to pay for every single 
homeland security improvement we can imagine. We need to pay 
for those that matter. We need to put our resources behind our 
greatest vulnerability. I suggest an underfunded vulnerability 
is our seaports.
    We spend 10 times as much for airport and aircraft security 
than port security. Yet as we saw earlier today, and everyone 
who lives in this area knows, probably the most important 
economic gateway in this entire region is the Ports of L.A. and 
Long Beach, and they're very, very vulnerable.
    And should they shut down again, as Congresswoman Sanchez 
has said, the cost just won't be $2 billion a day for 10 days. 
They can be more than that a day for an infinite number of 
days. And that can shut down commerce in the entire United 
States of America. And that is something, obviously, we need to 
avoid.
    Fortunately, a partnership, which we're about to hear 
about, between the Ports of Los Angeles and Long Beach, the 
Coast Guard, U.S. Customs and Port Police has improved 
security. And I want to commend all of the witnesses that are 
about to testify and apologize to them for my having to leave 
the hearing early.
    Despite their talents and the talents of other individuals, 
real security remains elusive because the resources and 
strategies are lacking.
    In the post-9/11 environment, Mr. Chairman, the sobering 
question is, how much time do we have to improve our record or 
are we operating on borrowed time?
    Thank you, Mr. Chairman.
    Chairman Cox. I thank you.
    The Chair recognizes the gentlelady from Texas, Ms. 
Jackson-Lee.
    Ms. Jackson-Lee. Thank you very much, Mr. Chairman.
    I appreciate the opportunity, and let me, first of all, 
acknowledge the witnesses and thank you for being with us on 
what the world should know is a Saturday afternoon, and that 
means that homeland security is what my teenage son would say 
is 24/7--seven days a week and 24 hours a day. And we 
appreciate the sacrifice that you are making.
    I want to thank my colleagues for their time and 
hospitality to the Chairman of this Committee, to the ranking 
democrat that is presently here, Congresswoman Sanchez; 
certainly to Congresswoman Harman for focusing on really early 
on, on the question of assessment of threat; and our Vice-
Chair, and I look forward to seeing the operations in Seattle, 
the leadership you exhibited, particularly focusing on the fact 
that we must include airports, as well as we look towards this 
issue.
    And then, of course, Congresswoman Donna Christensen, who 
is here, who brings a high level of understanding on the needs 
of the medical community as it relates to homeland security.
    Let me be a very gracious guest and say this is not 
intended to be negative, but I believe that we were handed a 
gift, for those of us who looked at the news over the last 
coupled of days, as we watched a speeding train going 90 miles 
an hour.
    When I say ``a gift,'' let me make myself perfectly clear. 
As we watched, in a very frightening manner, this train without 
direction, going towards Los Angeles, and then a determination 
being made to derail it in Commerce, California, I understand.
    But as it was derailed, let it be very clear that a local 
community was drastically impacted.
    I have not seen recent reports, but I understand that there 
was no loss of life, and we should be very grateful to the 
local law enforcement and various emergency staffing, first-
responders who came very quickly.
    The reason I raise this is I know there will be an ongoing 
investigation. But I imagine someone somewhere was thinking 
what kind of act this was. Someone somewhere in a position of 
responsibility was thinking about an effect of terrorism.
    As I understand, they're investigating it as an accident. 
But also I think we all took note of the fact that this 
incident occurred around a populated area.
    And I again reinforce the point that we are nothing in 
Washington unless we ensure that the homeland is secure and 
that our community is secure.
    Mr. Chairman, I want to thank you for having this 
coordinated on-site review and field hearing on the security 
and critical infrastructure of the two ports in California and, 
of course, the work that we did in Colorado.
    This opportunity promises to give this Committee a much-
needed firsthand perspective of the border checkpoint 
configuration, infrastructure, staff and environment and 
logistics and some of the equipment that we will evaluate.
    I think it's important to note that many of us that serve 
on the Subcommittee of Homeland Security, have a wide plethora 
of responsibility--importation of elicit weapons, pathogens and 
narcotics, land borders, ports, air space, integration of 
federal, state and local immigration laws and our highways, 
bridges and waterways and airports. We have a wide breadth 
which is under this Committee.
    By keeping those various points in mind, I would like to 
follow the line of questioning that I raised with Secretary 
Michael Brown during the June 19, 2003, hearing before the 
Select Committee on the Response to Terrorism.
    All of the questions that the gentlelady before us and the 
three gentlemen will have to answer every day, what is our 
response to terrorism?
    And to ask the question for timely action, in addition to 
our hearings, talks and forums, it's important that we ask now. 
We have a complex and time-sensitive set of issues in the 
homeland security matter. And I believe we must make the 
following inquiries.
    The first inquiry is to determine how we bridge the gap 
between our central focus in Washington, the Select Committee 
on Homeland Security and the response. How do we connect and 
get the resources as well as the intelligence to the local 
community?
    This aspect requires intense fortification of our national 
and local borders and infrastructure, ports and airports.
    Secondly, while the fortification process will call for a 
swift and intense protective action, we must ensure that we 
adhere to our constitution with respect to the protections of 
individual liberties, civil liberties and civil rights. I think 
that's crucial in the work we must do.
    Third, the protective action cannot impede the flow of 
commerce and people without which we couldn't protect 
ourselves, much less protect others, in the fight for world 
peace and security.
    As I stated before, homeland security must start at the 
local level. Since time is never on our side when it comes to 
terrorism or major accidents, as we saw with the speeding 
train, gaps in communication at the state and local 
governmental agencies and federal agencies could tender our 
efforts a nullity.
    The efforts we make, we must make sure we can prepare, 
mitigate and recover quickly from the terrorist act. However, 
the urgent calls of duty are simple assessment of risk and harm 
and immediate action.
    We need to listen to those who are at our borders and at 
our ports and our airports and at our cities and towns.
    We can't act properly or intelligently without adequately 
assessing the threat. Once the assessments are made, we need to 
bring forth support and faster mobilize in order to obtain 
measures of relief. For the mobilization to provide relevance, 
we must distribute the allocated resources in a responsive 
fashion. We must ensure that our local authorities are getting 
the dollars back home.
    And as I look at the U.S. Customs, the Coast Guard--the 
U.S. Coast Guard has been so effective, and certainly our port 
security.
    I ask this simply question: How do you assess the risk? How 
do you, when the port is under your domain, how do you assess 
which cargo to determine to treat more carefully than others? 
How do you utilize the intelligence that we give you? Is it 
simply by point of origin, countries that are on the threat 
list, the terrorist list? Or do we have greater information?
    And frankly, I believe we should use a greater breadth, if 
you will, of determining which of the cargos, which are the 
ships that should be searched, which are the personnel that 
should be searched.
    As we well know, terrorists come out of people. As I--let 
me say to you that we certainly appreciate the work that is 
done, and I'm going to offer my apologies as I depart back to 
Houston, my home district, to take care of my district 
responsibilities.
    But I cannot thank the local community enough for the 
hospitality and showing us how far you've gone and how far we 
need to go.
    I leave you simply with the challenge, that again, security 
is about people. We live in neighborhoods, towns, cities, urban 
and rural areas.
    I want to leave California with the understanding that your 
responsibility and your cause is to protect those communities 
surrounding the port, as well as the people and personnel that 
work under your jurisdiction and come back and forth throughout 
the port every day, including our wonderful--or your wonderful 
tourism industry.
    I look forward to listening to your testimony.
    With that I yield my time.
    Chairman Cox. Thank you, Gentlelady.
    I recognize the gentlelady from the Virgin Islands, Dr. 
Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman, for the 
opportunity to make an opening statement.
    I want to begin by thanking you and the Ranking Member, 
Congresswoman Sanchez, to bring us to Los Angeles to have this 
important hearing to examine our port security needs on the--at 
our largest ports, Los Angeles and Long Beach.
    I look forward to hearing the views of the witnesses, of 
the interaction between the federal and local agencies, as they 
continue to engage in ongoing port security efforts.
    And we are also interested in knowing whether Port Security 
Grant funding, which I understand you recently received, will 
be sufficient and relevant to meet the needs of the ports.
    I want to also take this opportunity to commend the port 
directors in both ports for not waiting, as I understand from 
some of the briefings we had yesterday, for the federal 
government to begin your efforts to protect our ports and our 
citizens, and the Coast Guard, as well as Customs and the other 
local agencies which supported that effort.
    Mr. Chairman, it's fitting that our issue of port security 
and protecting our nation's commerce is the subject of our 
committee's first field hearing because our nation's maritime 
system and container-ship activity continues to be particularly 
vulnerable, as we all know, to terrorist infiltration and 
attacks.
    However, a large fraction of maritime cargo is concentrated 
in a few major ports, like Ports of Los Angeles and Long Beach, 
our country's most active cargo hub.
    Ports such as this are vulnerable to terrorist attacks 
because of their size, easy access by water and land and the 
great deal of cargo they handle.
    Additionally, a large number of trucks move in and out of 
the ports making it possible for terrorists to weaponize a 
truck and drive it into the port. As you can see, Mr. Chairman 
and colleagues, panelists, and the people attending this 
afternoon, both federal and local, that are charged with the 
responsibility of policing and protecting our ports, have the--
have their work cut out for them, and so do we, whether it's 
the Coast Guard, which is the lead agency responsible for 
security, or the Bureau of Customs and Border Protection, which 
is responsible for monitoring and screening incoming goods, or 
port authorities or police or first-responders from neighboring 
jurisdiction who have the responsibility for site protection 
and emergency response.
    In my own area of the United States Virgin Islands, in 
addition with having to deal with some of the same challenges 
around the vulnerability of cargo containers, we have what is 
considered to be the busiest cruise port with several million 
passengers visiting our shores each year.
    In conclusion I am delighted to be here. I regret I was 
unable to join you in what sounds like a most informative tour 
this morning because of a prior commitment.
    I'm glad to be here this afternoon, and I look forward to 
hearing the witnesses' testimony.
    Chairman Cox. Thank you, Gentlelady.
    It is now my pleasure to introduce the very distinguished 
panel of witnesses.
    Captain John Holmes, United States Coast Guard, is Captain 
of the Ports of Los Angeles and Long Beach;.
    Vera Adams is Interim Port Director, Los Angeles/Long Beach 
Seaport, legacy Customs and all the legacy programs, Department 
of Homeland Security, Bureau of Customs and Border Protection.
    William Ellis, Director of Security for the Port of Long 
Beach.
    Chief Noel Cunningham, Chief of Police and Director of 
Operations for Port of Los Angeles.
    We have received your written testimony, and we want to 
thank you very much for preparing an outstanding, informative 
written material to inspire the opening of this hearing.
    Your statement is part of the hearing record, and you may 
summarize as you wish. We will begin with, Ms. Adams.

  STATEMENT OF VERA ADAMS, INTERIM PORT DIRECTOR, LOS ANGELES/
 LONG BEACH BUREAU OF CUSTOMS AND BORDER PROTECTION DEPARTMENT 
                      OF HOMELAND SECURITY

    Ms. Adam. My oral statement will be derived from the 
witness testimony that has been submitted to the Committee.
    Chairman Cox and Ranking Member Sanchez and distinguished 
members of the Committee, thank you for the opportunity to 
present an overview of Customs and Border Protection activities 
at the Los Angeles and Long Beach seaports. Today you were 
visiting the largest seaport complex in the United States and 
the third largest in the world.
    It's the nation's gateway for Pacific Rim trade and a great 
economic engine for Southern California and our country.
    During fiscal year 2002, 3.24 million containers of all 
sizes arrived at the two-port complex. This represented 45 
percent of all import containers arriving in the United States.
    These containers brought in a great majority of the $119 
billion worth of goods imported during fiscal year 2002 through 
the Ports of Los Angeles and Long Beach.
    As Secretary Ridge clearly recognized in recently 
announcing several important grants to strengthen the security 
of the ports, these ships and the containers they carry could 
be used by the terrorists as formidable tools to harm our 
people and seriously disrupt our global trading system. As you 
know, on March 1, 2003, inspectors from the Immigration and 
Naturalization Service, the Animal Plant Health Inspection 
Service, the Border Patrol and U.S. Customs Service merged to 
form the Bureau of Customs and Border Protection within the 
Border and Transportation Security Directorate of the 
Department of Homeland Security.
    In the Los Angeles area, approximately 1,500 former 
Customs, Immigration and Department of Agriculture employees 
now work together at the seaport and Los Angeles International 
Airport under a unified chain of command. As interim port 
director, I'm responsible for overseeing and coordinating the 
actives of the three legacy agencies.
    Our combined skills and resources are being utilized to 
support BCBP's priority mission to prevent terrorists and 
terrorist weapons from entering the United States, as well as 
continuing our traditional missions of apprehending individuals 
attempting to enter the U.S. illegally; stemming the flow of 
illegal drugs and other contraband; protecting our agricultural 
and economic interests from harmful pests and diseases; 
protecting American businesses from theft of their intellectual 
property; regulating and facilitating international trade; 
collecting import duties; and enforcing U.S. trade laws.
    We must perform our critical border security mission 
without stifling the flow of legitimate trade and travel that 
is so important to southern California's and the nation's 
economy. And today we are meeting that objective.
    The BCBP strategy executed in the L.A./Long Beach Seaport 
uses an integrated and layered approach to meet our twin goals 
of improving security and facilitating the flow of legitimate 
trade and travelers.
    The means to accomplish this include improved targeting 
systems and detailed advance information regarding people and 
goods;.
    Deploying nonintrusive inspection technology to quickly and 
effectively examine containers determined to be high-risk for 
antiterrorism purposes;.
    Contributing trained BCBP staff for temporary foreign 
assignment at the world's busiest seaports to push our zone of 
security outward by partnering with other countries under the 
Container Security Initiative;.
    Taking a leadership role by partnering with private sector 
interests through the Customs--Trade Partnership Against 
Terrorism to strengthen supply chain security;.
    Integrating members of the three legacy functions--Customs, 
Immigration and Agriculture--into a single BCBP port and 
leadership structure;.
    And working in concert with other agencies, such as the 
Coast Guard and Port Authorities.
    The dangers of terrorism to the seaport community has 
clearly pointed out the need for active cooperation by BCBP 
with the interests that share our antiterrorism mission.
    Examples of such interagency cooperation include BCBP's 
active participations on the Los Angeles Port Security Task 
Force.
    Created by the Mayor of Los Angeles, the task force is 
comprised of several federal agencies, including the FBI, BICE 
and our Coast Guard colleagues, as well as LAPD and Long Beach 
P.D. and Port Police organization.
    Under the leadership of the Coast Guard Captain of the 
Port, the task force is developing a consolidated port security 
master plan for the L.A./Long Beach two-port complex.
    Finally, we're also working on the integration of Customs 
and Border Protection the BCBP's operation, in the near future, 
of a remote camera surveillance system funded by a Federal 
grant that installed the units at five area ship terminals to 
focus on ships at anchor to increase the level of scrutiny of 
those ships.
    BCBP in the Ports of Los Angeles and Long Beach is moving 
forward, refining our targeting and examination of high-risk 
containers in order to facilitate the movement of legitimate 
cargo while protecting our nation.
    The development of new technologies and improved automated 
systems will only further enhance our ability to implement 
strategies to secure our nation's borders. The professionalism, 
skill and dedication of BCBP personnel will, as usual, be the 
basis of our success.
    Thank you again for the opportunity to testify. I would be 
happy to answer any of your questions.
    [The statement of Ms. Adams follows:]

                    PREPARED STATEMENT OF VERA ADAMS

Introduction and Overview
Chairman Cox and Ranking Member Turner, thank you for the opportunity 
to meet with you to present an overview of Customs and Border 
Protection activities at the Los Angeles/Long Beach Seaports. You are 
here at the largest seaport complex in the United States and the third 
largest in the world. It is the nation's gateway for Pacific Rim Trade 
and a great economic engine for Southern California and our country.

During fiscal year 2002, 3.24 million containers of all sizes arrived 
at the two-port complex. This represented 45 percent of all import 
containers arriving in the United States. These containers arrived on 
5,511 vessels.

As we come to the end of the third quarter of fiscal year 2003, the 
total number of containers of all sizes that have arrived at the two 
seaports this year is 2.41 million an average of over one quarter 
million containers a month.

These containers brought in the great majority of the $119 billion of 
goods imported during fiscal year 2002 through the ports of Los Angeles 
and Long Beach. As Secretary Ridge clearly recognized in recently 
announcing several important grants to strengthen the security of the 
ports, these ships and the containers they carry could be used by 
terrorists as formidable tools to harm our people and seriously disrupt 
our global trading system.

As you know, on March 1, 2003, inspectors from the Immigration and 
Naturalization Service (INS), the Animal Plant Health Inspection 
Service (APHIS), the Border Patrol and U.S. Customs Service merged to 
form the Bureau of Customs and Border Protection (BCBP) within the 
Border and Transportation Security (BTS) Directorate of the Department 
of Homeland Security.

In the Los Angeles area, approximately, 1,500 former Customs, 
Immigration and Agriculture employees now work together at the Seaport 
and Los Angeles International Airport under a unified chain of command. 
As Interim Port Director, I am responsible for overseeing and 
coordinating the activities of the three legacy agencies.

Our combined skills and resources are being used to support BCBP's 
priority mission to prevent terrorists and terrorist weapons from 
entering the United States, as well as continuing our traditional 
missions of apprehending individuals attempting to enter the United 
States illegally; stemming the flow of illegal drugs and other 
contraband; protecting our agricultural and economic interests from 
harmful pests and diseases; protecting American businesses from theft 
of their intellectual property; regulating and facilitating 
international trade, collecting import duties, and enforcing U.S. trade 
laws. We must perform our critical border security mission without 
stifling the flow of legitimate trade and travel that is so important 
to Southern California's and the nation's economy and today we are 
meeting that objective.

The BCBP strategy executed in the LA/LB Seaport uses an integrated and 
layered approach to meet our twin goals of improving security and 
facilitating the flow of legitimate trade and travelers. The means to 
accomplish this include:

        Improved targeting systems and detailed advance information 
        regarding people and goods;

        Deploying Non-Intrusive Inspection (NII) technology to quickly 
        and effectively examine containers determined to be high-risk 
        for anti-terrorism purposes,

        Contributing trained BCBP staff for temporary foreign 
        assignment at the world's busiest seaports to push our ``zone 
        of security outward'' by partnering with other countries under 
        the Container Security Initiative (CSI)

        Taking a leadership role by partnering with private sector 
        interests through the Customs-Trade Partnership Against 
        Terrorism to strengthen supply chain security;

        Integrating members of the three legacy functions--Customs, 
        Immigration, and Agriculture--into a single BCBP port / and 
        leadership structure.

        Working in concert with other agencies, such as the Coast Guard 
        and Port Authorities.

Targeting
Advance and accurate information is one of the most important keys to 
increase security without stifling legitimate trade and travel. Good 
information enables us to more accurately identify--or target--what is 
``high risk,'' defined as a potential threat, and what is low risk or 
absolutely no risk whatsoever. The separation of high risk from no risk 
is critical because searching 100 percent of the containers arriving at 
our seaports would unnecessarily cripple the flow of legitimate trade 
and travel to the United States.

What is necessary and advisable is searching 100 percent of the high-
risk containers and other cargo that enter our country through the 
seaports. To do this, we need to be able to identify what is high risk, 
and do so as early in the process as possible. One significant tool 
used in this important review and decision process is BCBP's Automated 
Targeting System (ATS). This system, used by the LA/LB Seaport 
targeting unit, as well as ports throughout the United States, and BCBP 
staff assigned overseas, is essential in targeting high-risk cargo and 
passengers entering the United States.

ATS is the system through which we process advance manifest and 
passenger information to pick up anomalies and ``red flags'' and 
determine what cargo is ``high risk,'' and therefore will be 
scrutinized at the port of entry or, in some cases, at the foreign port 
of export.

    In August 2002, the LA/LB Seaport along with other ports throughout 
the nation implemented a domestic targeting initiative using the 
Automated Targeting System. Under that initiative, all manifests for 
ocean going cargo destined for the United States are processed through 
ATS and reviewed by trained BCBP personnel. When high-risk shipments 
are identified, inspectors conduct standardized security inspections on 
those shipments using non-intrusive inspection technology or, in those 
cases where circumstances dictate, physical examinations. Importantly, 
the goal, both here and nationally, is to inspect 100 percent of high-
risk sea cargo.

    An important asset is the BCBP National Targeting Center (NTC). 
Created last year with fiscal year 2002 Emergency Supplemental funding, 
the NTC has significantly increased the Seaport's capacity to identify 
potential terrorist threats by providing real-time, centralized, high 
level targeting information dealing with both passengers and cargo. NTC 
inspectors and analysts use a sophisticated computer system to monitor, 
analyze, and sort information gathered by BCBP and numerous 
intelligence and law enforcement agencies against commercial border 
data.

    When NTC personnel identify potential threats, they coordinate with 
our staff at the Seaport or elsewhere in the United States to monitor 
the security actions that are taken. Because multiple agencies both 
contribute information to the National Targeting Center and rely on it 
for information, the Center assures a coordinated and centralized 
response to potential threats whether in the Los Angeles area or 
elsewhere in the nation on a 24x7 basis.

    In order to expand the cooperation that we believe is vital to our 
success, in May 2003, the local Coast Guard station co-located members 
of their staff with the LA/LB Seaport targeting unit. This cooperation 
allows the Seaport to incorporate the results of the Coast Guard 
analysis of risk for various arriving vessels and provides the Coast 
Guard detailed cargo information to use in identifying and acting on 
the high-risk vessel.

    In addition, to further increase the effectiveness of this review 
and targeting process, the Seaport is working to integrate legacy 
Agriculture officers into that local targeting unit. When that process 
is completed, the Seaport's will be able to better identify containers 
evidencing a risk for bioterrorism or other agricultural pest threats.

24 Hour Rule
Last year, a final advance manifest regulation--the so-called ``24-hour 
rule''--was issued. It requires the presentation of accurate, complete 
manifest information for oceangoing cargo destined for the United 
States 24 hours prior to loading of a container on board a vessel at 
the foreign port. The regulation also improves the quality of 
information presented by prohibiting the vague descriptions of cargo 
such as ``FAK'' (Freight All Kinds). The data is processed through the 
ATS system, and reviewed by the NTC to identify high-risk oceangoing 
cargo.

On February 2, 2003, a strategy was undertaken to ensure compliance 
with the 24-hour rule, following a 90-day grace period to permit the 
trade to adjust its business practices. The compliance strategy has 
involved, for the first time, issuing ``no-load'' orders and denying 
permits to unlade containers in Los Angeles or elsewhere in the United 
States in the event of non-compliance. In order to thoroughly review 
pre-departure manifest information that is transmitted around the 
clock, the LA/LB targeting unit is staffed on a 24 x 7 basis and is in 
constant communication with the NTC.

Compliance with the rule is high, and we are receiving more timely and 
accurate information through our Automated Manifest System (AMS). This 
greatly improves our ability to detect, deter, and eliminate potential 
terrorist threats involving sea cargo before they become a reality.

Cargo Examination Strategy
Better targeting requires an enhanced ability to examine containers. 
Since September 2001, the Seaport has been able to significantly 
increase the number of containers examined through the use of Non 
Intrusive Inspection (NII) technology. Additionally since Fiscal Year 
2002, due to various funding initiatives, we have been able to recruit 
an additional 118 CBP Inspectors to target and examine cargo at LA/LB.

Non-Intrusive Inspection (NII) technology provides for a more effective 
and efficient, as well as less invasive, method for inspecting cargo. 
NII equipment includes large-scale x-ray and gamma-ray imaging systems, 
and a mixture of portable and handheld technologies to include personal 
radiation detection devices that greatly reduce the need for costly, 
time-consuming physical inspection of containers.

In the last year the LA/LB Seaport has received two additional pieces 
of large scale imaging systems and now deploys five NII devices capable 
of scanning an entire container. Using this equipment, our officers 
were able to rapidly work through the backlog of containers created by 
last year's lockout at the seaport.

In conjunction with this equipment, the LA/LB Seaport deploys personal 
radiation detectors and radiation isotope identifying devices that 
detect the presence of radiological material in containers and 
conveyances. These technologies give us a tactical edge in keeping 
weapons of mass destruction and instruments of terrorism from entering 
the United States.

Although we currently use two fully equipped and staffed Centralized 
Exam Stations, the threat of containers with a WMD or other dangerous 
material dictates the need to examine cargo close to the point of 
unlading.

In 2002, the local ports received a federal grant of $1,500,000 to 
determine the feasibility and conceptual design of a Joint Agency 
Container Inspection Facility. The Washington Group was contracted to 
perform the study and submit findings by September 4, 2003. Currently 
BCBP is cooperating with the study contractor to develop user 
requirements.

On June 12, 2003, Secretary Ridge announced a further grant in 
connection with this proposed facility. Primary users are expected to 
be BCBP, the Coast Guard, and California Highway Patrol. Such a 
facility would be a significant enhancement to the ability of the 
entire port community to meet the terrorism threat.

Container Security Initiative
As a vital part of the layered BCBP sea container examination strategy, 
we are doing everything possible to advance and improve on our smart 
border initiatives and push our zone of security outward--that is, to 
make our borders the last line of defense instead of the first line of 
defense. We have done this on a far reaching basis by partnering with 
other countries on our Container Security Initiative, one of the most 
significant and successful initiatives developed and implemented after 
September 11, 2001.

In January 2002, the Container Security Initiative (CSI) was unveiled 
by Commissioner Bonner to address this threat. Under CSI, which is the 
first program of its kind, we are identifying high-risk cargo 
containers and partnering with other governments to pre-screen those 
containers at foreign ports, before they are shipped to our ports. Due 
to our wealth of experience in the targeting of sea containers, 
numerous LA/LB targeting experts have been deployed to CSI 
participating countries to identify high risk containers destined to 
the United States before they depart from the foreign port.

The top 20 foreign ports account for 68 percent of all cargo containers 
arriving at U.S. seaports. Governments representing 19 of these ports 
have agreed to implement CSI during the first phase. Phase 2 of CSI 
will enable the Department to extend port security protection from 68 
percent of container traffic to more than 80 percent.

Customs Trade Partnership Against Terrorism
The Customs-Trade Partnership Against Terrorism, (C-TPAT), is an 
initiative that was proposed in November 2001 and began in January 
2002, to protect the entire supply chain, against potential 
exploitation by terrorists or terrorist weapons. Under C-TPAT, 
companies sign an agreement with BCBP to conduct a comprehensive self-
assessment of their supply chain security and to improve that 
security--from factory floor to foreign loading docks to the U.S. 
border and seaports--using C-TPAT security guidelines developed jointly 
with the trade community. We anticipate a member of C-TPAT security 
specialists being stationed here in LA/LB.

Companies that meet security standards receive expedited processing 
through our land border crossings, through our seaports, and through 
our international airports, enabling us to spend less time on low-risk 
cargo, so that we can focus our resources on higher risk cargo. C-TPAT 
is currently open to all importers, air, sea, and rail carriers, 
brokers, freight forwarders, consolidators, non-vessel operating common 
carriers (NVOCCs), and U.S. Marine and Terminal operators. We are also 
currently developing the mechanism and strategy to enroll foreign 
manufacturers and shippers into C-TPAT. The intent is to construct a 
supply chain characterized by active C-TPAT links at each point in the 
logistics process.

To date, over 3500 companies are participating in C-TPAT to improve the 
security of their supply chains. Members of C-TPAT include 60 of the 
top 100 importers and 32 of the 50 largest ocean carriers. BCBP in the 
Los Angeles area has been a major contributor to the program through 
extensive outreach and recruitment.

Local Initiatives
As part of the creation of the Department of Homeland Security and the 
consolidation of border protection resources, the following represent 
several local initiatives to improve operations since March 1, 2003:

        Joint vessel boardings,

        A common CES examination process to eliminate multiple 
        examination locations for legacy Customs and legacy 
        Agriculture;

        Relocating all legacy Immigration personnel from the Long Beach 
        Federal Building to BCBP Port Headquarters, to create a joint 
        PAU for passenger operations;

        Co-locating legacy Customs and legacy Agriculture staff for 
        joint container targeting in our placement of Coast Guard 
        officers in local manifest targeting unit.

Port Security
Finally, the danger of terrorism to the seaport community has clearly 
pointed out the need for active cooperation by BCBP with the several 
interests that share our anti-terrorism mission. Examples of such 
interagency cooperation include:

BCBP's active participation on the Los Angeles Port Security Task 
Force. Created by the Mayor of Los Angeles, the task force is comprised 
of several Federal agencies including the FBI, BICE, and our Coast 
Guard colleagues as well as LAPD and the port police. Under the 
leadership of the Coast Guard Captain of the Port, the task force is 
developing a consolidated port security master plan for the LA/LB two-
port complex.

The BCBP's operation, in the near future, of a remote camera 
surveillance system funded by a Federal grant that installed the units 
at five area ship terminals to focus on ships at anchor to increase the 
level of scrutiny of those ships.

The BCBP's cooperation with port authorities on a complementary camera 
surveillance system at selected ship terminals.

Conclusion
    BCBP in the Ports of Los Angeles and Long Beach is moving forward, 
refining our targeting and examination of high- risk containers in 
order to facilitate the movement of legitimate cargo while protecting 
our nation. The development of new technologies and improved automated 
systems will only further enhance our ability to implement strategies 
to secure our nation's borders. The professionalism, skill, and 
dedication of BCBP personnel will, as usual, be the basis of our 
success.

    Thank you again for this opportunity to testify. I would be happy 
to answer any of your questions.

    Chairman Cox. Thank you very much, Ms. Adams. And thank 
you, Captain Holmes, for all of your assistance throughout the 
day.
    Again, welcome, and we will recognize you for your 
statement.

  STATEMENT OF CAPTAIN JOHN HOLMES, UNITED STATES COAST GUARD

    Captain Holmes. Good afternoon, Chairman and distinguished 
members of Committee. My name is Captain John M. Holmes, and I 
am the Coast Guard Captain of the Port for the Los Angeles/Long 
Beach Port Complex.
    It is a pleasure to appear before you today to discuss port 
security, particularly as it applies to the transport of people 
and cargo by sea into this, the country's largest and most 
active international cargo hub. Simply stated, the Los Angeles/
Long Beach complex is the nation's superport. Individually, 
either of the Port of Los Angeles or the Port of Long Beach 
would rank as the largest cargo port in the United States.
    As a complex, Los Angeles/Long Beach represents the third 
largest port in the world, handling over 40 percent of the 
nation's containerized cargo, over 1 million cruise passengers, 
and over 50 percent of the petroleum products used in the 
western United States.
    The container cargo will grow four-fold in the next 20 
years from the current number of million 20-foot Equivalent 
Units in 2001 to million TEU's in the year 2020.
    With over 95 percent of our nation's non-NAFTA related 
international cargo tonnage carried by ships, port security is 
critical to ensuring our nation's homeland and economic 
security.
    In no place is this more apparent than in the Los Angeles/
Long Beach port complex. As a result, the Homeland Security 
Team in this complex, the members of the Bureau of Customs and 
Border Protection, the Bureau of Immigration and Customs 
Enforcement, the United States Coast Guard and the other 
federal, state and local agencies, recognize that the threats 
are real and varied, and that they may come from a ship, its 
cargo or its crew.
    The members of these agencies also realize that these 
threats may manifest themselves both externally and from 
within, and that they can be conveyed or directed against all 
types of vessels, port facilities or critical infrastructure.
    In our efforts to counter these threats, a layered defense 
approach has been embraced that employs personnel, process and 
technological improvements to enhance our security posture.
    We have found that by developing a program, incorporating 
new regulations, enhanced inspections, increased vigilance, a 
more significant presence, technological innovations and 
enhanced communications, we have been able to change the 
culture in the industry and significantly improve the security 
of our port.
    Of equal importance is the fact that prior to September 11, 
2001, we established a Port Security Committee that has looked 
at port security collectively and systematically.
    This has allowed us to get to the point where we can 
seamlessly combine resources and enhance our capabilities to 
the extent that the March 1, 2003, formation of the Department 
of Homeland Security became not only a logical but a necessary 
next step in the process.
    With the additional resources provided in the form of 
budget increases and grants, the Homeland Security Team and the 
Ports of Los Angeles/Long Beach have been able to develop and 
implement national and local initiatives that increase our 
focus on vessels, port facilities and the ports themselves.
    Two realities have become very clear in our port security 
efforts:
    First, homeland security is a team effort.
    And second, homeland security does not begin at home.
    It is apparent that the Department of Homeland Security 
recognizes these realities and has made significant efforts to 
address them.
    Recognizing that the Homeland Security Team is made up of 
federal, state and local agencies, along with the private 
sector companies, the Department of Homeland Security recently 
awarded over $18 million to the Los Angeles/Long Beach port 
complex to enhance port security.
    Recipients of this grant money include the city of Long 
Beach; Total Terminals, International; Pier T Long Beach; 
Pacific Harbor Line, Inc.; And the Seaside Transportation 
Services, Port of Los Angeles.
    With respect to homeland security not beginning at home, 
the Department of Homeland Security has pioneered the concept 
of pushing back the borders and requiring greater visibility of 
cargo at the point of manufacture and/or loading. This is 
clearly the underlying philosophy behind the Container Security 
Initiative and the impetus behind the Operation Safe Commerce 
Program, both supply chain security initiatives.
    The security of the Los Angeles/Long Beach port complex has 
improved significantly in the months following September 11th, 
2001. Although there is much more to be done, we have made 
phenomenal progress in our efforts to enhance security.
    With the recent infusion of resources and funding, I'm 
confident that this process will continue at a significantly 
accelerated pace. I would like to point out that the progress 
to date is largely due to the spectacular cooperation that 
exists.
    I would like to take this opportunity to acknowledge this 
cooperation, and to thank my colleagues from TSA, BCBP, the 
Maritime Administration and other federal, state and local 
agencies, the marine industry, and organized labor for their 
untiring efforts and unselfish devotion. It has truly been a 
privilege to work alongside them.
    Thank you very much. I will be happy to answer any 
questions that you have.
    [The statement of Captain Holmes follows:]

              PREPARED STATEMENT OF CAPTAIN JOHN M. HOLMES

Good afternoon Mr. Chairman and distinguished members of the Committee. 
My name is Captain John M. Holmes and I am the Coast Guard Captain of 
the Port for the Los Angeles--Long Beach Port Complex. It is a pleasure 
to appear before you today to discuss Port Security, particularly as it 
applies to the transport of people and cargo by sea into this, the 
country's largest and most active international cargo hub.
Simply stated, the Los Angeles--Long Beach complex is the nation's 
Superport. Individually, either of the port of Los Angeles or the Port 
of Long Beach would rank as the largest cargo port in the United 
States. As a complex, Los Angeles--Long Beach represents the third 
largest port in the world, handling over 40 percent of the nation's 
containerized cargo, over 1 million cruise passengers, and over 50 
percent of the petroleum products used in the western United States. 
The port complex continues to grow at an amazing rate. Current growth 
predictions indicate that container cargo will grow four-fold in the 
next 20 years from the current number of nine million Twenty-foot 
Equivalent Units (TEU, or the equivalent to a 20 foot container) in 
2001 to 36 million TEU's in the year 2020.
With over 95 percent of our nation's non-NAFTA related international 
cargo tonnage carried by ships, port security is critical to ensuring 
our nation's homeland and economic security. In no place is this more 
apparent than in the Los Angeles--Long Beach port complex. As a result, 
the Homeland Security team in this complex, the members of the Bureau 
of Customs and Border Protection, the Bureau of Immigration and Customs 
Enforcement, the United States Coast Guard, and the other Federal, 
State and Local agencies, recognize that the threats are real and 
varied, and that they may come from a ship, its cargo, or its crew. The 
members of these agencies also realize that these threats may manifest 
themselves both externally and from within, and that they can be 
conveyed or directed against all types of vessels, port facilities or 
critical infrastructure.
In our efforts to counter these threats, a layered defense approach has 
been embraced that employ personnel, process and technological 
improvements to enhance our security posture. We have found that by 
developing a program incorporating new regulations, enhanced 
inspections, increased vigilance, a more significant presence, 
technological innovations and enhanced communications we have been able 
to change the culture in the industry and significantly improve the 
security of our port. Of equal importance is the fact that prior to 
September 11th, 2001 we established a Port Security Committee that has 
looked at port security systematically. This has allowed us get to the 
point where we can seamlessly combine resources and capabilities, to 
the extent that the March 1, 2003, formation of the Department of 
Homeland Security became not only a logical, but a necessary next step 
in the process. With the additional resources provided in the form of 
budget increases and grants, the Homeland Security team, and the Ports 
of LA/Long Beach have been able to develop and implement national and 
local initiatives that increase our focus on vessels, port facilities 
and the ports themselves.
Security of vessels and their cargo has benefited significantly from 
implementation of such programs as the Container Security Initiative 
and the Customs Trade Partnership Against Terrorism. The new rules 
requiring vessels to provide 96-hour advance notice of arrival and the 
tracking of vessels with specific indicators (High Interest Vessels) 
has made it possible to analyze ship, cargo, and crew data well in 
advance of the vessel's arrival. This has provided the opportunity to 
conduct offshore boardings of those vessels requiring additional 
attention. Additionally, the use of the Automated Targeting System to 
identify high-risk containers and the increased use of non-intrusive 
imaging technology and radiation detection equipment to inspect them 
will both enhance security and reduce the delays caused by physical 
inspections.
With respect to facilities, the Los Angeles--Long Beach port complex 
has had facility security guidelines in effect since shortly after 
September 11th, 2001. Unfortunately, not all ports have similar 
guidelines. The implementation of the Maritime Transportation Security 
Act of 2002 (MTSA) will provide facility security guidelines and ensure 
national consistency with respect to facility security. Additionally, 
the 2004 implementation of the International Ship and Port Facility 
Security Code (ISPS) will provide much needed international 
accountability and consistency in the area of vessel and port security.
For security to be effective, a much-needed assessment of the port 
complex must take place. Although preliminary assessments have been 
conducted to identify critical infrastructure and assign resources, a 
more comprehensive and consistent review has been scheduled. This 
assessment will enable port users to better identify current 
capabilities and develop a baseline to identify resource needs. It will 
also provide the Port Security Committee the data necessary to better 
develop the Port Security Plan required by the MTSA. Preliminary 
reviews have already proven quite helpful. It is through such a review 
that the Los Angeles--Long Beach complex was assigned one of the first 
Marine Safety and Security Teams (MSST's). As a result, the port 
complex now has the services of a dedicated and highly trained force 
whose sole mission is to protect the port.
Two realities have become very clear in our port security efforts. 
First, homeland security is a team effort, and second, homeland 
security does not begin at home. It is apparent that the Department of 
Homeland Security recognizes these realities and has made significant 
efforts to address them. Recognizing that the homeland security team 
includes state and local agencies, and private sector companies, the 
Department of Homeland Security, recently awarded over 18 million 
dollars to the Los Angeles--Long Beach port complex to enhance port 
security. Recipients of this grant money include the City of Long 
Beach, Total Terminals International Pier T Long Beach, Pacific Harbor 
Line, Inc., and the Seaside Transportation Services, Port of Los 
Angeles.
With respect to Homeland Security not beginning at home, the Department 
of Homeland Security has pioneered the concept of ``pushing back the 
borders'' and requiring greater visibility of cargo at the point of 
manufacture and/or loading. This is clearly the underlying philosophy 
behind the Container Security Initiative and the impetus behind the 
Operation Safe Commerce Program, both supply chain security 
initiatives, which we continue to pursue along with our colleagues in 
the Transportation Security Administration, and the Bureau of Customs 
and Border Protection. Recently the Los Angeles--Long Beach port 
complex received over eight million dollars to fund projects to test 
technologies and identify process improvements to enhance supply chain 
security, with the clear goal of making it possible to identify and 
eliminate threats prior to loading of the cargo--effectively pushing 
the security borders back to foreign countries of origin.
The security of the Los Angeles--Long Beach port complex has improved 
significantly in the months following September 11, 2001. Although more 
can always be done, we have made phenomenal progress in our efforts to 
enhance security. With the recent infusion of resources and funding, I 
am confident that this process will continue at a significantly 
accelerated pace. I would like to point out that the progress to date 
is largely due to the spectacular cooperation that exists. I would like 
to take this opportunity to acknowledge this cooperation, and to thank 
my colleagues from, TSA, BCBP, the Maritime Administration, and other 
federal, state and local agencies, the marine industry, and organized 
labor for their untiring efforts and unselfish devotion. It has truly 
been a privilege to work alongside them.
As part of the homeland security team, the United States Coast Guard 
has and will continue to take a leadership role in coordinating the 
multi-agency, public and private, national and international Maritime 
Homeland Security Strategy which will be part of the larger National 
Transportation System Security Plan established by TSA. The men and 
women of the Coast Guard are pleased to be part of the new Department 
of Homeland Security and committed to the continuing protection of our 
nation. I want to thank you for your interest in enhancing Homeland 
Security and for holding this hearing. I certainly appreciate the 
opportunity to testify before you today. I will be happy to answer any 
questions you may have.

    Chairman Cox. Thank you, Captain Holmes.
    Mr. Ellis, we welcome you, and you are recognized for your 
statement.

 STATEMENT OF WILLIAM ELLIS, DIRECTOR OF SECURITY, LONG BEACH, 
                 CALIFORNIA, HARBOR DEPARTMENT

    Mr. William Ellis. Mr. Chairman and distinguished members 
of Committee, thank you for allowing us the opportunity to 
participate in this hearing.
    We submitted written comments, and I wish to make a couple 
brief points. We are most appreciative for the congressional 
appropriations that made the recent seaport security grants and 
Operation Safe Commerce a thing with some back bone and funding 
behind it. But this is only a start.
    When we look at the funding that has been provided to the 
airports in this country and look at that in relationship to 
the funding that's available for the ports, we find a great 
deal of discrepancy.
    Operation Safe Commerce is a program which targets 
containers. And in our tour this morning, we talked a good deal 
about containers. But there's a secondary concern.
    Ships, hundreds of ships call in U.S. ports every day, 
carrying liquid bulk cargo, dry bulk cargo and break-bulk 
cargo. Ships bringing lumber cargo from Southeast Asia sail 
directly to Southern California with limited scrutiny. These 
are areas that we need to focus attention upon.
    The ports, when the nation raises its security level, incur 
additional personnel costs. And we look to the federal 
government for assistance and support in this area.
    To this point, the ports have had to provide their own 
funding and their own financial support for the increased 
personnel costs when the security levels of the nation have 
been increased.
    Finally, one area that I want to point out that I think is 
critical to our success, it's the need for coordination and 
training.
    While Captain Holmes has put together an outstanding 
program in the port where we all work together in a 
partnership, long term we need to provide a port-wide security 
training program and opportunity for all the various law 
enforcement and security operations that interact within the 
port.
    We have security forces, police and law enforcement, 
Customs, Immigration and a wide variety of units that work 
within the port complex. And we need to have the opportunity to 
bring these programs together, provide cohesive training and 
direction for these programs.
    Again, let me thank you on behalf of the Port of Long Beach 
for allowing me to testify today on their behalf. And I will be 
happy to respond to any questions.
    [The statement of Mr. William Ellis follows:]

                  PREPARED STATEMENT OF WILLIAM ELLIS

Mr. Chairman and Distinguished Members:
I am pleased to appear representing the Port of Long Beach.
This statement is intended to reflect the concerns of the City and Port 
of Long Beach relative to seaport security and then to present a brief 
update on the status of port security planning at the Port of Long 
Beach complex. I will also take the liberty of speaking about our 
sister Port, Los Angeles. The two Ports comprise the largest port 
complex in the United States, and the third largest port operation in 
the world. We are pleased you have had the opportunity to tour our 
facilities, because you have seen first-hand the amazing responsibility 
we have here at this complex. To put it into perspective, 42 percent of 
all imports and one-third of all U.S. waterborne commerce moves through 
this complex. It is fact that a shutdown here, in excess of two weeks, 
would have a staggering effect on our national economy.
Looking at America's ports from a broader perspective, the industry is 
vast, versatile and highly competitive. It consists of deep draft 
commercial seaports dispersed along the Atlantic, Pacific, Gulf, and 
Great Lakes coasts. These ports range from huge load centers handling 
millions of tons of containerized, breakbulk, and bulk cargos to 
relatively small ``niche'' ports serving the unique needs of particular 
cargos and regions. These Federally authorized ocean entrances and the 
Ports to which they are associated, must be secure.
U.S. ports serve vital national interests. These ports facilitate the 
flow of trade, the movement of cruise passengers, and the mobilization 
and deployment of U.S. Armed Forces. In the next twenty years, U.S. 
overseas trade, 95 percent of which enters or exits through the 
nation's ports, is expected to double. As the link between the land and 
the water, ports continue to update and modernize their facilities not 
only to accommodate this growth, but also to ensure homeland security.
Advocating new security policies is obviously a priority for our 
industry. The Coast Guard has worked closely with our industry and 
understands that a one-size-fits-all solution will not work for ports. 
We are pleased that the Coast Guard will soon release their interim 
final security regulations that base security plans for facilities on 
actual vulnerabilities.
Despite the passage of the Maritime Transportation Security Act and the 
imminent release of the Coast Guard's regulations, little funding has 
been provided to assist ports in making security enhancements. 
According to the Coast Guard, port facilities will need $4.4 billion 
over ten years for this purpose. To date, the Administration has not 
requested any funding in their budget for port security.
We are grateful to Congressional appropriators who have provided grant 
funding for ports and facilities over the past two years. We have, 
however, been frustrated by recent attempts by the Transportation 
Security Administration to reprogram certain funds appropriated for 
port security to pay for aviation security. We continue to feel 
compromised by what appears to be a limited commitment to secure this 
vital segment of our economy, particularly as we look on at the 
proposed fiscal year 2004 Homeland Security Appropriations.
While we are pleased that ports will receive some level of Federal 
support as recently announced by TSA, we encourage a closer look at 
these funding levels, because more help is needed. Ports have already 
applied for more than $1 billion dollars in grants.
Ports have invested millions of dollars in port security since 
September 11, 2001. We see no end to escalating security costs, 
particularly in high threat periods. Federal funding is necessary to 
help ensure vital security improvements are made throughout the Port 
system. Without such help, any new Federal requirements are essentially 
unfunded Federal mandates and subject to competing budgetary pressures 
at ports.
    Now, Mr. Chairman, here is the status of security at Long Beach/Los 
Angeles.
Clearly, port security planning is not fully accomplished at Long 
Beach/Los Angeles. However, the two Ports and the Coast Guard have put 
in place a process to develop a port wide security plan and have 
committed the resources and manpower needed to accomplish this task. It 
is a very substantial commitment to protecting America's largest 
seaport complex.
As noted, 42 percent of all US international container trade enters 
this Country through these ports. That much international trade is a 
major underpinning of the US economy. Securing this seaport can only be 
accomplished with the combined efforts of the port authorities and our 
federal partners from the Department of Homeland Security.
The port security plan being put together by the two Ports and Coast 
Guard has been demanding, for the two Ports as well as the other law 
enforcement agencies participating in the process. However, we can 
assure the Committee of our continued dedication to the completion of 
this task.
Nonetheless, Mr. Chairman, the two Ports have a number of concerns. 
Three in particular are represented.
        1. Seaport Security Unfunded Mandates--We are willing to 
        support legislative programs to fully establish seaport 
        security. These programs are clearly in the Federal 
        jurisdiction and require the contribution of certain local 
        assets as well. However, our Ports do not have the resources to 
        pay for Federal initiatives.
        For example, in fiscal year 2002 Congress appropriated $28 
        million for three US port load centers to enhance cargo 
        security within the supply chain through its Operation Safe 
        Commerce program. An additional $30 million was appropriated in 
        fiscal year 2003. This is a very wise initiative. Yet, an 
        announcement was not made until last week to expend $30 million 
        to initiate the project. The status of the remaining 
        appropriated funding is unclear.
        The Department will use the results of this program to 
        establish a new level of technology for security around the 
        Country and we are pleased to be a part of that. However, we 
        cannot be expected to fund this Federal initiative with 
        resources needed to execute our non-Federal, local security 
        needs and run our Ports. We are hopeful that some of the 
        remaining $28 million will be released soon and not leave the 
        New York/New Jersey, Long Beach/Los Angles, and Seattle/Tacoma 
        load centers without reimbursement for dollars expended to 
        support a federal initiative.

        2. Fiscal Year 2004 Appropriations--A secondary area of concern 
        is fiscal year 2004 funding for port security. We foresee no 
        lessening of the requirements for additional security, 
        particularly during high threat periods. Yet it is currently 
        our limited understanding that the House Homeland Security 
        Appropriations Subcommittee is endorsing limited funding for 
        port security grants. In addition, it is our further 
        understanding that the Subcommittee seeks only $2.5 million for 
        continuance of the Operation Safe Commerce program in fiscal 
        year 2004. This funding level places the goals of Operation 
        Safe Commerce in jeopardy.

        3. Airport/Seaport Security Equity--When compared to Homeland 
        Security amounts provided to airports, port security has been 
        provided with very little financial support.

        Clearly, airport security protects the flying public and is 
        necessary to maintain the US commercial air carrier system, 
        which is, vital to US security and the economy.

        On the other hand, seaport security must guarantee cargo, 
        passenger and vessel protection along with anti-terrorism 
        initiatives.

        These are perhaps two different Federal missions, but seaports 
        must be given the same attention that has been afforded the 
        nation's airports. Adequate funding from the Department of 
        Homeland Security must be provided as intended by The Congress.

        Last year's 10-day work stoppage costing the nation's economy 
        billions of dollars a day is testimony to what can happen when 
        there is an interruption of cargo flow or disruption of rail or 
        Interstate Highway access structures serving the Port.

It is hoped that these examples of our concerns will help the Committee 
understand what conditions restrict our ability to perform our local/
Federal partnerships.

Mr. Chairman, at the Port of Long Beach, we must run our facility like 
a business with clear attention to our balance sheet. We must provide 
for the security of our nation's seaport and at the same time insure 
that the nation's commerce can move freely in and out of this country. 
Without this balance the entire nation will feel the economic impact.

We are extremely appreciative that you have taken the time to tour our 
ports and understand our concerns. We also thank you for your attention 
to this testimony.

    Chairman Cox. Thank you, Mr. Ellis.
    Chief Cunningham, again, welcome. Thank you for the 
assistance that you provided to the Department of Homeland 
Security and to the Congress on our previous visits.
    And we welcome you today. And you are recognized for your 
statement.

 STATEMENT OF NOEL K. CUNNINGHAM, CHIEF OF POLICE AND DIRECTOR 
               OF OPERATION, PORT OF LOS ANGELES

    Chief Cunningham. Thank you, Mr. Chairman, and thank you 
distinguished panel, and thank you on behalf of the port and 
the city of Los Angeles.
    My name is Noel K. Cunningham. I'm the director of 
operations, as well as the chief of port police for the Port of 
Los Angeles.
    Our focus--my concerns would focus on federal port security 
grants, international cooperation and smart economics. And I 
have submitted the written summary of our concerns, and I will 
attempt to highlight those concerns.
    As you know, the Port of Los Angeles is the largest and 
busiest container seaport in the nation. Los Angeles is a 
premiere port of entry for cargo on the West Coast. The port 
occupies 7,500 acres of land and water along 43 miles of 
waterfront. Together with our San Pedro bay neighbor, the Port 
of Long Beach, we handle more than 42 percent of the nation's 
containerized commerce.
    Additionally, the Port of Los Angeles is the fourth busiest 
cruise port in the United States and is Number 1 on the West 
Coast with over million vacationers yearly.
    At this time in our nation's history, the Port of Los 
Angeles must balance the increasing demand for development and 
international trade with critical security requirements.
    Without a doubt, as a critical hub for commerce, the Port 
of Los Angeles is vital to our nation's economic well-being.
    We take our responsibilities very seriously to maximize 
security for cargo, people and property, also for handling and 
for the public safety of people.
    In the event of an unforeseen incident, whether caused by 
an attack by our nation's enemies or caused by a natural 
disaster, it is our responsibility to stay up and running and 
running without delay in order to bolster the economy.
    In my travels, I do believe that the enemy is more 
concerned with the Port of Los Angeles, stopping the economy, 
than it is, perhaps, in attacking public lives.
    Since 9/11, the Port of Los Angeles spent approximately $6 
million of our own funds to enhance the port's security. We've 
spent millions to improve our World Cruise Center, which is now 
a model for efficient and secure passenger handling for 
Customs, Immigration and the cruise lines.
    There is, of course, always room for improvement, and we 
are no exception. With federal funding through the 
Transportation Security Administration's Port Security Grant 
Program, we hoped to be more able to pursue security 
enhancements for port facilities and infrastructure 
improvements.
    We have started the process to assess our needs and to 
serve as national and international models for coordinating 
port-wide security programs, which Vera Adams gave an example 
of.
    And under Captain Holmes' leadership, in her presentation, 
we are now in the process of instituting credentialing and 
inspection programs which we appreciate the federal support 
that we're receiving from the administration; however, there's 
a downside. Since September 11, 2001, just $92.3 million of the 
$368 million appropriated has actually been distributed to 
seaports during the first round of grants.
    During that initial round of grants, the Port of Los 
Angeles received only $1.5 million. This grant was a joint 
application with the Port of Long Beach. So essentially, the 
Port of L.A. has received $750,000 out of $92 million.
    During the second-most-recent round of grants, which closed 
last month, the nationwide requests amounted to approximately 
$1 billion in improvements with only $104 million being made 
available.
    The Port of Los Angeles applied for approximately 15 and a 
half million. These grants would allow the Port of L.A. to 
continue to improve its infrastructure and overall security and 
coordinate with the Coast Guard and other federal agency 
programs that we deem high priorities.
    The second round of grants saw the Port of Los Angeles be 
awarded $3.3 million. Now, approximately 800,000 of that $3.3 
million was the only amount of monies allotted to Los Angeles. 
.5 million was to be shared with the Port of Long Beach.
    So essentially, Los Angeles realized .2, one point and a 
quarter million dollars in grants out of 104 million. When you 
add up the numbers, out of $197 million that has been 
distributed nationwide, the largest and the most vulnerable 
seaport in the country has received less than 2 1/2 percent.
    Is this prudent risk management? An attack on the Port of 
Los Angeles would be devastating to the nation's economy and 
threatens national security.
    When the nation's largest port complex was shut down during 
the International Longshore and Warehouse Union lockout, our 
nation felt the tremendous impact and ripple effect of halted 
goods movement and service.
    This was a lesson which provided us an example of our 
nation's dependence on an efficient and safe transportation 
network to distribute cargo efficiently along our trade 
corridors.
    The ability to move cargo seamlessly through the Port of 
Los Angeles is crucial to the overall economic vitality of the 
nation. We cannot do this if our security is hampered or 
breached.
    A terrorist attack at the port would not only cause havoc 
in our region but also seriously affects our entire maritime 
trading system, thereby further disrupting U.S. and 
international commerce.
    As the central component to the nation's economic engine, 
we need to receive a reasonable and appropriate share of the 
federal port security funding.
    Security funding requests must weigh the potential 
consequences of a terrorist attack and the impact on our 
nation's security. There needs to be a master plan, a federal 
strategic plan which protects our nation's assets, our 
treasures. The Port of Los Angeles we consider a treasure.
    Prototypes developed at the Ports of Los Angeles and Long 
Beach may be implemented nationally. For example, we moved 12 
million of million containers through the country.
    It stands that a lot more funding is required to secure 12 
million containers than it would be for a lesser amount of 
cargo transiting through smaller ports.
    The Port of L.A. applauds the fact that our shipping 
customers did receive $7.5 million in grant awards in Round 2 
and approximately $2 million during Round 1 for terminal 
security programs. They deserved it, and they need it.
    There's many unfunded mandates that the Port Authority, as 
well as the federal authorities, have placed upon the shipping 
industry.
    We also applaud the fact that our neighbor and our partner 
in security, the Port of Long Beach, received a significant 
amount of money. An attack on the Port of Long Beach is an 
attack on the Port of Los Angeles.
    Operation Safe Commerce, we believe this is the program 
that would represent the security for not only the nation's 
load centers but also for the security for the nation's network 
of cargo movements. We believe that the Containers Security 
Initiative should be pushed, the borders should be pushed 
outward to the overseas ports.
    We believe it is better and it is best to detect threats 
and pull them out of the network, out of the spot check network 
at the point of origin rather than wait until the threat is 
presently here on our shores.
    To that end, we also believe that protocols need to be 
developed to handle such threats. As Chief Ellis mentioned, 
there needs to be training programs to address these protocols.
    Operation Safe Commerce recently awarded the Ports of L.A. 
and Long Beach to the sum of eight and a quarter million 
dollars.
    I also believe that we managed to transit through our port 
42 percent of the nation's cargo. We believe Operation Safe 
Commerce awards should reflect security per container.
    A major question to be answered: How can we continue to 
upgrade seaport security for the country?
    This spring, Deputy Secretary England of the Homeland 
Security Department visited our port complex, and he reminded 
us that America has been fighting the ``isms''--fascism, 
socialism and communism.
    And now in this decade, the battle comes to fight 
terrorism. And he reminded us that this battle may go on for 
decades.
    We cannot have a piecemeal approach. When we fought World 
War II, the borders were across the waters, but today the 
battles are at the seaports, the points of entry of our 
country.
    We need to have a permanent funding to support and develop 
the security programs for our seaport programs.
    I believe that Congressional Bill HR2193, the Port Security 
Improvement Act of 2003, may offer the solution.
    The Port of Los Angeles believes that the U.S. Customs 
revenues, collected from imported commodities using maritime 
transportation, can be applied to security infrastructure and 
security improvements.
    According to U.S. Customs reports, Port of Los Angeles 
users pay approximately $12 million each day in Customs duties, 
with Los Angeles Customs district leading the nation in total 
duties collected for maritime.
    This is a growth industry. We have previously submitted in 
Port of L.A. written testimony that growth in U.S. Customs 
revenues increases from year to year and that it grows almost 
$1 billion a year.
    Port of Los Angeles suggests taking a single year's 
increment, not just for our port but for all the nation's 
ports, set it aside and allow us to have the security materials 
that we need in the ports.
    It is key that the funds should be distributed based upon a 
port's size and overall contribution to the nation's commerce. 
Port of Los Angeles, therefore, continues to strongly believe 
that Customs revenues can provide the appropriate source for 
funding the additional security required at our nation's 
seaports.
    I thank you for the opportunity to testify and to share our 
concerns regarding the Port of Los Angeles, our industry and 
our country.
    [The statement of Chief Cunningham follows:]

                PREPARED STATEMENT OF NOEL K. CUNNINGHAM

Mr. Chairman and distinguished members of the committee, thank you for 
the opportunity to testify.

I am Noel K. Cunningham, Director of Operations and Chief of Port 
Police for the Port of Los Angeles.

I thank you and members of the Select Committee on Homeland Security 
for inviting the Port of Los Angeles to testify before you and share 
our concerns about what is needed to enhance port security. Our 
concerns focus on federal port security grants, international 
cooperation and smart economics.

As you know, the Port of Los Angeles is the nation' busiest container 
seaport. Los Angeles is a premiere port-of-entry for cargo on the West 
Coast, the Port occupies 7,500 acres of land and water along 43 miles 
of waterfront. Together with our San Pedro Bay neighbor, the Port of 
Long Beach, we handle more than 42 percent of the nation's 
containerized commerce. Additionally, the Port of Los Angeles is the 
fourth busiest cruise port in the United States, and is number one on 
the West Coast with over one million vacationers yearly.

At this time in our nation's history, the Port of Los Angeles must 
balance the increasing demand for development and international trade 
with critical security requirements. Without a doubt, as a critical hub 
for commerce, the Port of Los Angeles is vital to our nation' economic 
well-being. We take very seriously our responsibility to maximize 
security for cargo, people and property. In the event of an unforeseen 
incident, whether caused by an attack by our nation' enemies or natural 
disasters, it is our responsibility to stay up and running without 
delay in order to bolster the economy.

Since 9/11, we've, spent approximately $6 million of our own funds to 
enhance the Port's security. We've added staffing and equipment 
resources for our Port Police. We've spent millions to improve our 
World Cruise Center so it is now a model for efficient and secure 
passenger handling for Customs, Immigration and the cruise lines.

There is, of course, always room for improvement and we are no 
exception. With federal funding through the Transportation Security 
Administration's (TSA) Port Security Grant Program, we hoped to be more 
able to pursue security enhancements for Port facilities and 
infrastructure improvements. We have started the process to assess our 
needs and to serve as national and international models for 
coordinating port-wide security programs and instituting credentialing 
and inspecting systems, but funding is needed to implement these 
measures.

Since September 11, 2001, just $92.3 million of $368 million in 
appropriations has actually been distributed to ports in the first 
round of TSA funding. During that initial round of grants, the Port of 
Los Angeles received only $1.5 million. This grant was a joint 
application with the Port of Long Beach. The Port of Los Angeles 
submitted grant application totaling approximately $36 million during 
the first round.

The second round of grants for these funds, which closed last month, 
drew requests nationwide for nearly $1 billion in improvements, with 
only $104 million available. The Port of Los Angeles applied for 
approximately $15.5 million. These grants would allow the Port to 
improve its infrastructure and overall security. The second round of 
grants saw the Port of Los Angeles be awarded $3.3 million. 
Approximately $800,000 will go to supplement our patrol boat deployment 
and $2.5 million was awarded toward design and construction of a joint 
agency high-risk container inspection site.

More is truly needed as our nation depends on an efficient and safe 
transportation network to distribute cargo efficiently along our trade 
corridors. The ability to move cargo seamlessly through the Port of Los 
Angeles is crucial to the overall economic vitality of the nation.

The Port of Los Angeles has not received significant federal funding 
support in the nation's security grant program.

When one considers that the Port of Los Angeles received merely $1.5 
million to be shared equally with the Port of Long Beach during Round 
One, amounting to $750,000; and during Round Two, $2.5 million to be 
shared with Port of Long Beach, amounting to $1.25 million; while 
$800,000 to purchase patrol boats has been the only individual award to 
Los Angeles. The Port of Los Angeles has received the sum total of $2.8 
million in grants for both Rounds One and Two. Published reports 
indicate a total of $197 million in grant funds was awarded during 
Rounds One and Two to the country's seaports. The Port of Los Angeles 
received approximately 1\1/2\ percent of this total. Is this prudent 
risk management?

An attack on the Port of Los Angeles would be devastating to the 
nation's economy and threatens national security.

When the nation's largest port complex was shutdown during the 
International Longshore and Warehouse Union lockout, our nation felt 
the tremendous ripple effects of halted goods movement and the stoppage 
of work that occurred as a result. This was a lesson which provided us 
an example of our nation's dependence on an efficient and safe 
transportation network to distribute cargo efficiently along our trade 
corridors. The ability to move cargo seamlessly through the Port of Los 
Angeles is crucial to the overall economic vitality of the nation. We 
cannot do this if our security is hampered or breached. A terrorist 
attack at the Port would not only cause havoc in our region, but also 
seriously affects the maritime trading system, thereby further 
disrupting U.S. and international commerce.

As the central component to the nation's economic engine, we need to 
receive a reasonable and appropriate share of the federal port security 
funding. Security funding requests must weigh the potential 
consequences of a terrorist attack and the impact on national security. 
There needs to be a strategic seaport security plan which protects and 
respects the security priorities as submitted by respected port 
authorities.

Prototypes developed at Ports of Los Angeles/Long Beach maybe 
implemented nationally; for example, the 12 million containers coming 
through the Ports of Los Angeles and Long Beach obviously are a high 
risk and deserve ample security support.

It stands that a lot more funding is required to secure 12 million 
containers than it would for a lesser amount of cargo transiting 
through smaller ports.

The Port of Los Angeles applauds the fact that our shipping customers 
did receive $7.5 million in grant awards during Round Two and 
approximately $2 million during Round One for terminal security 
programs. Marine terminal operators have had imposed upon them a myriad 
of unfunded mandates from both Federal and Port authorities.

The Port of Los Angeles is also appreciative of the awards that have 
gone to the Port of Long Beach toward our joint security programs. The 
Ports of Los Angeles and Long Beach are one security program. An attack 
on Long Beach is also an attack on Los Angeles. These awards include 
funding for a Joint Command and Control Center, and an Incident 
Management System.

Realizing that the safety of Southern California's port system is 
closely tied to international transportation hubs, our programming has 
also extended offshore, to our Asian trading partners. Focusing on 
containers, we have instituted measures to ``push back our borders'' to 
the points of origin for the millions of containers crossing our docks 
each year. Of primary concern was the ability to ensure that a cargo 
container hasn't been tampered with at the point of origin or in 
transit. We believe that this is a far better approach than applying 
maximum security once the container reaches our shores.

Operation Safe Commerce (OSC) is the vehicle currently being utilized 
to review the supply chain of containerized cargo. OSC is a $58 million 
pilot project funded by the Transportation Security Administration 
(TSA) and managed by the U.S. Customs Service and the Department of 
Transportation. On June 11, 2003, TSA did announce that the Ports of 
Los Angeles and Long Beach have received an award of $8.25 million to 
support the goals and objectives of OSC. Again, I do believe the Ports 
of Los Angeles/Long Beach, who contribute 42 percent of the nation's 
waterborne cargo traffic, should get funding considerations paralleling 
the expense of securing more containers. These goals include, but are 
not limited to, testing technologies that help secure container 
shipments and provide security gap analysis in the supply chain 
networks.

A major question to be answered: How can we continue to upgrade seaport 
security for the country? This spring, Deputy Secretary England of 
Homeland Security Department stated, ``merica has been fighting the 
ISM's, communism, fascism, socialism, and the battle against terrorism 
may last for decades as it did for the others.'' I submit that 
permanent funding must be found to support protecting our seaports. I 
believe that Congressional Bill HR 2193, ``Port Security Improvement 
Act of 2003'' may offer the solution. The Port of Los Angeles believes 
that US Customs revenues, collected from imported commodities using 
maritime transportation, can be applied to security infrastructure and 
security improvements. According to US Customs, Port of Los Angeles 
users pay approximately $12 million each day in Customs duties, with 
the Los Angeles Customs District leading the nation in total duties 
collected for maritime.

This is a growth industry. We have previously submitted in Port of Los 
Angeles written testimony that growth in US Customs revenues increases 
from year to year and that it grows almost $1 billion a year. Port of 
Los Angeles suggests taking a single year's increment, not just for our 
port, but for all the ports in the United States, as a set aside to 
allow us to have the security materials that we need in the ports. It 
is key that the funds should be distributed based on a port's size and 
overall contribution to the nation's commerce. Port of Los Angeles, 
therefore, continues to strongly believe that Customs revenues can 
provide the appropriate source for funding the additional security 
required at our nation's seaports.
I thank you for the opportunity to testify and to share my concerns 
regarding the security of the Port of Los Angeles, our industry and our 
country.

    Chairman Cox. I want to thank you very much for your 
outstanding testimony and your assistance to this Committee.
    And, Chief Cunningham, I want to begin with the comments 
that you made because they are a constant theme in our 
oversight.
    I was just trying to see if we had a written statement from 
you. I don't believe that we do.
    Chief Cunningham. I am very sorry. They were submitted. But 
I do have copies. It was submitted through the Internet.
    Chairman Cox. So I don't have the hard copy before me on 
the numbers that you just gave us, but I was making notes that 
the numbers in your testimony that addresses overall the 
problems that you're experiencing of insufficient monies is 1/2 
percent of the total grants?
    Chief Cunningham. Yes.
    Chairman Cox. Obviously, that is unacceptable. There isn't 
any question that the Ports of Los Angeles and Long Beach are 
the most significant in our nation, one of the most significant 
in the world--Number 3 in the world. And any formula for 
allocating funds has to take this into account.
    We hope over time that we get better at basing our grants 
on threat assessment. As you know, we just had the very first 
in our nation's history, a comprehensive assessment produced by 
the CIA and FBI of the terrorist threat to the United States of 
America.
    We're in the process right now of producing a vulnerability 
assessment according to threat vulnerability to our critical 
infrastructure.
    It's enormously complicated. It's the physical analogy of 
the United States of America mapping the human genome. But we 
have to have that. As Ms. Harman reminded us when she made her 
presentation earlier today, how important this is to get this 
benchmark so that we can rank our priorities so that we can 
spend our money wisely. At a minimum, you have to send that 
money out according to what we perceive to be or understand to 
be the greatest vulnerabilities and greatest threats and not on 
a seat-of-the-pants basis.
    There's no question about what we're looking at here. But 
we have a continuing problem as we look at this from 30,000 
feet, trying to get the big picture.There's a continuing 
problem of funding, where these monies are going. There's a 
premise that I think I am quickly coming to object to that the 
norm for distribution of these funds should be through the 
states and through the governors.
    I think a lot of us recognize that Washington doesn't know 
best and we want local control of the monies. We do want money 
sent to you, and if you don't get it, it goes somewhere nearby. 
Then that's as good as sending you none at all.
    Here's the figures that I do have. You talked about seeing 
in the first batch $750,000, and in the second batch $800,000. 
This is not a lot of money.
    Here are the figures I have about what checks were actually 
cut and sent out here. In fiscal year 2003, that is fiscal year 
that began in October 1 of 2002, $12 million in the first round 
went to Los Angeles city direct. $9 million went to Los 
Angeles/Long Beach harbor. Another $6 million went to Long 
Beach. $18.7 million, the second round, went to L.A. County and 
region, part of this high-risk cities money. That totals $45.7 
million for the last fiscal year. Another $45 million went 
through Sacramento, of which we're told $15 million has or will 
come to Los Angeles, and that has or will--may be a big 
difference.
    But that would total $60 million direct from the Department 
of Homeland Security through grants to Los Angeles in the 
current fiscal year.
    That money is out there. It's gone to Los Angeles, and yet 
you're seeing $750,000 in the first instance out of million--I 
believe was the figure you quoted--and then 800,000 the second 
time around.
    So obviously, a bit of scrutiny. One wonders if it's Enron 
accounting or whether the money is off with the weapons of mass 
destruction or what happened to it.
    We need to get it to you, and I think that's the intent of 
everybody sitting up here today. It's the intent of Congress. I 
believe it's the intent of the Department. This is not the sort 
of thing that we can tolerate, so we will not tolerate it. We 
will make sure that it works.
    In the time that I have remaining, I want to ask each of 
the members of the panel, and please address it according to 
your own interests in the subject, and I want to focus on the 
beginning of the supply chain.
    One of the things to which we've been educated through this 
process is how important it is to look at the whole supply 
chain when you are looking at container security. We're working 
with Hong Kong and Singapore. What I would like to know is 
whether or not that foreign cooperation is satisfactory to you.
    How are foreign governments responding in this initiative? 
Are they affording access to their ports the same way we are 
affording access to us?
    How are we exchanging intelligence?
    Is that working?
    It's a big piece and also something that Congress and the 
federal government have to take a special responsibility for 
because it involves our international relationships.
    Chief Cunningham. Actually, that response is in the camp of 
Vera Adams, Customs. But I may add on behalf of the Port 
Authorities, both L.A./Long Beach and Seattle/ Tacoma and New 
York/New Jersey, Operation Safe Commerce has afforded the ports 
an opportunity to represent the industry and to provide a 
vehicle to get money to the industry and to the vendors that 
are testing various technologies.
    And to that end, we have entered several agreements with 
private partners and also with ports overseas to work together 
toward meeting those goals.
    And so from a standpoint of dealing with business, the 
business community that are stationed overseas, the shippers 
and the like, we've gained just an enormous amount of 
cooperation.
    There are proprietary concerns that each of these agencies 
have. Quite frankly, that's understandable. And we do our best 
to keep that information confidential.
    But the fact that when you're dealing from government to 
government, that belongs to our Customs and Coast Guard.
    Chairman Cox. Ms. Adams?
    Ms. Adams. Thank you, Chairman.
    With respect to the Container Security Initiative, if I can 
touch on how the process works, Customs and Border Protection 
has deployed our officers overseas to work in at least, up to 
now, 19 of the top 20 foreign ports have signed on.
    They're deployed in, currently, most of those, including 
Singapore which is key to our port security.
    Chairman Cox. Which has not signed on? And is that due to 
reluctance?
    Ms. Adams. It is one of the Korean ports, I think. But 
Korea itself signed on with one of those ports. No, I don't 
think it's reluctance at this point.
    The way it works is the Customs and Border Protection 
officers that are overseas, work with our own automated 
targeting systems to target containers that are deemed high-
risk before they are laden on board the ship that is sitting, 
waiting to receive those containers in that foreign port.
    If they see something based on the intelligence they're 
receiving and the score that the targeting system has delivered 
for that container for that shipment, they will consult with 
the foreign Customs service on that container.
    Many times that foreign Customs service will know more 
information about the shipper, the manufacturer that is--that 
has stuffed the container with the goods, and might be able to 
lend weight as to whether it should be determined to be a high-
risk container or not.
    If it is determined that there's some high-risk associated 
with that container, we can request that the foreign Customs 
service please examine that container, either using 
nonintrusive inspection technology similar to our own VACIS 
trucks or by hand.
    This is their sovereign right. They can examine it if they 
choose to or not. But so far they have been very cooperative.
    Whether there's any findings or not regarding that 
container, that information is communicated back here to the 
United States to the port where that container is destined to 
come in.
    So daily we receive messages from our colleagues overseas 
telling us, ``We looked at this shipment. It was okay. We 
looked at this shipment. There's something wrong with it. You 
might want to examine it when it gets there,'' et cetera. And 
that's how the process works.
    Chairman Cox. Does any member of the panel wish to address 
this point?
    Captain Holmes.
    Captain Holmes. Yes. I would only add that we have begun to 
take a look at different types of supply chains, and they are 
numerous. And that's one of the things about Operation Safe 
Commerce to look at.
    In many cases, as Ms. Adams would certainly agree, the 
cargo has been handled or touched or moved dozens of times from 
the time it leaves the manufacturer to the time it even gets to 
the port of embarkation in Singapore or Hong Kong.
    I think that's one of the reasons why the ports 
collectively in there Operation Safe Commerce engaged Sandia 
Labs in this endeavor because we feel it is essential to look 
at these supply chains and apply solutions that fit the 
different supply chains.
    In the port we have the supply chains that range from the 
sort of ridiculous to the sublime.
    We have the large auto manufacturers that makes the parts, 
loads the parts, ships the parts.
    And we also have the manufacturers that make a plastic 
article somewhere in the middle of China, that passes hands ten 
or 15 times between the time it's manufactured and the time it 
gets to the port of Singapore or Hong Kong.
    I think it's important to recognize that no two supply 
chains are really alike. And the methods that you use for 
security may be different depending on where the--where the 
goods originate, and how many, you know, how many individuals 
handle it between the time it's manufactured and the time it 
gets to the port.
    In one case you may want to look at nonintrusive 
technology, like the VACIS machine, or perhaps radiation 
detection, CBR detection.
    In another case, with a more simplistic supply chain, you 
might want to focus on CSI or KT might be effective.
    I think it's important that someone, just like your point 
on taking a very good look at the infrastructure and what risks 
are--or what is higher risk than others.
    I think it's important that someone looks good at the 
supply chains and does a good supply chain analysis in order to 
apply the best technologies and the best preventative measures 
to different types of supply chains.
    Chairman Cox. I think we will hear a little bit more about 
that when we hear from Sandia National Laboratory in our next 
panel.
    My last question, because my time will soon expire, 
concerns intelligence support for our port security efforts. I 
want to know whether or not you think it's working.
    Do you get enough timely, reliable, relevant information 
from the federal government to, including from our intelligence 
services, to enable you to determine which potential threats 
you should be concerned with and, on the other hand, those 
which are probably not directed your way? I'm also interested 
in how that information gets to you and whether it comes in a 
usable form or whether it comes with access restrictions that 
make it less than useful.
    Captain Holmes. I've been told this was mine, so I will 
take it.
    One of the things that improved markedly since 9/11 is the 
amount and type of intelligence data that we get. And often 
cases now, the good news is we get it repeatedly from multiple 
federal agencies.
    So I will get a piece of data perhaps directly through my 
pipeline, and then I will get it shortly thereafter from U.S. 
Customs, FBI, Secret Service or the CIA.
    We get good data on vessels coming in. I think that's one 
of the reasons why we, with the Customs and Border Protection, 
decided that the time was appropriate for us to put together a 
single targeting unit that uses all the data available to 
target the ships, the cargo and the people.
    So I would have to say that I'm very comfortable with the 
information that I'm getting. I think in this marriage of the 
agencies in the Homeland Security Department, we're going to 
work through some of the administrative difficulties.
    The good news is that at this point in time, we're getting 
it three and four times over. I would have to say, however, 
that one of the difficulties that's presented itself, and this 
is something that we've discussed with the Homeland Security 
Department when they came through Los Angeles to talk to us, is 
the whole issue of how we get information down to the port 
users because we exist in a federal system of clearances which 
is necessary but in a sense sometimes cumbersome.
    The government has made great efforts to try to make some 
of this information law enforcement sensitive, or a new 
category called ``sensitive security information.''
    But the whole idea of trying to get information that's 
perhaps classified in a federal sense down to the ports is--
it's impossible to do so. Very few local law enforcement people 
have federal security clearances.
    We are fortunate here in that the sheriff's department has 
a terrorist early warning center where all of the state and 
local law enforcement officers have federal security 
clearances.
    But for me to try to get information, for example, directly 
to Mr. Ellis or Chief Cunningham, if it is classified by the 
federal government, I, frankly, cannot give it to them.
    Chairman Cox. So you are stating clearly that you can't do 
it. Am I also correctly inferring that you need to do it, and 
that this is hampering your efforts?
    Captain Holmes. We have, in some cases, particularly with 
our Vessel Traffic Service that is a partner with us--they're a 
private sector partner--got the director and executive director 
federal security clearances.
    But there are certainly times when we get information that 
we cannot pass down to the port security people, that--or the 
LAPD or Long Beach Police Department, that we would very much 
like to get to them.
    Chairman Cox. I'm anxious to hear from both Mr. Ellis and 
Mr. Cunningham on the point.
    Mr. William Ellis. Mr. Chairman, if I may, although I've 
spent almost 40 years as a law enforcement officer and my 
current role as director of security, I head a security force, 
and therefore, I'm not part of law enforcement.
    While charged with the responsibility for the security of 
the port, I find myself having to rely on systems outside the 
official channels in order to get alerts in some cases.
    It's difficult when information is placed into a classified 
system, when you're not part of that system, to get the 
appropriate notifications at the appropriate times.
    Captain Holmes has been extremely helpful, but he's limited 
by certain constraints and not allowed to release certain 
information.
    But we find ourselves as a port who operate with a security 
force, rather than a law enforcement agency, oftentimes 
hamstrung when it comes to trying to gain intelligence on 
activities that impact that port. So it's a major concern to 
us.
    And I think Chief Cunningham has a comment.
    Chief Cunningham. It is a very awkward type of process. I 
do happen to hold a secret clearance, so I do get information 
from the FBI and naval intelligence and others. However, it's 
basically my law enforcement position that I do get--that I 
received that clearance.
    However, I'm--oftentimes once I receive this information, 
that I--quite often I have to talk in code to my staff and to 
my officers in the trenches because the information is 
classified, and I can't be specific as to why they must stand 
and watch this vessel for this period of time. And that's a 
very, very awkward situation. I can just imagine how it is for 
the Captain of the Port.
    I get my information from several sources, primarily from 
that of Chief Bratton and John Miller from the Counter-
Terrorism Bureau that was established. And I get my information 
from John Miller and his staff. They work close in hand on the 
Joint Terrorism Task Forces.
    We also have a member of the Joint--of the--a sworn police 
officer that's a member of that task force, so that's a benefit 
also.
    I also get information from Vera Adams and from John Holmes 
as pertains to the movement of cargo and intelligence.
    Often, though, that information is not very clear to me 
because neither Captain Holmes nor Ms. Adams knew that I had a 
secret clearance, and I did not know that he did not know that 
until just now.
    So now that I am testifying, to let Captain Holmes know 
that I do have that clearance, I can get a little bit more 
information.
    Chairman Cox. We're happy that this field hearing can 
provide a fusion center. I believe in making these connections.
    We've learned two things today, and that is that the things 
you need from the federal government you are not getting in the 
way that you need to get them. The things that the federal 
government must provide for homeland security to work are money 
and information.
    And the information piece is every bit as important as the 
money because if we give you money but no information, it can't 
possibly be wisely spent.
    So we will definitely take this to heart on the airplane 
from Colorado where we visited the U.S. Northern command 
yesterday. We actually worked out language that will be almost 
certainly included in the Response Authorization Bill that will 
come to the floor of the House next week that directly 
addresses this point and authorizes a program between the 
Department and you all that will involve the CIA, as head of 
the intelligence community, to make this process work. So we 
fully intend to address that, as well.
    But I understand that it's not working, and you are 
describing the ways in which it could work better, and this is 
not a rosy picture, but it is enormously helpful. What you are 
describing, we can act on.
    Ms. Sanchez. Mr. Chairman, I'm about to lose a member on 
this side from Texas. I will just allow Ms. Lee to go ahead.
    Chairman Cox. I recognize Ms. Jackson-Lee.
    Ms. Jackson-Lee. Thank you, Congresswoman Sanchez, for her 
enormous generosity. These are important hearings and important 
times. Let me apologize to the panel in its entirety, and I'm 
focusing on two members, in light of the fact that despite the 
important nature of this Committee, airplanes do not wait. So I 
thank you for your recognition of that.
    Let me, first of all, acknowledge a common agreement now 
with the Chairman, and I hope we can go back to Washington and 
immediately work on this issue because I think it's important.
    Chief Cunningham, to emphasize and sort of distinguish the 
funds that are coming in, I believe you were speaking to funds 
dealing with the port. And some of the numbers I think were 
attributable to first-responders.
    One of the things that we want to come and learn and 
understand is we don't want to pit any of the local entities 
against each other, particularly when we know we're in a 
vulnerable community.
    I noticed that Los Angeles received some grants under the 
High Threat Urban Areas, so we already established that this is 
an area that is subject or could be subject, in terms of a very 
expansive nature, to terrorist threats and terrorist acts.
    And what I would hope is that we can respond to your 
numbers that out of the 300 million or 3--300 million, that 
only 92--went to port security, if I understand what your 
numbers are, and then you broke them down.
    That's an important question that I think we can work on 
with this Committee.
    Then I would also say I hope that we would have agreement, 
and this is going into the record so I hope it will be taken 
note by the Chairman and by the Vice-Chairman.
    I know it will be taken note by my Ranking Member because 
she said it very often, is that these local monies, if they're 
monies coming to a local entity, let's get them to you.
    I'm going to go a step further. In a hearing last Thursday, 
I asked for a reprieve, a waiver, an untangling of the 
application process, because homeland security is of a crisis 
nature. It's a necessity.
    It's a little bit different from the Department of 
Education which is certainly a high priority for our children. 
It's a little different from the Department of Energy, or 
grants that can be given, and I don't want to cite any 
particular department. They will call me Monday and say they're 
important too.
    Getting these monies to you quickly I think is important. 
Getting them to the source is important.
    And the way we have the structure now, it goes to the 
state. The state makes a determination. You send a grant 
application in.
    I don't know when you--I'm sure Seattle and everywhere 
else.
    Let me raise this question and then I will thank the 
Congresswoman. I have two questions that I would like to focus 
on.
    Ms. Adams, earlier today you mentioned percent of incoming 
containers are screened. And I understand that for 98 percent 
or so, this consists of computerized checks of supplier 
information.
    In determining the high-risk containers, what information 
is used and for how many of these containers do you only have 
manifests which are often limited in scope and accuracy?
    And then what would the current system do to identify and 
protect against terrorists that are able to infiltrate 
containers coming from trusted shippers in countries that are 
friendly to the United States?
    And that question is to you. And then, Chief Cunningham, 
you could follow, and I appreciate your abbreviated answer.
    But Chief Cunningham, you know I posed a question to you 
about the surrounding community. You can respond to that 
because at the beginning of your testimony today, you said that 
the focus might be economic terrorism, but I know you didn't 
intend to suggest that the terrorism would not impact 
negatively on communities or that the terrorists would not do 
something that would be detrimental or deadly to the personnel 
or those in the surrounding community. And I know you are 
concerned about that.
    Ms. Adams?
    Ms. Adams. With respect to the numbers, yes, we do screen 
100 percent of the information that is supplied by the carriers 
on the manifests pertaining to all the containers that are 
coming over in this direction;.
    That the information that is used is--there's approximately 
19 data elements on the manifest. They range from the shipper, 
the reporter, the carrier, port of lading--a whole host of 
information--commodity description, marks and numbers, to the 
continuity, who is receiving it here in the United States.
    All of this information is fed into the Automated Targeting 
System, a very sophisticated computer system that analyzes all 
of that information against a very large rule set.
    Those rules are developed nationally at the National 
Targeting Center and--in Virginia.
    What they do is help sort through all of that information 
and red flag any of the information that looks discrepant, 
anomalous, risky, incomplete.
    Ms. Jackson-Lee. Do you know whether or not they do 
something different or if friendly countries get less of an 
assessment in Virginia?
    Is there something in place that deals with the fact that a 
friendly country's shipping could be infiltrated by a terrorist 
doing harm?
    Ms. Adams. Even shipping coming from friendly countries go 
through the screening process.
    You never know that a container coming from a friendly 
country, not as high-risk, say, as some of the countries that 
you might think, but the container itself or the goods may 
actually have originated somewhere other than where the 
container is from.
    So all of the containers are screened at the same level 
initially as any other container.
    Ms. Jackson-Lee. And paperwork and computer analyses, et 
cetera, do you do any physical inspections here pursuant to 
this 100 percent that you are telling us about?
    Ms. Adams. Yes. Out of this 100 percent, the computer will 
generate a risk score for the highest risk containers.
    100 percent of those that are designated high-risk, undergo 
an inspection here when the container gets to the port.
    The nature of that inspection at minimum must include an 
inspection by our mobile X-ray trucks, you know, basically 
producing an X-ray-type image of the container to look for 
anomalies.
    Ms. Jackson-Lee. You have that equipment here?
    Ms. Adams. Yes, I do.
    Ms. Jackson-Lee. Thank you for your answer. Chief 
Cunningham?
    Chief Cunningham. Yes. Thank you for the opportunity to 
respond.
    I certainly would always put protection of people ahead of 
property. And in this particular instance, yes, we are working 
on many programs that go out to our community.
    The several that I may identify is the--which was funded, 
by the way, the $750,000 that I mentioned earlier was actually 
a $1.5 million program to begin the study for Container 
Inspection Sites on the Waterfront.
    And indirectly, this is a program that would keep the 
containers on the waterfront and not on the freeways and not 
within the communities, being trucked through the communities, 
if there was a danger there. So this is one of those indirect 
protections that we get out of the grant process for the 
community.
    Other programs that we have--we received a, with Long 
Beach, an Incident Management Signage Program where we warn our 
community and our users of the port of dangers that may--that 
may be there; alert status of rerouting traffic and the like.
    We're also in the process--.
    Ms. Jackson-Lee. Let me allow you to finish your answer in 
my absence.
    The key I wanted you to get on the record, you are 
concerned about the surrounding communities and that there are 
procedures in place that you're working with the surrounding 
communities. And when I say that, I mean neighborhoods.
    Chief Cunningham. Absolutely.
    Ms. Jackson-Lee. And if you wish to continue, but I think I 
got the gist of it from my questioning.
    And I thank the Congresswoman for yielding to me.
    I also will say that you made a point by getting dollars to 
the local communities and local entities, and we will go back 
to Washington to work on that. Thank you.
    Chief Cunningham. Thank you.
    Chairman Cox. The gentlelady from Washington, Vice-Chairman 
Ms. Dunn is recognized.
    Ms. Dunn. Thank you very much, Mr. Chairman.
    Fascinating testimony. Very useful to us.
    I want to harken back to the degree of cooperation that I 
noticed today. It was really helpful to get the background 
material but also the firsthand conversation on how you are 
working together.
    I think this Port Security Committee that was started 
before 9/11, in July of that year, as a matter of fact, ironic 
to be thinking about these things for a long time, worrying 
about them, losing sleep over them. And that's hopeful.
    I have heard some interesting things today that came out of 
the cooperative arrangement--the divers inspecting the hulls of 
refinery vessels outside the port, for example. I think that's 
useful and comes to your point, Chief, about the economic 
horrors that would ensue.
    The major port that we have for all container products 
coming into the United States being simply put into a disuse 
because of an explosion of an oil tanker. The boarding of the 
ships with questionable manifests or origins or cargos, that's 
got to be useful.
    And I have talked with folks in my home town of Seattle 
about that sort of thing too. And they're doing just what 
you're doing.
    Captain Holmes, I wanted to ask you, in my visits with 
Coast Guard and Customs and so forth in Seattle, I have found 
that because of the new security requirements, that their 
emphasis on their activities has had to shift. For example, 
protecting the coastline has gone down in emphasis. And I'm 
really curious as to the substance of where you are able to put 
your resources. I'm wondering if you could characterize the 
security challenges, the new responses to those challenges, 
before, for example, where you were watching out after 
contraband smuggling more than you are now, and had you shifted 
emphasis, if you have, in what way have you had to do this?
    And were you sacrificing or concerned about that because 
you need to pay attention to the new security and threats of 
terrorism?
    Captain Holmes. I think it would suffice to say, as we 
talked about earlier, the Coast Guard invigorated an old 
business that hadn't been in place since the second World War.
    As we talked about, port security was a small part that we 
did, and post-9/11, that that particular business line--and the 
figures speak for themselves.
    I think pre-9/11, it was about 3 percent of our budget. 
Post-9/11 it zoomed to be about percent. And now it's gone down 
to a lesser figure.
    We were fortunate in that the search capacity initially was 
filled by, to a large extent, members of other agencies.
    Initially, on 9/11--prior to 9/11, we have qualified a 
number of other agency people as shipboard boarding officers.
    Immediately after 9/11, we filled that gap, that search 
capacity was filled by members of legacy Customs, legacy 
Immigrations, FBI, Secret Service. We used those people as sort 
of a--sort of a surge filler.
    Subsequent to that, then we called on at least at the L.A. 
Seaport, a number of reserves, and at one point in time, we had 
over 100 reserves. And we still have a number of reserves on 
board. But in the interim, they are--the reserves that have 
gone back to their families, their positions have largely been 
filled by active duty additions to the command. So I'm 
comfortable to say that throughout this process, we have been 
very cognizant of the fact that we have a number of other 
missions to fulfill:
    No oil spill went uninvestigated. No commercial accident 
went uninvestigated. No search and rescue case was not 
prosecuted the same as it would be before.
    I think there were difficult times when we pushed our 
people to the limit. But subsequent to that, we have gotten the 
people and resources to fill the gaps.
    But I can only speak from the perspective here, and I don't 
know how we would have done it without a number of other 
agencies that filled the gaps for us.
    Ms. Dunn. That's another one of those cooperative efforts. 
I appreciate that.
    I would ask you more questions if I had time, but I don't.
    I'm wondering, Mr. Ellis, if you could help me out with the 
mandates. I understand when the threat level rises, it's far 
more expensive to continue operations.
    I'm wondering how much of that increase is due to federal 
mandates. Are there any federal mandates that the port 
leadership would have recommended in any event on their own? 
And I would like to know also, specifically, when a threat 
level rises, are you required to take particular action to 
increase security?
    Mr. William Ellis. To take a couple portions of your 
question, first of all, when the security level rises--the 
national security level is indicated by a color scheme. In the 
port we follow the Coast Guard's security levels, and there's 
three levels to that system.
    When we hear from the captain of the port that the security 
within the port is going up, we notify all of our tenants to 
take increased security measures, to the point of requiring 
them to have additional security staff on board, escort people 
to various locations, when normally they can move, once they 
identify themselves, through a terminal area.
    When individuals come into the port building, for example, 
the administration building, under normal circumstances, they 
come in and identify themselves and then are directed to the 
office they would be seeking.
    When the security level rises, we then have to move into a 
mode of escorting those individuals to where they go. That 
takes additional time and manpower.
    Ms. Dunn. Is that required by federal mandate or a choice 
you provide to do that additional security?
    Mr. William Ellis. Escorting individuals is part of the 
security at marine port that's indicated.
    And there exists facilities that are part of our 
infrastructure--bridges, pipelines, terminal buildings--that as 
heightened security is needed, we feel it appropriate to put 
additional staffing to guard those locations.
    So it's both brought on by national level concerns and 
areas that we identify within the port that we feel are 
critical and that we need to cover those.
    Ms. Dunn. That's exactly what I needed to know.
    Ms. Adams, let me ask you a question with regard to cargo 
examinations.
    I'm delighted to hear your update that we have agreements 
with 19 of the 20 megaports; is that true--.
    Ms. Adams. That's correct.
    Ms. Dunn. --around the nation--I mean--what did I say?
    Ms. Sanchez. ``Nation.''
    Ms. Dunn. When we are trying to protect the security of the 
people who live in the United States, we don't want to be doing 
it here at the Port of Los Angeles or Port of Seattle. We want 
to do it at the Port of Singapore or Hong Kong or wherever it 
is.
    It seems to me that's where the problem can be nipped in 
the bud if we are capable of doing that.
    We talked about the technology that can be used. But to 
have people on the ground, as this Container Security 
Initiative is involving, and just as our people are beginning 
to deploy to these locations to watch the boarding of cargo and 
to move along with the technology that we expect to have, that 
it will maintain our ability to prove whether containers have 
been tampered with, I think that's the direction that we have 
to go.
    And as much as I value the technology that we saw today--
the radiation portals--that's really on our home territory.
    And as many members of this Committee made the point, all 
of our cities and communities are very close to the ports, and 
also you don't want to slow down the flow of commerce once you 
get there.
    I would like to know, how long does it take to scan a 
container? How many personnel does it take? What's involved?
    And what innovations in technology do you see coming to the 
forefront, perhaps the private sector or government labs around 
the country, that will be able to provide really good container 
investigation?
    How do you envision this working in the future if it were a 
perfect system?
    Ms. Adams. To answer your first question, the VACIS trucks 
can scan a container in the space of anywhere from 30 seconds 
to three minutes depending on the complexity of the scan; 
Whereas, previously without that technology, we would be forced 
to take the container to a warehouse; open it up; spread all 
the contents on the floor; and examine the contents box by box, 
which, for a noncomplicated exam, would take approximately five 
hours or more.
    The number of people required to do the VACIS exam is 
approximately five, a team of five per truck.
    The number of people it would take to examine merchandise 
if we spread it out on a warehouse floor is also approximately 
five.
    So the gains that we get from the technology really allow 
us to bump up the number of exams we're able to do in the port 
without pulling those containers out of the chain and 
disrupting, say, just-in-time inventories for the importers.
    Chairman Cox. Just a moment--.
    Ms. Dunn. Is it radiation that you are looking for with 
VACIS?
    Ms. Adams. We're looking for any anomaly in that image 
scan.
    Chairman Cox. I just want to make sure that our reporter 
understands when we're talking about that, and people that read 
the record will understand, when we say VACIS--I don't know if 
others have seen this equipment.
    Do you want to tell us how that's spelled.
    Ms. Adams. Sure. VACIS, Vehicle and Cargo Inspection 
System.
    In effect, what it is, it is a large truck equipped with X-
ray equipment or gamma ray equipment that produces an X-ray-
like image of the contents of that container.
    Can you repeat the second question?
    Ms. Dunn. I wonder if you were to envision the perfect 
system that we will never reach but would like to reach that 
would provide for rapid scanning of a product as it comes 
through our ports so that we don't interrupt commerce, what 
else do we need to be thinking about?
    Ms. Adams. Ideally? Ideally, I would love to see a 
container that can tell us where it is on the globe at any time 
from the time it leaves the manufacturer to the time it's 
delivered to the distributor here in the United States.
    And I would love, ideally, to have the ability to have 
radiation detection equipment throughout the port, which is 
something we're working on trying to develop, as well as a 
method to determine biochemical presence, again, a program that 
a lot of entities are already working on, including ourselves 
with respect to K9 program, that can detect some chemical 
weaponry.
    And ideally, we would love to just be able to have even 
greater, always constantly improving, evolving technology that 
will improve our capabilities to detect even the most minute 
quantity of anything that would be dangerous in any of those 
containers in general.
    Ms. Dunn. And you probably would like to be doing that in 
Singapore instead of the Port of Los Angeles?
    Ms. Adams. Yes. The whole premise of the Customs and Border 
Protection strategy is that we here in the United States should 
be the last line of defense. We shouldn't be the first line of 
defense.
    Ms. Dunn. Thank you very much. Thank you, Mr. Chairman.
    Chairman Cox. The gentlelady from California, Ms. Sanchez, 
is recognized for her questions.
    Ms. Sanchez. Thank you, Mr. Chairman.
    The first thing I want to do is clear up something the 
Chairman was talking about earlier when he asked Chief 
Cunningham about all of this money that the city of Los Angeles 
got.
    I want to clarify that the numbers that the city got are 
the numbers for the overall DHS stuff coming down to the city 
of Los Angeles.
    In other words, not the targeted stuff to the ports. It's 
for first-responders, bridges, other issues that the city might 
have.
    And even when we look at those numbers when they're coming 
to the city of Los Angeles, the fact of the matter is, you sit 
down with the people who really have to have the money in their 
hands in order to pay for this, as Chief Cunningham does.
    The fact of the matter is, even though the money has been 
appropriated or allocated or press-conferenced with, you know, 
``We're sending $12 million out of this $80 million 
specifically to the city of Los Angeles.''
    When you ask the controller of the city of Los Angeles, 
``Have you received the check or has that wire come in?'' The 
answer is going to be, ``No.''
    How do I know this? I know this because I have Mayor Hahn's 
office calling me, telling me, ``We haven't received the money 
yet. We're told it's in the pipeline.''
    We may have been allocating. We may have been appropriating 
and said, ``We're sending them,'' and made press conferences. 
But the fact--I do believe that Chief Cunningham's numbers, 
that that is actually the amount he's seen come into the Port 
of Los Angeles for the things that they need, so we need to 
remember.
    And that's one of the biggest things we might be able to 
work on, Mr. Chairman, is how do we shorten that pipeline or 
where is the hole in that pipeline because these cities--it's 
not just the port. It's also the first-responders and others 
who need the money, not tomorrow or the next day. So that would 
be the first thing I would like to say.
    And then I have several questions. I wanted to talk to Ms. 
Adams for a minute about your testimony because you've been 
very cheery. You were cheery this morning. You were cheery in 
your testimony about, you know, ``We're pushing it back. We got 
these 19 ports.''
    You know, we had testimony last week or the week before 
with respect to this whole issue.
    The fact of the matter is, even though you have 19 of the 
superports worldwide signed on to do this stuff, there's only 
10 ports which are active with respect to people from your 
agencies that are actually out there.
    If we're lucky--if we're lucky at some of those ports, we 
might have five of your people, you know, being out there, 
doing this stuff. So they don't have the equipment.
    In fact, now we've signed on some Muslim countries that 
have megaports that are not trying to find the IMF or World 
Bank to come in and fund some of the equipment they need 
because there's no way they're going to be able to get 
radiological or other equipment to check.
    So how can this be so rosy that we know that even if you 
got 19 of the 20 signed up. You only got people in ten of them, 
and some places only one person, and they cannot be doing all 
of the containers coming here to Los Angeles.
    And on top of that, the director of DHS reported that 
personnel were understaffed or poorly trained. And a big issue 
on poorly trained or given too many collateral duties that 
diverted their focus on targeting from real targeting.
    So knowing all of this, tell me really what you think is 
happening at the port with respect to targeting, pushing out 
the targeting to other areas of containers that are heading to 
the Port of Los Angeles and Long Beach.
    Ms. Adams. First, I would like to say, you know, I am 
incredibly encouraged by the strategy that Customs and Border 
Protection has adopted.
    I've been in Customs for 14 years, and the strategy that's 
developed is practical. It's useful, and it's showing itself 
that that is working.
    And there's room for improvement. And do we have a long way 
to go? Absolutely.
    I am encouraged by the strategy, and I think it's working.
    Ms. Sanchez. So the strategy is good?
    Ms. Adams. The strategy is good.
    Ms. Sanchez. What is really happening, so that we can get 
resources to you, talk to other ports, get this underway, 
actually get people trained?
    Ms. Adams. Yeah. Hong Kong, in terms of the ports where we 
are up and operating overseas for the Container Security 
Initiative, we're up and operating in Hong Kong and Singapore, 
two of which are the longest feeder ports for stuff coming to 
us.
    90 percent of the cargo coming to L.A./ Long Beach comes 
from Asia.
    Getting those two ports on board covers a large percentage 
of the volume coming this way.
    Laem Chabang from Thailand signed on the agreement. Whether 
they get up and running, that will be another one.
    As far as the training and understaffing, Congress, in its 
appropriations, has been generous to us.
    A lot of that has funneled down to us in L.A./Long Beach 
Seaport. We received an allocation of an additional 118 legacy 
Customs positions. Many of those are currently in our Federal 
Law Enforcement Training Center in Glencoe.
    I'm eager to get them out of school and deploy them.
    Ms. Sanchez. They're not here?
    Ms. Adams. Some are here already, and half are in the 
training mode. And when they get here--.
    The reason I'm rosy and encouraged is because they're on 
their way, and that will be monumental to our effort here.
    As far as training goes, we're one of the leading targeting 
ports in the country. In fact, we're one of the national 
training centers for people that--Customs officers that are 
going to be deployed overseas.
    We have a lot of expertise in this port. We train the rest 
of the country. In terms of being trained, I think we're--we're 
extremely well off here in L.A./Long Beach.
    Ms. Sanchez. Captain Holmes, first of all, thank you so 
much for educating me so much on the issues with respect to the 
ports.
    I have some questions with respect--and I don't know who is 
going to answer them. I figured it would be Captain Holmes and 
maybe the two Chiefs.
    I have a question about the different lanes of travel that 
you have coming into the port.
    There's some ports that only have one, the access points, 
and how you spread your resources in order to ensure that 
you're getting everybody that's coming in because there's 
different trucks coming in.
    I have a question about trucks. The truckers coming in, 
what's the--what's the system? What are we checking for, for 
the actual truckers who come through to actually pick up these 
containers?
    I have a question with respect to the refineries. Is there 
anything special? Any special safety or equipment that you need 
or are thinking about with respect to the petroleum that comes 
through Long Beach?
    I believe we can start with those three. Gentlemen, I don't 
know which one will answer what.
    Captain Holmes. I will be happy to take the shipping 
question. And the trucking question, Chief Cunningham can 
answer best. And with respect to the petrochemicals, Long Beach 
is the bigger of the two petrochemical ports.
    We know the ships coming in and where they're coming from 
at least four days in advance.
    Shortly after 9/11, the Coast Guard wrote a new section of 
regulations that requires hours' notice that provides us with 
information on the ships, the cargo and the people on board.
    That's the same information we share with Customs and the 
new targeting unit with respect to the ships coming in.
    Fundamentally, we have, as you've seen, the Vessel Traffic 
Service, which is very much like an air traffic control center. 
That information we get is shared with them.
    They also know four days in advance where the ships are 
coming from. When the ships are approximately 50 miles 
offshore, we pick them up on radar, although the actual legal 
zone where they have to comply with the reg is 25 miles from 
the Vessel Traffic Service.
    And then from there, the ships are directed in by the 
Vessel Traffic Service into--we only have two entrances. We 
have, of course, the Angels Gate in Los Angeles and the Queens 
Gate in Long Beach.
    So we have very good track of the vessels, from where they 
report into the system until they come into the harbor.
    Once--at three miles out, the pilots come on board the 
vessels, and the pilots take them into the docks.
    So we have very good awareness of where the vessels are, 
where they're coming in. We know long before they are coming 
in, and we have made the decision what we're going to do with 
the vessels days before they appear on the radar of the Vessel 
Traffic Service.
    And that decision could be anything from letting them come 
into the dock after picking up a pilot; They could be boarded 
by a joint boarding team out at sea;.
    They could be escorted in by Coast Guard cutters or have 
sea marshal teams embark.
    So with respect to the knowledge of the--I think the long-
term view of maritime domain awareness is knowing where vessels 
are hundreds of miles out to sea or at the point where they 
leave the docks at Hong Kong, Singapore or Yokohama or any 
other Asian countries.
    At this point we have information from the computer 
database four days before they get in, and we have the physical 
idea of where the vessels are when they check into the Vessel 
Traffic Service system.
    Mr. William Ellis. Thank you. If I may touch on the 
petroleum industry and the liquid bulk cargo that comes into 
our port, Long Beach, as indicated, is one of the largest ports 
to receive this type of cargo in the country.
    At the time of 9/11, of all the terminal operations that we 
had in the port and continue to have to this point, the 
petroleum industry, because of their safety requirements and 
because of the nature of the product they deal with, had in 
place more security and more safety provisions than any other 
portion of the industry.
    We find as we look about the port and we check for 
weaknesses in security, that of all the operators within the 
port, the petroleum industry probably has the better systems in 
place for dealing with problems on their facilities.
    However, there are still a good number of vulnerabilities 
in terms of the pipelines that lead to and from those areas.
    We've been working with Sandia to look at those facilities, 
that--and that infrastructure that leads in and out of the 
port, to identify vulnerability issues and try to develop 
methods to provide the protection levels that we feel are 
necessary for the facilities themselves.
    The terminals that you see, that you flew over and had the 
opportunity to look at today, are very well secured. However, 
the infrastructure that feeds those causes us concern. And also 
the movement of the ships coming in and out of the port is also 
an area of concern.
    Ms. Sanchez. Thank you, Chief.
    The Chief on trucking?
    Chief Cunningham. Yes. I believe that that's probably the 
most complicated out of the three, the three that you asked us 
to comment on. It is a very complicated situation. Certainly 
you are familiar with those complications.
    We have approximately 11,000 truckers that are registered 
in the Southern California region. Many of them are independent 
operators. And so there's no--no way to reach all of the 
truckers in any type of coordinated fashion. This presents 
unique problems, especially when you are doing an orange or the 
maritime security alert is enacted. This makes it very 
difficult.
    However, there are several approaches that have been used 
in the past to address the truckers. There's several 
professional associations, specifically the California Truckers 
Association. Many of the operators work through the California 
trucking associations.
    We also reach the truckers through the shippers who hire 
many transportation companies, and we communicate through those 
shippers.
    When the--the fact of the matter is, we have so many 
truckers and operators that we do have a high incidence, higher 
than any other portion of the trade, of fraud and corruption 
within the truck drivers, meaning cargo theft and the like. So 
it does require a lot--and coordinated investigations with the 
highway patrol, with Los Angeles Police Department, Long Beach 
Police Department and others that participate in the task 
forces that we do to address this issue.
    When the alerts had increased, we do--there is a plan where 
we assign--police officers are assigned to trucking routes, and 
the highway patrol does likewise.
    And in this plan, we identify those truckers most likely 
that are overloaded;.
    Those truckers that perhaps have fit a profile of deserving 
a stop because of the load or because of the type of cargo that 
they're carrying--if it's HAZMAT or some other type of cargo, 
that there may be a high-risk on the freeway system.
    We also have an intramodal Committee that we address. This 
Committee is a Committee of terminal operators that deal with 
issues, trucking issues. And usually we address this Committee. 
And also we'll do posting with requests or security requests 
through this Committee that accesses and outreaches to the 
trucking industry.
    Ms. Sanchez. Thank you, Chief.
    And lastly, I assume that you pay for all of that or your 
municipalities pay for all of that extra work that you have to 
do?
    Chief Cunningham. You are correct.
    Ms. Sanchez. Thank you, Chief. And thank you for indulging 
me, Mr. Chairman.
    Chairman Cox. The gentlelady from the Virgin Islands, Ms. 
Christensen, is recognized for questions.
    Mrs. Christensen. Thank you, Mr. Chairman.
    I know many of my questions have been answered in part or 
in whole, the questions or expanded answers. So some of my 
questions will be follow-up.
    And, Captain Holmes, I will start with you because I also 
share the concern about the new emphasis on preventing 
terrorism and the impact on your other missions.
    And I wanted to know just how specifically, how much 
staff--how much of your staff has increased since 9/11, and 
also your assets?
    Captain Holmes. I think the best thing for me to do would 
be to give you, as opposed to trying to give you roundabout 
figures, is give you exact figures and respond to that one in 
writing because we had that substantial increase in hardware, 
physical hardware--boats, marine safety and security team, 
which is a 100-man team which was out on the water today.
    We have had a significant influx of personnel, plus we have 
a number of reserves that have been called on active duty.
    So what I would have to say is we have been fortunate. 
We've been significantly plussed up with resources. But for me 
to give you an accurate depiction, it could be something that I 
would have to go back to the office and get the exact numbers 
and provide it to the Committee if that's okay.
    Mrs. Christensen. Fine. Thank you.
    How many of your personnel--what percentage are reservists, 
and would you have any concern about the effect of activation 
on recruitment or the sustainability of the operations?
    Captain Holmes. That's an excellent question.
    Initially after 9/11, about a quarter of my people were 
reserves. We went from approximately 250 to 350 people, and 
that 100 people were reserves. That really had a number of 
concerns associated with it.
    One is, of course, disruption of the lives of the people 
who are reserves;.
    Economic hardships: We had reserves that were businessmen, 
that owned their own business, and, of course, went back--went 
into the Coast Guard Reserves and lost substantial amounts of 
income based on coming into the reserves.
    And the other thing is something that people often times 
don't recognize. My reserve force is made up largely of first-
responders from other agencies.
    If I had to say, the majority of my people are firefighters 
and police officers. So when I put on--.
    For example, after 9/11 we instituted the Sea Marshal 
Program. We initially trained 100 Sea Marshals. Then we had 55. 
Probably 50 of those were police officers, which I had the sort 
of angst of knowing that I can--.
    You know, in past times when you pulled reserves up to go 
overseas, you don't also have a crisis at home.
    So I had to basically balance the issue of whether it was 
better for me to have 10 LAPD officers as Sea Marshals or 
whether it would be better to leave them with the LAPD during 
this crisis.
    We had a number of law enforcement people. So that was one 
of the things that we really--really, it has to be considered 
in this sort of new era of homeland security.
    A lot of the reserves are first-responders, which are 
taking away from first-response organizations.
    I will give you a case in point. The Chief of Police of 
Pasadena is one of my reserves, and he was called up, and he's 
now overseas with one of the port security units.
    So the issue is, is the Chief of Police of Pasadena better 
off as being Chief of Police of Pasadena or is he better in the 
Coast Guard?
    There's, of course, healthcare issues. There's insurance 
issues. There's family issues.
    We're very cognizant of that and very cognizant of trying 
to treat them well so they continue to be Coast Guard Reserves.
    We're fortunate in that when we got our plus up in 
resources, most of our reserves--or I think I can say all of 
our reserves that we kept on now that are principally sea 
marshals and boat operators, are people that wanted to stay on 
the reserves.
    It worked out that we were able to let most, if not all, of 
those people go home who wanted to go home and keep those 
people who wanted to stay on.
    And we have been fortunate to have a number of people who 
were reservists who decided to go into the active Coast Guard, 
as well.
    Mrs. Christensen. Thank you for your answer.
    And it is an issue this Committee has been concerned about. 
It was discussed yesterday at NorthCom, the calling in of the 
reservists and the impact it has on the communities and that 
now need additional protection.
    The next question will go to Mr. Ellis, I think.
    Chief Cunningham--when Chief Cunningham talked about the 
$15.5 million, I believe that was just for Port of Los Angeles.
    And so, Mr. Ellis, did you do the same kind of--what did 
you request for Long Beach?
    Mr. William Ellis. Chief Cunningham, if I recall, submitted 
grant applications for $15.5 million.
    Port of Long Beach submitted grant applications for $20.2 
million.
    Ms. Christensen. So we're far short of where we need to be. 
And my last question would be a follow-up on the 
noncontainerized cargo.
    Mr. Ellis talked about the petroleum products. But I guess 
there are other kinds of noncontainerized cargo which I would 
like to cover, the technology that we're funding.
    What are the program protocols for screening 
noncontainerized cargo?
    And are there concerns that we're not addressing this?
    Mr. William Ellis. Let me step back.
    Operation Safe Commerce is primarily focused on 
containerized traffic that comes into the port.
    We see a wide variety of commodities that come in, in bulk 
form, all the way from shiploads of fruit from South and 
Central America to lumber from Indonesia to obviously the 
petroleum and chemicals products that come in.
    There's a variety of protocols that deal with the 
inspection of those, and I think that would be a step out of my 
territory if I didn't allow Ms. Adams to respond. She can tell 
you more appropriately.
    Mrs. Christensen. Thank you.
    Ms. Adams. I will attempt.
    In terms of bulk and break-bulk cargo, physical inspections 
can occur on that cargo. For example, we can look at the 
palletized, you know, bananas and such that are coming in.
    In addition, from a cruise standpoint, the Immigration 
officers, which are now under Customs and Border Protection 
with me on the port, are all checked out. 100 percent of all 
the ships that come into the port from foreign lands are 
inspected from an Immigration and cruise standpoint, and the 
risk is assessed in that manner, as well.
    So the other kinds of cargo that come in are coils of 
steel. In the event inspections of that need to occur, the 
inspections are more difficult, but we can still inspect them 
in general.
    And for some of the palletized cargo, we will use the VACIS 
equipment on that.
    Mrs. Christensen. Thank you.
    Chairman Cox. I thank the gentlelady.
    The gentleman from Florida who's joined our hearing and 
made extraordinary efforts to be with us, and we thank you for 
that, Mr. Diaz-Balart from Florida.
    Mr. Diaz-Balart. Thank you, Mr. Chairman. It's a pleasure 
to be here--.
    Mr. Diaz-Balart. It is a pleasure to be here.
    Mr. Chairman, I wish to commend you for holding this 
hearing on the protection of our commerce. Few issues are as 
important.
    Being from south Florida where we have a number of very 
significant ports, both sea and airports, I am well aware of 
the importance of trade being facilitated and really made 
possible by those ports to our economy, thus the need to 
protect them.
    In the short period of time that I've been here, by hearing 
the end of testimony and the answers to the questions that our 
colleagues have been making, I've been able to learn very 
important matters.
    It seems as though what, pretty much what Latin America is 
to south Florida, Asia is to Los Angeles/Long Beach.
    I don't think we're at 90 percent, which is, I think, Ms. 
Adams pointed that out, that percent of the cargo that comes to 
L.A./Long Beach is from Asia. But we're near in terms of the 
presence of Latin America to our area.
    That was--to me it kind of created a point of concern the 
other day when in a Subcommittee hearing in Washington, we 
learned that none of the ports that have been entered into--
that agreements have been entered into with, in the--in this 
marvelous program that I'm very encouraged by, the Container 
Security Initiative, have been with Latin America. That was a 
point of concern. And obviously, none of the top 20 ports we 
learned are Latin American ports.
    But when you are from south Florida, certainly our 
percentage
is very high of the trade with Latin America. So I would
hope--.
    And perhaps, Ms. Adams, I know that you are specifically 
dealing with and busy in dealing with Los Angeles/Long Beach, 
but if you could also transmit our concern to the DHS, that's 
something that I would appreciate.
    I would like to try to hone in on, in the context of this 
extremely encouraging program, the CSI to the knowledge of you 
distinguished panelists, of how effective, so far, and I 
recognize this is a new reality, the CSI and agreements that 
have been recently entered into, but how effectively has the 
flow of information been, for example, from Customs information 
and foreign ports.
    If you already addressed this, I'm sorry that I wasn't able 
to be here for your testimony.
    How effective has the flow of information been from foreign 
ports to people working here in Los Angeles?
    Ms. Adams. The flow of information has been very effective. 
They do the process of analysis of all containers aboard ships 
that come this way.
    And when they find a container of interest, they consult 
with the foreign Customs counterparts and determine if an 
examination can be conducted.
    If it's conducted, the results of those examinations are 
sent over to us with a message.
    I myself am copied on these messages, so I know they are 
coming over. And they detail closely what they are interested 
in about that container, what the results of the analysis was, 
and what the results of the exam was. So it is coming over 
quite effectively.
    Mr. Diaz-Balart. And what mechanisms have you developed to 
share, the best practices if you will, between ports such as, 
for example, here Los Angeles/Long Beach and Miami?
    Ms. Adams. Well, it's interesting that Miami is also one of 
the national training centers for the staff that are going to 
be deployed overseas for the Containers Security Initiative. 
L.A./Long Beach, we are, as well.
    And that's very reflective of the targeting expertise that 
the two ports contain amongst the staff, so as the people being 
deployed overseas come in, all of that expertise is coming out 
in that training.
    In addition, I know that we here at L.A./Long Beach have 
sent people to Miami, for example, to participate in an 
examination technique training that Miami conducts.
    So there's a lot of information sharing going on amongst 
the ports. We're in constant communication with our networks, 
our peers, and not just at my level but the staff-to-staff 
level--pick up the phone and call each other anytime you have 
found something interesting.
    So I know that a lot of the expertise in both ports, not 
just Miami and L.A./Long Beach, we help liberate that expertise 
and all the techniques that have been proven effective to the 
seaport staff from around the country.
    Mr. Diaz-Balart. Thank you very much, and I look forward to 
reading the written testimony from all four of the panelists.
    Chairman Cox. I want to thank the panel. You've been iron 
men and women here.
    And we've given you quite a long spell, and particularly so 
because you were helpful to us before we got here.
    I want to thank you again for not just the cooperation and 
assistance you provided the committee on this visit but, more 
importantly, for the work that you do every day to protect, as 
we've heard during this hearing, not only the people who live 
here in Southern California but the commerce of the entire 
country and, indeed, the world.
    We're going to do everything that we can to give you the 
resources and information that you need to do your job even 
better. And we thank you.
    And with that, I will excuse the panel.
    Our next panel is equally distinguished, and I want to 
thank our next panel for your patience.
    While we are waiting for our panel to be seated, I want to 
make a special recognition of two of the members of this panel, 
who are well known to everyone here, two sheriffs, Lee Baca and 
Mike Carona.
    Lee Baca runs the largest sheriff's department in the 
nation. Mike Carona runs the fifth-largest sheriff's department 
in the nation.
    And I would like to present to you two special awards if I 
may.
    Chairman Cox. This is what homeland security is all about.
    In the days following September 11, President Bush made it 
very clear that we got to pull together and work across 
jurisdictions.
    No two people in America are better known within their 
jurisdictions as leaders than Sheriffs Baca and Carona.
    They are also well known across the nation, and no two 
people have better heeded President Bush's call for their 
jurisdictional cooperation, sharing and work than these two 
sheriffs.
    So our Committee has decided to create a Chairmans Award 
for Homeland Security, which we will give, not just to you, but 
others in the future. But you two are the first two to receive 
this because, as Secretary Ridge observed during his visits 
here, you've been leading the efforts of fusion and teamwork 
that will make the homeland security a success.
    So it's my honor to present to you these two awards, 
Sheriff Baca.
    Sheriff Baca. Thank you very much.
    Chairman Cox. Sheriff Carona.
    Sheriff Carona. Thank you.
    Chairman Cox. Our next panel comprises of Sheriff Lee Baca, 
Los Angeles County;
    Sheriff Michael Carona, Orange County;
    Doris Ellis, Director, Sandia Laboratories;
    Kenneth A. Price, Senior Inspector, Bureau of Customs and 
Border Protection, Department of Homeland Security.
    I want to thank each of you. We have your testimony. It's 
part of the record, and we invite you to summarize or provide 
additional material in your direct examination.
    And we will begin with you, Ms. Ellis.

 STATEMENT OF DORIS E. ELLIS, DIRECTOR, INTERNATIONAL SECURITY 
             PROGRAMS, SANDIA NATIONAL LABORATORIES

    Ms. Doris Ellis. Mr. Chairman, distinguished members of the 
Committee, thank you for this opportunity to testify.
    I'm Doris Ellis. I'm the Director of International Security 
Programs at Sandia Labs.
    Sandia is a multiprogram laboratory of the U.S. Department 
of Energy's National Nuclear Security Administration.
    Sandia's laboratory director, Dr. Paul Robinson, sends his 
regrets that he couldn't be here.
    With your permission I would like to read his statement, as 
well as my own.
    As you know, last summer the cities of Long Beach and Los 
Angeles took the initiative to form groups, and prior to 
funding being available from the TSA, they entered into a 
funds-in agreement with Sandia Labs for our assistance with the 
OSC.
    You might ask, why a laboratory like Sandia?
    Sandia has over 50 years' experience in security systems 
engineering for our nation's nuclear weapons. As DOE's lead 
laboratory for physical protection of nuclear materials and 
weapons, both at fixed sites and in transit, Sandia is a major 
resource of expertise for security of high-consequence assets.
    Sandia has developed security technologies. We design, 
evaluate and install systems and provide training in related 
subjects such as vulnerability analysis and performance testing 
around the world and continue to provide training to both 
countries in which we have interests and domestically.
    Other agencies also ask for our support in security issues-
the Department of Defense, the National Institute of Justice, 
the Secret Service, the Federal Aviation Administration, state 
and federal corrections institutions, public schools and even 
the 2002 Winter Olympic Games.
    We also have a leadership position and responsibilities in 
several nonproliferation and nuclear materials control 
programs.
    We are the systems integrator for the ``Second Line of 
Defense,'' which is a cooperative threat-reduction program that 
started in Russia and has now spread to other countries.
    The focus of that program is to deter, detect and interdict 
nuclear materials or weapons that are smuggled. This includes 
sea, land, airports and seaports.
    We have the lead in the Department of Energy's role in the 
security initiative for megaports.
    Our approach to the Operation Safe Commerce project at Long 
Beach and Los Angeles is a rigorous one. We start with an 
indepth threat analysis, and follow that with a Security 
Effectiveness Assessment. And with that have a baseline to 
identify security improvements, both for operations and 
systems, as well as technology.
    The job then comes to us to assist the ports to select 
technologies and procedures for recommended security upgrades. 
And finally, after we evaluated the prototypes, to help them 
oversee the implementation.
    Apart from Operation Safe Commerce activities, Sandia has 
been involved in a number of research and development 
activities that target threats to U.S. borders. We developed 
sensor systems for chemical, biological, radiological and 
nuclear explosives.
    We're currently demonstrating systems for protecting 
against chemical or biological attacks in airports and subways.
    We've also had significant success in the laboratory with 
spectral sensor systems to identify radiological materials as 
they pass quickly through portals, vehicle or pedestrian. Our 
hope is to move those systems from the laboratory into 
industrial mass production.
    Again, in summary, the challenge of securing our borders 
and ports against new threats is formidable, and it's dynamic. 
It continues to grow as technology around the world grows.
    We think Operation Safe Commerce is an important component 
to that as a response to those threats. And we're proud to be 
part of the team effort with the Ports of Los Angeles and Long 
Beach, the Coast Guard, the Customs Service and the marine 
cargo industry to meet this challenge.
    Thank you, Mr. Chairman. I would be pleased to respond to 
any questions.
    [The statement of Ms. Doris Ellis follows:]

                  PREPARED STATEMENT OF DORIS E. ELLIS

    Mr. Chairman and distinguished members of the committee, thank you 
for the opportunity to testify.
    I am Dori Ellis, director of International Security Programs at 
Sandia National Laboratories. Sandia is a multi-program laboratory of 
the 'U.S. Department of Energy's National Nuclear Security 
Administration.
    Sandia's laboratory director, Paul Robinson, regrets that he could 
not be here today. But with your permission, Mr. Chairman, I would like 
to submit a statement from him for the record.
    As you know, the cities of Los Angeles and Long Beach took action 
on their own initiative to address the threat of maritime terrorism. 
They formed a working group to begin implementing Operation Safe 
Commerce immediately - even before the federal grant funding was 
available.
    Last year, both ports entered into a funds-in agreement with Sandia 
for assistance with their Operation Safe Commerce activities.
    Why Sandia? Sandia has over fifty years of experience in security 
systems engineering for our nation's nuclear weapons. As DOE's lead 
laboratory for physical protection of nuclear materials and weapons, 
both at fixed sites and in transit, Sandia is a major resource of 
expertise for security of high-consequence assets. We develop security 
technology; design, evaluate and install systems; and provide training 
in related subjects such as vulnerability analysis and performance 
testing. Many agencies have sought our counsel in security matters, 
including the Department of Defense, the National Institute of Justice, 
the Secret Service, the Federal Aviation Administration, state and 
federal corrections systems, public school systems, and even the 2002 
Winter Olympic Games.
    Sandia has leadership responsibilities in several nonproliferation 
and nuclear materials control programs. We are the systems integrator 
for ``Second Line of Defense,'' a cooperative threat reduction program 
with Russia and several other countries. The objective of this program 
is to deter, detect, and interdict attempts to smuggle nuclear 
materials or weapons through land crossings, airports, and seaports. We 
are also involved in an extension of the Second Line of Defense program 
to support the U.S. Customs Service with its Container Security 
Initiative at foreign mega-ports.
    Our approach to the Operation Safe Commerce project at Long Beach 
and Los Angeles is a rigorous one. We start with an in-depth threat 
analysis and Security Effectiveness Assessment. This will serve as a 
baseline for identifying needed security improvements, both in terms of 
operations and systems. We will assist the Ports in their selection of 
appropriate technologies and procedures for recommended security 
upgrades. We will then help them evaluate solution prototypes and 
oversee implementation.
    Apart from Operation Safe Commerce, Sandia is involved in several 
research and development efforts targeted to the threats that challenge 
our nation's borders. We have developed sensor systems for chemical, 
biological, radiological, and explosive materials, and we are 
demonstrating systems for protecting against chemical or biological 
attacks in public facilities such as airport terminals and subways.
    Sandia has had good success with the development of spectral sensor 
systems that can identify radioactive materials quickly and accurately 
as they pass through portals. We are hopeful that advanced nuclear 
sensor technologies currently demonstrable in the laboratory can 
ultimately be engineered into deployable systems that can be mass-
produced by industry.
    The challenge of securing our borders and ports against new threats 
is formidable. Operation Safe Commerce is an important component of the 
nation's response to this challenge. We at Sandia National Laboratories 
are proud to be part of the team effort with the Ports of Los Angeles 
and Long Beach, the Coast Guard, the Customs Service, and the marine 
cargo industry to meet this challenge.
    Thank you, Mr. Chairman. I would be pleased to respond to any 
questions.

    Chairman Cox. Thank you for your testimony, Ms. Ellis.
    Sheriff Baca, you are recognized for your statement.

   STATEMENT OF LEROY D. BACA, SHERIFF, LOS ANGELES COUNTY, 
                           CALIFORNIA

    Sheriff Baca. Thank you. Good afternoon. Welcome to Los 
Angeles County. I'm delighted to be here, Mr. Chairman, Ranking 
Member and other members of Congress.
    I also, before I begin my comments, would like to say I am 
being assisted by Mr. John Miller of the Los Angeles Police 
Department.
    As a matter of clarification, I can give my testimony; wait 
for the other two to give their testimony, and ask if it's 
possible for Mr. Miller to follow-up with his important parts.
    Is that acceptable to you?
    Chairman Cox. That's most acceptable.
    Sheriff Baca. Thank you. First of all, there are three 
things that I want to discuss in this testimony, which is 
presented in writing and is on the record for this Committee.
    It has to do with the Mutual Aid Program within the County 
of Los Angeles, which also is part of the County of Orange; We 
also have a process of area interoperability that we've been 
working on;.
    And lastly, the aspect of training needs that are essential 
for any of the effort that we're all engaged in to be most 
effective.
    First of all, the eminent threat of terrorism is certainly 
on our minds all the time. The nation sets the tone with the 
various alerts that have gone out nationally, and we in turn 
take those alerts very seriously.
    Our system here is clearly that a coordinated effort is the 
absolute answer to anything we hear were an attack to occur, 
whether it be at the Port of Long Beach, the airport, a 
refinery or any other location where people are either at work, 
in high-rise buildings or in recreational areas, such as the 
many that we have here--be it Disneyland, be it Universal 
Studios or be it any other part of Los Angeles--a county of 
million people with Orange County joining in with a total area 
of close to 14 million people.
    We're, in effect, the largest first--responder in the 
nation when it comes to coordinating police, fire and medical 
services, and a vast population, outside of New York, of Muslim 
Americans and others from various parts of the world.
    So we feel that it's our ultimate obligation to cooperate 
and coordinate with all agencies, look for the good, find the 
success, and not look critically to the point where we paralyze 
ourselves with what one of us doesn't have as opposed to what 
the other one may have.
    And under that spirit, my role as Sheriff is to be the 
coordinator of the law enforcement mutual aid in Los Angeles 
County, part of a region that is a two-county region, which I 
indicated earlier, which is Orange County.
    That means my good friend here and I have the ultimate 
responsibility for coordinating fire, medical and law 
enforcement services no matter where they come from.
    In this County of Los Angeles, there are cities. We have a 
County Emergency Operations Center of which coordinates all of 
the resources within the County of Los Angeles, as well as 
coordinates the resources that are available from the County of 
Orange.
    At any one time, these two counties can respond across 
jurisdictional lines with thousands of firefighters, thousands 
of law enforcement officers and seamlessly fall under the 
command of whoever is in charge of the local community where 
the incident may occur.
    So, for example, if it occurred in Anaheim at Disneyland, 
it would most likely be the chief of police of that city 
assisted by the Sheriff of Orange County who, in turn, if his 
resources were totally depleted, would be assisted by the 
Sheriff of Los Angeles County, and thus the process moves 
seamlessly and smoothly.
    Today you focus significantly on port security and the 
things concerning the great harbor that is here.
    We have a Port Security committee, and the sheriff's 
department participates as a member of this multiagency 
committee, made up of state, local and federal people, headed 
up by the Coast Guard, as was testified to earlier.
    Our captain of our Emergency Operations Bureau is the 
leader of our Terrorist Early Warning Group, which is a 
significant part of the Port Security Executive Steering 
Committee. So, in effect, whether it's lateral communication or 
vertical communication, we have seamless connectivity.
    The Terrorism Early Warning Group has participated in the 
Port of Los Angeles and Long Beach Assessment Team for the past 
four months, and we completed 60 target folders of site-
specific threat facility assessment, which includes the Vincent 
Thomas Bridge, cruise terminals, Queen Mary, Terminal Island 
Federal Prison, oil facilities, cargo container operations and 
other targets.
    We've also completed 18 play books concerning the types of 
attacks, which is another element of preparation, whether it's 
weapons of mass destruction, that may be radiological, 
biological, explosive, chemical, as well as rogue vessel attack 
or other maritime scenarios.
    The final port security plan is being compiled now and will 
be disseminated by the United States Coast Guard. As you can 
see, we're very busy.
    The second point concerns communications and 
interoperability. The vessels that we saw, whether commanded by 
the Coast Guard or L.A. Port Police or the L.A. County 
Sheriff's Department or the Long Beach Police Department, 
whether the vessels are a part of the fire department of the 
City of Los Angeles or the County of Los Angeles, including 
units from the FBI, whether the units are of local sheriff's 
department or the LAPD, it matters not.
    Whether it's a helicopter, a radio car, a vessel on water 
or a human being with a handheld radio, we now have a form of 
interoperability that gives us command and control across all 
jurisdictions. We certainly need to expand this technology 
because it is limited in terms of its volume that it can 
maintain. But we're moving in the direction that I think this 
nation requires in solving, through technology, the very 
difficult problem of communicating across jurisdictions and 
equipment.
    Lastly, I will say this, that part of the difficulty for 
all first-responders, whether it's in this multilevel process 
that we use here very frequently, is that the training that we 
must do is emerging in a way that heretofore was unpredicted.
    What we really have to have is an appropriate training 
facility here in this part of the United States for all levels 
of first-responders.
    So there are over 30,000 law enforcement officials 
certified to enforce laws in the County of Los Angeles alone. 
When you look and combine the two counties together, you're 
certainly going up to that 34--, 35,000 level of first-
responders.
    We need to design, and we are designing a facility now, but 
the federal government, along with the state government and 
local governments, must find a way to fund such a facility 
because of the continuing threat of terrorism is here in this 
now-and-ever-present generation of the world and social chaos 
when it comes to who has more, who wants to take it away from 
those who have it.
    I want to close my comments with the name of one individual 
to run home a very serious point here.
    I would like you to remember the name of John Noster, N-o-
s-t-e-r. This is a person who was arrested by a team of law 
enforcement officers from the highway patrol, the Los Angeles 
Police Department and the Los Angeles County Sheriff's 
Department and other policing agencies in a task force that 
deals with stolen vehicles and everything, any kind of crime 
associated with vehicles.
    When this man was being investigated for a fraud, 
essentially, when it came to how he was leasing vans and 
leasing trucks to move cargo of some type or moving products of 
some type, we found that he had three 100-gallon barrels of jet 
fuel;.
    He had six motorized buggy-type vehicles that, we don't 
know, but we can imagine what he wanted to do with them in 
terms of making these vessel container--in making these buggy-
type vehicles--weaponize these container vehicles with either 
fuel or explosives of some kind;.
    He had thousands of rounds of ammunition; he had detonation 
devices, and he had plenty of literature that indicated to us 
that this man, even though he's not from the Middle East, even 
though he's a computer technician that somewhat is unemployed, 
that he was prepared for a ``Timothy McVeigh'' type attack.
    That tells us that this whole aura of terrorism is tempting 
to people who are unstable, who carry hate of whatever form 
that it may be in their hearts. And I feel that we have to 
intensify the priority of what we are doing here.
    And I'm pleased to see that the ``New York Times,'' in 
today's editorial, makes comment to the fact that we must keep 
this program up and not weaken our resolve and look at this as 
something that's kind of dying in terms of its potential 
threat.
    There are people who have been saying in Congress that 
there's no need to increase funding for this; that things seem 
to be waning and so forth.
    And I believe that your Committee and the work that you're 
seriously engaging in contradicts that kind of commentary.
    I think that you can see by what was said earlier in the 
first panel, that we still need a tremendous amount of help 
here locally.
    Thank you very much.
    [The statement of Sheriff Baca follows:]

                  PREPARED STATEMENT OF LEROY D. BACA

My brief testimony today will address the two specific issues 
requested, security in the Port of Los Angeles/Long Beach, and inter-
jurisdictional intelligence sharing between Los Angeles and Orange 
Counties.
A third initiative that we are actively pursuing is the establishment 
of the Western Region Public Safety Training Center (WRPSTC) in 
Lancaster, California. This endeavor will fulfill the overwhelming need 
to train more than 30,000 local, state and federal law enforcement 
officers in our region. This state-of-the-art facility will be designed 
to accommodate basic and advanced specialized training in all subjects 
related to preparation and response to acts of terrorism. It will 
support a new curriculum that will become a national benchmark for 
training, while supporting law enforcement intelligence and operational 
issues, and provide technical assistance to all public safety agencies. 
To lead the nation in providing this specialized instruction and to 
develop consistent strategies for universal education, the Los Angeles 
County Sheriff's Department proposes the building of this WRPSTC, which 
will be the first major, advanced/specialized training facility in the 
western United States. Federal assistance in funding of this program is 
absolutely essential (Phase 1, $100 million; Phase 2, $150 million).

Although the Ports of Los Angeles and Long Beach are not in the primary 
policing jurisdiction of my Department, any incident in the port 
related to terrorism or a natural disaster will almost certainly have a 
county-wide impact. A coordinated effort among all agencies and 
disciplines will be required to manage the necessary resources and 
personnel. In my role as the Sheriff, I am the coordinator for law 
enforcement mutual aid in Los Angeles County and for California State 
Region I--Los Angeles and Orange Counties. In addition, in the event of 
an activation, I serve as the Director of Emergency Operations for the 
County of Los Angeles, responsible for coordination of all response 
efforts of the 88 cities within the county. This includes the 
management of the County Emergency Operations Center.

The Sheriff's Department has participated in two main efforts regarding 
security in the ports during the past couple years. These include 
active membership in the Port Security Committee and Assessment Team 
(to develop a comprehensive Port Security Plan which will be 
disseminated by the U.S. Coast Guard.), and Communications 
Interoperability--one of my highest priorities.
Several members of the Los Angeles County Sheriff's Department have 
been serving on the multi-agency Los Angeles/Long Beach Port Security 
Committee, which was initiated and hosted by the U.S. Coast Guard. In 
addition to participating in the full committee, Captain Michael 
Grossman, of our Emergency Operations Bureau/TEW, is a member of the 
Port Security Executive Steering Committee. Deputy Lance Wulterin, an 
investigator from the Terrorism Early Warning (TEW) Group, has been on 
loan to the Port Assessment Team for the past four months. During this 
time the team has completed 60 Target Folders, which are site specific 
threat and facility assessments. These included the Vincent Thomas 
Bridge, cruise terminals, Queen Mary, Terminal Island Federal Prison, 
oil facilities, cargo container operations and others. They have also 
created 18 Playbooks, which details pertinent information regarding 
specific types of attacks such as WMD, radiological, biological, 
chemical, explosive, as well as rogue vessel attack and other maritime 
scenarios. The Playbooks also identify necessary resources and course 
of action development to respond to these specific types of incidents.

Communications Interoperability is one area in which we have made 
notable progress. Approximately one year ago, the Los Angeles Regional 
Tactical Communications System was created. Their mission was to 
enhance the safety of the citizens of Southern California by providing 
the highest degree of operational communications interoperability among 
the public safety agencies of Los Angeles County and the five adjacent 
counties, and to do so in the most efficient and cost effective manner 
possible. Administered by an executive committee, that is Chaired by 
Captain Robert Sedita, of the LASD Communications and Fleet Management 
Bureau, it represents public safety agencies from the federal, state, 
and local level. Members include representatives from the Los Angeles 
County Police Chiefs, Los Angeles Area Fire Chiefs, Federal Law 
Enforcement, the Los Angeles City Police and Fire Departments, the 
California Highway Patrol, the Los Angeles County Fire Department, and 
the Los Angeles County Sheriff's Department.

Since its inception, the LA Regional System has witnessed an 
unprecedented level of cooperation between agencies. Agencies have 
pooled resources, donated channels for interoperability, began sharing 
infrastructures and designed and implemented operational protocols. 
Specialized equipment has been acquired from the Federal Government and 
installed at the Sheriff's Communications Center allowing for the 
merging of different public safety radios into interoperable platforms.

A Recent demonstration conducted in LA/Long Beach Ports attested to the 
current level of success in achieving communications interoperability 
between all levels of public safety . Representatives from the 
following agencies participated in the demonstration; U. S. Coast 
Guard, Long Beach Police Department , California Highway Patrol, Los 
Angeles County Fire Department, United States Secret Service, Los 
Angeles City Fire Department, Arcadia Police Department, Manhattan 
Beach Fire Department, California Army National Guard, Los Angeles 
Police Department, Long Beach Fire Department, United States Custom's 
Service, Port of Long Beach Security, Federal Bureau of Investigation, 
and Los Angeles County Sheriff's Department.

Public safety is already enjoying the benefits of the LA Regional 
System. One example occurred recently during a large anti-war 
demonstration at the Federal Westwood Complex. Over six hundred law 
enforcement officers from three major agencies were deployed to deal 
with this incident. For the first time in history, a command frequency 
was created which allowed the incident commanders from the Los Angeles 
Police Department, California Highway Patrol, and the Sheriff's 
Department to communicate directly with one another on their existing 
department radios. This allowed for the efficient , rapid, and 
coordinated movement of public safety resources to deal with this fluid 
situation. This was the first glimpse of what we can accomplish.

I must point out however, that we are not finished. There is much more 
work to perform in expanding and refining this concept. We need to be 
able to bring all public safety agencies into a Southern California 
region-wide footprint including all of our surrounding counties and 
their agencies. Communications interoperability is our number one 
priority and we need the support and assistance of our State and 
Federal Legislators to help public safety accomplish this goal.

The issue of inter-jurisdictional intelligence sharing between Los 
Angeles and Orange Counties is addressed in several ways. In 1996, the 
LASD created the Terrorism Early Warning (TEW) Group. The multi-agency 
(local, state and federal) and multi-disciplinary (fire, law and 
health) network within L.A. County to gather, analyze, and share 
information related to terrorist threats. The TEW maintains daily 
contact with the FBI's Joint Terrorism Task Force (JTTF), the 
California Anti-Terrorism Information Center (CATIC), and other 
federal, state and local agencies dealing with terrorism issues. The 
TEW has been replicated in Orange County where we maintain constant 
contact on issues of emerging threats and related cases. TEW's have 
also been established in adjacent counties and are developing in many 
cities across the nation.

I created the Region I Homeland Security Advisory Council (HSAC) with 
Orange County Sheriff Mike Carona, to provide direct interaction among 
senior executives from industry and the community with the law 
enforcement and public safety services in support of homeland security, 
civil protection, and critical infrastructure protection. This effort 
will enhance the effectiveness of the Los Angeles and Orange County 
Terrorism Early Warning (TEW) Groups by providing a capacity for direct 
contact with subject matter experts for counsel and advice in support 
of planning, training and activation.

The Terrorism Liaison Officer (TLO) Program , based on a successful 
model implemented in the South Bay area of Los Angeles County has been 
expanded and implemented within our operational area (county). Every 
Sheriff's station, law enforcement, fire, and health agency in the 
County has a liaison officer assigned to facilitate networking and 
information sharing within mutual aid areas in the county, and with the 
TEW. The Terrorism Liaison Officer program is also linked with the 
private sector through the Region I Homeland Security Advisory Council. 
The TLO concept will also be replicated within Orange County, which 
will further enhance the flow of information from the field to the 
TEW's.

We will soon be receiving Federal funds from the Homeland Security 
Grant Programs that will enable us to enhance our resources and provide 
the necessary equipment to protect our personnel in the event of a 
terrorist attack. We have successfully worked with all of the agencies 
in our County to ensure that these funds have been distributed wisely 
to best prepare one of the most target rich and complex regions in the 
Nation.

    Chairman Cox. Thank you, Sheriff Baca.
    Sheriff Carona, you are recognized for your opening 
statement.

    STATEMENT OF MICHAEL S. CARONA, SHERIFF, ORANGE COUNTY, 
                           CALIFORNIA

    Sheriff Carona. Mr. Chairman, thank you very much for the 
opportunity to be here, and honorable members of the Committee. 
I want to thank you for coming to California and hearing our 
testimony without requiring us to come to the East Coast.
    I want to thank you very much, and my colleague, Sheriff 
Baca, for the Chairmans Award. That was truly a surprise.
    We have a great partnership and great working relationship 
here that predates September, and I think it's the stronghold 
in terms of what you're looking for in terms of models across 
the nation.
    By way of background, you already have a written testimony. 
I will try to keep my remarks very short, just an overview 
quickly of Orange County and a description of what you're 
seeing here between Orange County, Los Angeles County and San 
Diego County.
    Orange County is the second-largest county in California. 
We're the fourth-largest county in America by population. But 
more importantly, we are the 31st largest economy in the world.
    When you look at Los Angeles and Orange County combined, 
there's nearly 14 million in population. When you move to our 
neighbor to the south, San Diego County, you now have the 
Number 1, Number 2 and Number 3 largest counties in California, 
Number 1, 4 and 5 in America.
    You have the largest ports--Los Angeles, Long Beach, the 
port in San Diego, and clearly the ports that we have, three of 
them in Orange County with over 16,500, both commercial and 
private vessels.
    There's a significant target here that exists. And frankly, 
we identified those as potential targets of weapons of mass 
destruction before September 11, and ran training.
    We also have the luxury here in Southern California, 
Sheriff Baca, myself and Sheriff Gallander on the Gold Coast, 
as we call it, of preparing ourselves, not only for what may 
take place in our counties, but also the opportunity to train 
across county lines, the mutual aid that exists between Los 
Angeles and Orange County, because we're in a significant 
region, but also to be able to expand outside of our region.
    And you share those resources so that we don't have to 
replicate in each of the 58 counties specific needs. The 
partnership that exists is more than just between the Sheriffs. 
It is local law enforcement.
    And you are going to hear from John Miller today. And I 
want to commend LAPD Police Chief Willie Bratton for the great 
work he's doing under mutual aid.
    We have response plans that have been put together against 
all major targets in Southern California. We believe that is a 
model for the nation.
    But I would share with you, not only our preparedness, but 
the work that's being done by the men and women in our 
departments.
    Terrorist Early Warning Groups exist in each of the 
counties. Those Terrorist Early Warning Groups are county-wide, 
multidisciplinary groups. They look at, not only law 
enforcement issues, but public health, fire, special district, 
public utilities, and most importantly, the private sector 
which comprises about 85 percent of the infrastructure in 
America.
    We coordinate on a daily basis with our counterparts in Los 
Angeles County. The members of these teams regularly attend, 
not only seminars, but work together with TEWGs, or Terrorist 
Early Warning Groups, in the states of Washington, Nevada, New 
York, Oklahoma and Nebraska.
    We're looking to mitigate potential terrorists throughout 
the areas we have responsibility for. But we're also sharing 
that information broadly with our colleagues.
    And our recommendation to your Committee is that that type 
of interaction and networking be expanded across all 50 states.
    The private sector terrorism response groups applied both 
in Orange and Los Angeles counties through the Homeland 
Securities Advisers Committees creates a bridge for our 
businesses in the communities that have direct contact with 
such law enforcement so that we can develop planning, 
programming, training and a response plan should an activation 
need to take place.
    The challenge before all of us in law enforcement is 
clearly a daunting one. But I can tell you that here in Los 
Angeles and Orange Counties, we have a collaboration that has 
not only stood us well, but stood the citizens of Orange 
County, not just law enforcement, but fire and public health 
and the private sector. And we believe that we are doing 
everything in our power to prevent a terrorist attack.
    But should something occur, we have the response 
capabilities to make sure the citizens of our communities are 
well protected.
    Thank you very much for the ability to testify before you 
today.
    [The statement of Sheriff Carona follows:]

                PREPARED STATEMENT OF MICHAEL S. CARONA

Chairman Cox, members of the committee, thank you for the opportunity 
to testify before you today, and for giving me an opportunity in a 
summary fashion to discuss our ongoing efforts in Orange County, 
including the protection of our harbors, highlighting local efforts 
towards preparedness, and sharing an overview of our involvement with 
mutual aid and jurisdictional cooperation.

Before I do, I would like to take a moment to thank all of the members 
of the Homeland Security Committee for all of their hard work and 
diligence. Clearly, since 9-11, America, in fact, the world has 
changed. The mere existence of a Homeland Security Committee is a 
testament of how government at the federal level has adapted to our new 
paradigm and how government is providing for the people we all serve.

First, I would like to provide you with some background on Orange 
County, which is the second most populous county in California and has 
the 31st largest economy in the world. Orange County encompasses 798 
square miles with a resident population of 3 million and over 38 
million visitors annually. The County includes 34 incorporated cities, 
42 miles of coastline, 3 harbors, numerous internationally known 
tourist attractions, technical/manufacturing locations, shopping malls 
including the third largest shopping mall in the nation, John Wayne 
Airport, various venues hosting national and international sporting 
events, and large convention centers. Over 16,500 private and 
commercial yachts valued over $2 billion are moored within the three 
harbors of Orange County.

The Orange County Sheriff's Department has taken a primary role in 
preparedness for acts of terrorism within our communities. With over 
9,000 emergency responders in Orange County from law, fire, and health 
disciplines, the response capabilities of these dedicated men and women 
are, in my opinion, unsurpassed. Over 160 participants from local 
agencies respond to the County Emergency Operations Center when 
activated for the San Onofre Nuclear Generating Station annual graded 
exercise. Several tabletop and full-scale exercises are conducted each 
year to prepare our emergency responders for natural disasters and acts 
of terrorism. Utilizing Unified Command and Standardized Emergency 
Management principals, the County of Orange is on the leading edge in 
disaster preparedness and mitigation. This concept is also used in the 
fight against terrorism. Several terrorism specific exercises have been 
conducted and more are planned, to combat terrorism and its threat.

The Orange County Sheriff's Department is the local agency charged with 
the protection of our county's harbors. The department maintains a 
fleet of fifteen vessels and forty-nine deputies with ten support staff 
to protect Orange County's coastline. This 24-hour operation responded 
to 1,312 calls for service and handled over 4,329 incidents during the 
last fiscal year. The Harbor Patrol staff is trained in marine fire 
fighting, open water rescue and enforcement, hazardous materials spills 
at the operational level, and interacts diligently with local 
lifeguards, State Fish and Game, United States Coast Guard, and Seal 
Beach Naval Weapons Station staff. The high visibility approach by the 
Harbor Patrol has hardened the protection against acts of terrorism 
within our harbors and along the coastline of Orange County.

The Orange County Sheriff's Harbor Patrol trains on a weekly basis with 
federal agencies and participates in tabletop exercises with each 
discipline. The Harbor Patrol also maintains a dive team. This team 
recently received and was trained with equipment to photograph and 
monitor harbor entrances and hulls of vessels. With the close proximity 
to the Long Beach and Los Angeles Harbors, the Orange County Sheriff's 
Harbor Patrol trains closely with and works alongside Los Angeles 
County, State and Federal agencies assigned to protect their ports.

Prior to September 11th, 2001 the Orange County Sheriff's Department 
saw the need to establish a county wide multidisciplinary unit to 
enhance communication and interoperability efforts within the 114 
districts of Orange County. The Terrorism Early Warning Group was 
formed to bring law enforcement, fire, health, special districts, 
public utilities, and private sector businesses together to share and 
disseminate information and intelligence. This TEWG monitors trends and 
potentials to prevent and mitigate any potential terrorist threat to 
the Orange County Operational Area. Open source data and information 
received by Terrorism Liaison Officers from local agencies is 
collected, verified, and disseminated to local, State, and Federal 
agencies. The TEWG has developed relationships with literally hundreds 
of these agencies including private businesses throughout the nation. 
This communication link is vital during crisis management of an actual 
event and during ongoing public awareness and prevention efforts. TEWG 
maintains liaison officers within the Joint Terrorism Task Force and 
California Anti Terrorism Information Center where all information is 
shared.

    The TEWG manages a list of sites critical to the county 
infrastructure and maintains response plans based on the threat 
assessment and current terrorist trends. With over 85 percent of Orange 
County's infrastructure owned by private business, the Private Sector 
Terrorism Response Group plays an essential role with in the fight 
against terrorism. Business leaders and security personnel meet on a bi 
monthly basis to discuss current trends and potentials. These 
companies, many in the Fortune 500, are potential targets or have 
assets available during consequence management in a terrorist attack.

This year the TEWG received 77 terrorism related incidents in Orange 
County. Of these, 50 advisories have been disseminated to agencies both 
inside and outside of Orange County. The TEWG has provided 
presentations to hotel and hospital security directors, created 
dispatch advisory cards, and liaisons with the Homeland Security 
Advisory Counsel.

The Orange County Operational Area is utilizing standardized 800 
mhzradio communication equipment for interoperability between agencies. 
Every agency in the Operational Area has access to this system. 
Additionally, the Orange County Sheriff's Department and Los Angeles 
County Sheriff's Office are working to provide interoperability in 
communications for deputies working in bordering cities with these two 
counties.

The Orange County Operational Area has established training and 
equipment committees to research and recommend standardized Personal 
Protective Equipment for emergency responders. These items were also 
compared with Los Angeles County Sheriff's Office for compatibility as 
these two counties are in the same Mutual Aid response region.

An Emergency Responder Preparations Plan was developed to address 
equipment, training, planning, and exercise needs for the Operational 
Area. As a result, the FY 2002 Office for Domestic Preparedness and FY 
2003 Homeland Security Grants were utilized to meet the County 
Strategic Plan. With the equipment and training acquired through these 
grants, the Operational Area emergency responders will be properly 
equipped and trained to respond to a terrorist incident.

California is divided into Mutual Aid Response Regions. Region One 
includes Orange and Los Angeles County. These counties, particularly 
law, fire, and health agencies, have participated in several full scale 
training scenarios and tabletop exercises to establish a rapport and 
test equipment, training and communication compatibility. The Sheriff's 
agencies share a particular bond with Emergency Management. The Mutual 
Aid Response Plans and methods of operation are similar where deputies 
responding across county lines are familiar with general training and 
tactics.

The Terrorism Early Warning Groups in Orange and Los Angeles County's 
are nearly identical in concept and design. These units converse on a 
daily basis sharing information and intelligence. Members of these 
teams regularly attend training seminars, exercises, and conventions 
together. As a result of the efforts of the effectiveness of the 
Terrorism Early Warning Group, agencies from California, Washington, 
Nevada, New York, Oklahoma, and Nebraska have formed TEWG's. The 
information sharing and dissemination at a local level continues to 
grow. Monthly conference calls have been established with several 
southland agencies where information is shared regarding terrorism 
issues.

Orange and Los Angeles County's have developed a Homeland Security 
Advisory Counsel. These key leaders within the business community from 
Orange and Los Angeles County meet on a bimonthly basis. The goal is to 
provide direct interaction among senior executives from industry and 
the community with law enforcement and public safety services in 
support of Homeland Security, civil protection, and critical 
infrastructure protection. This creates a bridge for the business 
community to have a direct contact with subject matter experts for 
counsel and advice in support of planning, training, and activation.

The challenge before all of us in local law enforcement is a daunting 
one. The heightened level of vigilance and preparedness has created a 
need to prioritize and reorganize, and to focus and redeploy tremendous 
amount of personnel and resources towards the important task of 
Homeland Security.

As the Sheriff of Orange County, and as our County's Director of 
Emergency Services, I can tell you that we have been, and continue to 
do everything within our means to make Orange County as safe as 
possible from the threat of terrorism. Additionally, we are doing 
everything in our power to ensure that should something occur with our 
county, we are prepared to quickly respond and deal with that crisis. 
We stand ready to assist our neighboring jurisdictions, including our 
big neighbor to the North, Los Angeles County, should the need arise.

In closing, I would like to once again take a moment to thank the 
Congress, and specifically the members of the Homeland Security 
Committee for their hard work as we all work together to ensure the 
safety and well-being of all Americans.

Thank you.

    Chairman Cox. Thank you very much, Sheriff Carona.
    Mr. Price, your testimony?

  STATEMENT OF KENNETH A. PRICE, SENIOR INSPECTOR, BUREAU OF 
 CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Price. Chairman Cox, Representative Sanchez, 
Representative Dunn, Representative Harman, Representative 
Jackson-Lee, Representative Diaz-Balart and Representative 
Christensen, I look forward to providing testimony about 
enhancing security and protecting commerce at the world class 
Port of Los Angeles and Long Beach.
    My name is Kenneth Price. And I am a Senior Customs 
Inspector at the Ports of Los Angeles and Long Beach. I've been 
a Customs inspector for over 10 years, and I am also a member 
of Chapter 103 of the National Treasury Employees Union.
    I'm proud to be one of over 12,000 Customs employees who, 
along with INS, Border Patrol and APHIS inspectors, were merged 
to form the Bureau of Customs and Border Protection within the 
Border and Transportation Directorate of the Department of 
Homeland Security on March 1, 2003.
    Mr. Chairman, you asked in your Letter of Invitation that I 
address the role of Customs and Border Protection personnel at 
the L.A. and Long Beach ports.
    The scope of our task is enormous. Nationwide nearly 415 
million travelers, including million cars and trucks, and over 
$1 trillion worth of commercial merchandise were processed 
entering the United States last year.
    These numbers continue to grow annually. Statistics show 
that over the last decade, trade increased by 135 percent.
    Locally at the Port of Los Angeles/Long Beach, more than 
50,000 to 60,000 containers move through the port on a weekly 
basis. And on a yearly basis, over 3 million containers move 
through the port.
    Each year, as this trade traffic has increased 
dramatically, I have watched the staffing in my port increase 
only slightly. Funding and personnel levels have simply not 
kept up. In fact, Customs' recent internal review of staffing, 
known as the Resource Allocation Model, or RAM, shows that 
Customs alone needed over 14,776 new hires just to fulfill it's 
basic missions, and that was prior to September 11.
    Since then more attention has been focused on seaports. And 
it's my hope that Congress will continue to increase funding 
for personnel at my port, as well as other seaports of entry.
    If we, as a nation, are serious about adequately protecting 
our ports of entry, we need to provide the employees of DHS 
with the resources to enable them to successfully accomplish 
their missions of preventing terrorism, facilitating lawful 
trade and interdicting illegal drugs.
    I've been an inspector with Customs since November 1992. I 
worked the first eight years of my career at LAX and 
transferred to the Seaport in October 2000, which means I was 
working there on September 11.
    Since then I've observed that after-hours dockside 
boardings have decreased. Unfortunately while the number of 
regular-hour dockside and warehouse container exams has 
increased, the technology used to conduct examinations is 
inadequate.
    At the Seaport we have four mobile gamma trucks and a 
single mobile X-ray truck. These machines are simply not 
designed and built for the number of exams that we conduct. On 
more than one occasion, the machines have gone down, leaving us 
unable to conduct cargo examinations.
    In addition, our cargo manifest review units have reported 
that the new Customs 24-hour rule led to having more manifest 
information but not necessarily better. While shippers have 
been held accountable for making sure certain portions of the 
manifest are accurate, additional information required on the 
manifests are often incomplete.
    Our Outbound Cargo team brought to my attention the need 
for more laptops in the field with Internet access for use in 
the field to check manifest information, as well as the need 
for more Radioactive Isotope Identifying Devices, or RIIDs.
    These identify the type of radiation on the ship that go 
hand in hand with the pagers that we have that alert us to 
radioactive material.
    They described situations in which their radioactivity 
detecting pagers have been activated by passing trucks, but 
there's no way to be able to determine whether the shipment 
contained radioactive material for medical use, industrial use, 
or was a type used in weapons. In addition, a wider 
distribution of field cell phones is needed if we are to 
maintain even a minimal level of communication capability. It's 
important that as Congress considers upgrading nonintrusive 
inspection technology, which is what we use to refer to the 
VACIS machines that were discussed earlier, the equipment 
chosen will be able to perform as needed. While technology is 
certainly an integral part of the inspection process at our 
ports of entry, I would like to point out this kind of 
technology can never take place of the physical inspection 
performed by the BCBP personnel.
    I believe an increase in the amount of physical 
examinations done by inspectors through traditional means, as 
well as those coupled with technology, are fundamental steps 
needed to improve the security of both our ports and nation.
    To do this we need additional personnel, upgraded 
technology and the cooperation of the trade with whom we work 
closely every day. I also hope the members of this Committee 
will go back to Washington and tell your colleagues and the 
Administration what you've seen here and how important it is to 
our success and that our staffing levels be raised and that 
adequate funding for equipment is also provided.
    Thank you again for the opportunity to comment on these 
very important issues as I submit this testimony on behalf of 
all my colleagues in Customs and the BCBP, especially the 
Customs inspectors here at the Los Angeles/Long Beach Port.
    [The statement of Mr. Price follows:]

                 PREPARED STATEMENT OF KENNETH A. PRICE

    Chairman Cox, Representative Sanchez, Representative Dunn, 
Representative Shadegg, Representative Harman, Representative Jackson-
Lee, Representative Diaz-Balart, and Representative Christensen, thank 
you for the opportunity to provide testimony about enhancing security 
and protecting commerce at the world-class port of Los Angeles/Long 
Beach, California. My name is Kenneth Price and I am a Senior Customs 
Inspector at the Port of Los Angles/Long Beach. I have been a Customs 
Inspector for over 10 years and I am also a member of Chapter 103 of 
the National Treasury Employees Union. I am proud to be one of the over 
12,000 Customs employees who along with INS, Border Patrol and APHIS 
inspectors were merged to form the Bureau of Customs and Border 
Protection (CBP)--within the Border and Transportation (BTS) 
Directorate of the Department of Homeland Security (DHS) on March 1, 
2003.

    Customs personnel make up the first line of defense against 
terrorism and the influx of drugs and contraband into the United States 
at 317 ports of entry across the United States. In light of the 
tragedies at the Pentagon and the World Trade Center, Customs and 
Border Protection employees in the Port of Los Angeles/Long Beach 
Seaport and across the country have been called upon to implement 
heightened security procedures at our sea, land, and airports.

    Mr. Chairman, you asked in your letter of invitation that I address 
the role of Customs and Border Protection personnel at the port of Los 
Angeles/Long Beach. The scope of our task is enormous. Nationwide 
nearly 415 million travelers, including 118 million cars and trucks and 
over $1 trillion worth of commercial merchandise were processed 
entering the United States last year. These numbers continue to grow 
annually, and statistics show that over the last decade trade has 
increased by 135 percent.

    Locally, at the port of Los Angeles/Long Beach, more than 50,000 to 
60,000 containers move through the port on a weekly basis and on a 
yearly basis, over 3 million containers move through the port. Each 
year, as this trade traffic has increased dramatically, I have watched 
the staffing in my port increase only slightly. Funding and personnel 
levels have simply not kept up. In fact, Customs' recent internal 
review of staffing, known as the Resource Allocation Model or R.A.M., 
shows that Customs alone needed over 14,776 new hires just to fulfill 
its basic missions and that was before September 11. Since then, more 
attention has been focused on seaports and it is my hope that Congress 
will continue to increase funding for personnel at my port as well as 
other sea ports of entry. If we as a nation are serious about 
adequately protecting our ports of entry, we need to provide the 
employees of DHS with the resources to enable them to successfully 
accomplish their missions of preventing terrorism, facilitating lawful 
trade and interdicting illegal drugs.

    I have been an Inspector with Customs since November 1992. I worked 
the first 8 years of my career at the Los Angeles International 
Airport, and transferred to the Los Angeles/Long Beach Seaport in 
October 2000, which means that I was working at the Seaport on 
September 11. Since that time, I've observed that after hours dockside 
boardings have decreased. Unfortunately, while the number of regular 
hour dockside and warehouse container examinations has increased, the 
technology used to conduct the examinations is inadequate. At the L.A./
L.B. Seaport we have four mobile gamma ray trucks and a single mobile 
x-ray truck. These machines were simply not designed and built for the 
number of exams that we conduct. On more than one occasion the machines 
have gone down leaving us unable to conduct cargo examinations.

    In addition, our cargo manifest review units have reported that the 
new Customs 24-hour rule has led to having more manifest information, 
but not necessarily better information. While shippers have been held 
accountable for making sure certain portions of the manifest are 
accurate, additional information required on the manifests is often 
incomplete. Our Outbound Cargo team has brought to my attention the 
need for more laptops with internet access for use in the field to 
check manifest information, as well as the need for more Radioactive 
Isotope Identifying Devices or (RIID's), which identify the type of 
radiation in a shipment. They have described situations in which their 
radioactivity detecting pagers have been activated by passing trucks, 
and there was no way to be able to determine whether the shipment 
contained radioactive material for medical use, industrial use, or was 
a type used in weapons. In addition, a wider distribution of field cell 
phones is needed if we are to maintain even a minimal level of 
communication capability.

    It is important that as Congress considers upgrading non-intrusive 
inspection technology that the equipment chosen will be able to perform 
as needed. While technology is certainly an integral part of the 
inspection process at our ports of entry, I must point out that this 
kind of technology can never take the place of the physical inspections 
performed by CBP personnel. I believe that an increase in the amount of 
physical examinations done by inspectors through traditional means as 
well as those coupled with technology are fundamental steps needed to 
improve the security of both our port and our Nation. To do this we 
need additional personnel, upgraded technology, and the cooperation of 
the Trade with whom we work so closely every day.

    I also hope the members of this Committee will go back to 
Washington and tell your colleagues and the Administration what you 
have seen here and how important it is to our success that our staffing 
levels be raised, and that adequate funding for equipment is also 
provided. If you provide us with the tools and the manpower we need, we 
can do our part in keeping this country safe.

    Thank you again for the opportunity to comment on these very 
important issues as I submit this testimony on behalf of all my 
colleagues in Customs and the CBP, especially the Customs Inspectors 
here at the Los Angeles/Long Beach Port.

    Chairman Cox. I want to thank the panel for your excellent 
and instructive testimony.
    Before I go to questions, we want to welcome to the panel--
and that is why Sheriff Carona vacated the space--John Miller 
of the Los Angeles Police Department, Special Assistant to the 
Chief of Police on Counter-Terrorism. We welcome you.

  STATEMENT OF JOHN MILLER, SPECIAL ASSISTANT TO THE CHIEF OF 
   POLICE ON COUNTER-TERRORISM, LOS ANGELES POLICE DEPARTMENT

    Mr. Miller. Thank you, Mr. Chairman. And thank you, Sheriff 
Carona, for yielding his chair.
    We're obviously focused on the port because it's the 
largest port in America. The Los Angeles Police Department was 
tasked by Chief Bratton to stand up a counter-terrorism bureau 
to bring all of the possible resources within the department 
focused on counter-terrorism together under one single command.
    We work extremely closely with both sheriffs in Region 1 as 
the mutual aid coordinators because of our critical 
understanding of the fact that were we faced with the September 
11 type of attack, whether at the port, at the airport or 
downtown, the Los Angeles Police Department, numbering only 
9,103 officers, would not be equipped to meet that challenge.
    The Los Angeles County Sheriff's Department, in and of 
itself, would not be able to rise up to that challenge. 
However, together, the two departments combined could face 
something like that. So we have given our overarching approach 
to counter-terrorism with the mind set that in a major 
incident, it will be the joint effort.
    In regard to the port, because of the critical economic 
threat it represents, we have antiterrorist division detectives 
who are assigned down there.
    Many of the 605 high-threat locations that have been 
identified, the Terrorist Early Warning Group and LAPD of Los 
Angeles are in the port area, including tank farms or other 
places where combustible or toxic materials are stored and the 
port itself.
    For the LNG tankers which come in, which could be extremely 
hazardous if there was a bomb on board, under the Special 
Operations Bureau of the LAPD, we literally go underneath each 
one of them that is identified and cooperate with the Coast 
Guard to use dive teams to do hull searches.
    When we go to condition orange vis-a-vis the port, a Joint 
Operations command is formed with the Coast Guard as the lead 
organization, and that includes the Los Angeles Police 
Department, assets of the Port Police under Chief Cunningham, 
the Sheriff's, Customs, California Highway Patrol, which guards 
other things, the critical target of the Vincent Thomas Bridge, 
and FBI.
    Even under condition yellow, South Bureau of the LAPD 
patrols many of those critical--threat locations are within the 
port, and as our Texas colleague pointed out a number of times, 
the neighborhoods that are immediately adjacent and connect to 
the port, that would be part of that threat.
    Los Angeles is suffering right now, and this is a broader 
question than the port or the airport itself, there are 
unintended consequences of the phenomenon of ``transferred 
endangerment.'' Meaning, while it may have been identified as 
the third possibly highest terrorist threat city in the 
country, as New York which spent $207 million on antiterrorist 
efforts, and Washington, which as you all know because you live 
and work there part-time, has surface-to-air missiles in place. 
That level of target hardening makes the terrorists, at least 
based on their pattern that we've studied, look for the softer 
target.
    It's critical that we not allow the City of Los Angeles to 
become that softer target because of the target hardening.
    Yet the presence of the main threat to American cities, 
which right now is Al-Quaeda in terms of terrorism, in terms of 
California and Los Angeles in particular, has been staggering 
in recent history.
    If you go back just in this decade, the presence of key Al-
Quaeda operators in this area has been fairly wide.
    Ahmed Ressam came here on or about the millennium, although 
he was captured by U.S. Customs en route to place a bomb at Los 
Angeles International Airport. Wadi El Hage, personal secretary 
to Osama Bin Laden, lived in the City of Los Angeles before he 
was dispatched to Nairobi, Kenya, where he became the cell 
leader of the East African cell of Al-Quaeda and planned and 
executed the embassy bombings that killed 225 people.
    The Number 2 man in Al-Quaeda, Ayman Al-Zawahiri, was taken 
through a fundraising tour of California in the mid 1990s. His 
tour guide was a Santa Clara, California, resident, Ali 
Mohammad, who was a chief logistical officer of the Al-Quaeda.
    Yazid Suffat, who obtained his degree in biological 
sciences and chemistry at Cal State, actually lived here for a 
number of years with his wife and then returned to Malaysia 
where, in January 2000, he shared a secret meeting between the 
future bombers of the USS Cole and the future September 11 
pilots who would fly into the Pentagon.
    Before he was captured by Malaysian authorities working for 
the CIA, he managed to transmit funds and write a Letter of 
Introduction to provide for the visa of Zacarias Mousoui, 
another man that had been a California resident.
    Khalil Deek, an Orange County resident, considered one of 
the key planners of the millennium attacks that were to unfold 
in Jordan, was a resident of Anaheim. He was captured in 
Pakistan with an Al-Quaeda training CD that went through 
chemical, biological and explosives details.
    And Khalid Al Midhar, Nawaf Al-Hazmi and Hani Hanjour, 
September 11 highjackers, came in through Los Angeles and then 
resided here for a time where they received flight training in 
San Diego.
    So the idea that targeting infrastructure facilities in Los 
Angeles or that there's a lower level of awareness on the part 
of Al-Quaeda about the target-rich environment in California, 
or Southern California in particular, is not something that can 
be taken lightly.
    I want to say on behalf of Chief Bratton, the Los Angeles 
Police Department and Mayor Hahn, that we deeply appreciate the 
work of this Committee in getting us $12.5 million in direct 
grants to high-threat cities, money immediately, and then 
following up with the $18.7 million.
    We have spent in excess of $100 million since September 11 
in homeland security, counter-terrorism needs already. We thank 
you for the this money. It's critical.
    The only thing I would ask while I have this brief audience 
is that there be future looks towards increasing the 
flexibility for that money and cutting some of the strings 
attached to it.
    Principally, when we go to condition orange, it is a de 
facto unfunded federal mandate, meaning while those funds--and 
we understand they're coming, and we've applied for all the 
grants and are critical to our success in those efforts, we're 
not currently allowed to use them with much flexibility towards 
personnel overtime.
    When we go to orange, the greatest cost we have faced in 
Los Angeles is deploying officers on overtime at high-threat 
locations for protection.
    Thank you for squeezing me in here and thank you for taking 
the time to listen to this.
    If in your follow-up, there's any questions, I will step to 
the podium.
    Chairman Cox. Thank you, Mr. Miller. Your additional 
unscheduled testimony makes very explicit why all of what we've 
heard thus far matters, and for drawing it into such sharp 
focus, we appreciate it. I will also say that while the 
independent parts of the story that you told about Al-Quaeda 
presence in California or Southern California have been 
reported, that is very unsettling to have it all in one piece 
laid out. And, of course, there are other pieces that you can't 
talk about in a public hearing. So your point couldn't be more 
valid.
    I wonder if I can ask Ms. Ellis to address specifically the 
request made by Mr. Price for better radiological detection 
equipment and tell us whether or not Sandia has anything in the 
works or to your knowledge, or other of the national 
laboratories that might help us in this respect.
    I know there was an article in the Oakland Tribune the day 
before yesterday describing equipment that is being developed 
at Livermore, which is both substantially better, reduces the 
false positives and remarkably cheaper. Instead of millions of 
dollars per unit, it's 30--to $60,000 and expected to be 
commercially developed.
    Can you tell us what Sandia might have in this respect.
    Ms. Doris Ellis. In fact, we have a set of technologies 
that we hope to work with your VACIS systems. It's a set of 
algorithms that were developed by Sandia that will assist 
equipment that detects radiological materials to differentiate 
between medical, cobalt, for example, medical testing 
technology such as Moly 99, and special nuclear materials.
    In order to use that technology, though, you need both 
neutron and gamma detection.
    Chairman Cox. Are you saying the VACIS hardware can be 
upgraded through a software solution?
    Ms. Doris Ellis. That will help, in part, yes. In addition, 
as new technology becomes available for radiological detectors, 
this new set of algorithms could be applied to those detectors, 
as well. We've had very good luck in the laboratory.
    Chairman Cox. Sheriff Baca and Sheriff Carona, when 
Secretary Ridge visited, and in our part of that visit as well, 
we had an opportunity to ask you at that time whether or not 
the intelligence information that you are getting and sharing 
is adequate.
    We talked a little bit about problems that you had with 
clearances. And we had some of that from the preceding panel, 
as well.
    It has not been a long time since then, but some time has 
passed. Let me ask you the same questions that we discussed 
during that visit.
    Are you getting useful information from FBI, CIA and other 
traditional federal law enforcement and intelligence agencies 
routinely without having to ask for it?
    Sheriff Carona. Well,my colleagues offered me up first. And 
the answer is, it is significantly better. And I will start off 
with a baseline that if Orange County--and I won't speak for 
Los Angeles County--but Orange County had a great working 
relationship with the FBI in terms of intelligence sharing 
before September 11. That has been strengthened through our 
Joint Terrorism Task Force.
    And the problems that the last panel talked about, Mr. 
Chairman, I think are coupled with the information flow and 
money. It appears that from a local law enforcement perspective 
and from a local perspective, money flows. Information flows 
very freely from us to the federal government. It just doesn't 
come back in the same fashion.
    And I say that kind of tongue in cheek, but I think they're 
both important.
    One, the investment, dollarwise, needs to be made at the 
local level. I know you are examining that. The same thing with 
the information side of it.
    By Executive Order that the President put out years ago, 
there are protocols in which information that is collected by 
local law enforcement is shared with the federal government, 
then gets classified based upon those classifications.
    And with the clearances that we have on the local level, 
the federal government may not be able to share information 
back with us, even though we're the initiating agency. That 
needs to change. I know the director of the FBI is working on 
that.
    A portion of that is just trying to figure out how we're 
going to communicate together, a sanitizement of information.
    Also, the ability to get clearances where necessary to 
local law enforcement in a much more expedited fashion.
    There aren't many of them out there. And a lot of that is 
simply because there wasn't a need in the past.
    So the short answer to your question is, it's significantly 
better, but we have a long way to go, sir.
    Sheriff Baca. My belief is similar to Sheriff Carona's, 
obviously.
    There's a concern on my part that another attack will occur 
somewhere in America. I think this is something that we really 
have to accept as more than just a probability. I think it's a 
certainty that it's close to that.
    My fear is that all of the information concerning whoever 
the next wave of terrorists are will be still in various files 
and various places of our system--whether state, local, or 
federal--and that we will all still be scratching our heads as 
to why didn't we put all the dots together and figure it out in 
advance of the attack.
    That makes sense to me what Sheriff Carona said, and that 
is that we have to look differently at the information. And 
when many different sources of eyes and ears look at this 
information, then you have a better chance of heading it off.
    And the first-responders of California have prepared 
themselves to share intelligence up and down the state.
    I chaired the California Antiterrorism Information Center, 
developed right after September 11. We have 358 police 
departments who collect intelligence, share it with the FBI in 
four offices in California--Sacramento, San Francisco, Los 
Angeles, and San Diego--and that information is constantly 
being analyzed in 17 regional centers throughout California.
    And the Department of Justice here, meaning the attorney 
general's Department of Justice, assists with the coordination 
and in ensuring that we receive intelligence across our own 
independent jurisdictions.
    We are very happy that the FBI has four Joint Terrorism 
Task Forces in California. We're also happy that the Major 
Joint Terrorism Task Force, called TTIC, (Terrorist Threat 
Integration Center) in Washington, is up and running.
    And I've talked to the two assistant directors there, one 
over at Counter-Terrorism Task force and the other over at 
Intelligence, running the two FBI major intelligence systems.
    But it isn't just the FBI. It's the Department of Defense. 
It's the CIA. And when the circumstances in Iraq occurred 
where, once the war was over with and then there was major 
attacks that were occurring on our soldiers and the like, the 
FBI sent teams of its people over there in order to start 
downloading data as to what connectivity those people were 
engaging in, or ``Was it tied to anyone here in the United 
States?'' So I'm very confident that the intelligence system is 
growing in the right direction. And that's the best thing we 
can say right now. It's growing in the right direction.
    But the magnitude of the intelligence gathering vis-a-vis 
the practicality of the information vis-a-vis the 
predictability of the attack, it's almost begging to have a 
super genius, other form of thinking that we haven't yet found 
out about to pinpoint down when another attack is going to 
occur and how it's going to occur.
    Chairman Cox. Thank you. My time has expired. The 
gentlelady from California, Ms. Sanchez?
    Ms. Sanchez. Thank you, Mr. Chairman.
    First of all, thank you all for being here, particularly my 
two sheriffs, my own Sheriff Carona and, under a super 
emergency, my Sheriff Baca. Thank you for being here.
    I'm very familiar with all the work you do and the things 
you've done. But I would like to get on record the fact that 
you two have been working well together and that our counties 
do work well together.
    And if possible--and I will ask Sheriff Baca to talk a 
little bit about one of the projects that I think you all want 
to do. That's important because this Committee will have a part 
in that; that is this whole issue of the air defense that you 
have.
    Can you just tell us how you two are working together with 
other federal agencies and what type of project we're looking 
at in order to ensure that we can cover harbors and everything 
we need to in this 14 million person area.
    Sheriff Baca. Yes. Thank you very much. I had been working 
closely with Sheriff Carona, as well as working closely with 
the FBI and the National Guard and the Drug Enforcement 
Administration, in terms of developing a regional air facility 
for all of our air resources. This is a very important need 
here.
    The Department of Defense, as a partner, has deployed 
throughout the United States equipment--biological suits, 
gloves, things that are essentially in the event an attack were 
to occur on a chemical or biological level, including 
radiological or nuclear. This equipment is very expensive.
    And the Los Angeles region and Orange County region have a 
responsibility for deploying this equipment to the western 
United States, be it as high as Oregon, perhaps even Washington 
and down through Arizona and states that border California and 
the like. This is a important part of our first--responder 
capability.
    And even in California operations locally, whether or not 
the operation is in Orange County or L.A. County or the 
adjoining counties, we have to move our ``hazardous materials'' 
people. We have to move our ``weapons of mass destruction'' 
people, our bomb experts, whether dogs, people or the like. We 
have to get them to places as fast as possible.
    Thus we believe that collecting all of these state, 
federal, and local air support resources in one place, in this 
case Los Alamitos which is right at the edge of both counties, 
would be a very, very big solution to our regional obligations 
from a national point of view, not merely within two counties, 
but affecting groups of states in this part of the United 
States.
    So we have a plan and a proposal. A funding proposal, 
obviously, is part of this.
    We're looking at, from what we've been able to analyze to 
this point, about $14 million amount of money that is necessary 
to achieve this.
    Sheriff Carona. I won't add too much to what Sheriff Baca 
said, other than from crisis comes good ideas.
    The regionalization of our air programs I think is a 
magnificent concept that should have been done years ago.
    And the fact it's being proposed now, I think will work 
really well for citizens of both counties. In fact, it expands 
into Ventura County and San Diego County. So it's a solid idea 
that will work well, and hopefully it will get online fairly 
soon.
    Ms. Sanchez. Thank you. Now for, Ms. Ellis.
    First of all, I had the pleasure of being with you for the 
last couple of days. Thank you very much.
    We're really excited that the Port of Los Angeles and Port 
of Long Beach got together and decided to ask you, Sandia Labs, 
to really take a look at what was needed here in this 
particular facility and to come up with a plan.
    I know that these ports were recently awarded the first 
round of the Port Security Grant under Operation Safe Commerce.
    I know we spent all the money with you that's come to the 
local, and finally at the federal level, said we will fund some 
of this.
    Since you developed this proposal, can you tell me--can you 
give me a summary of what the proposal is, what we're really 
looking at with respect to the port?
    What are you going to do with that $8.52 million in the 
grants? Is it going to be adequate to do this proposal that 
you've done?
    Ms. Doris Ellis. The original proposal that was developed 
on behalf of the two ports was $32 million, give or take, and 
looked at seven trade lanes.
    In looking at those particular trade lanes, what we tried 
to do is find the most difficult, the ones that originated in 
countries of concern--India, Pakistan, so forth, various 
consolidators--before it was actually shipped and for which we 
would have some concern in any case.
    The part of the proposal that was funded is about $8.2 
million. What we will be doing with that $8.2 million, or at 
least the part of it that we will spend, is looking at two of 
those seven trade lanes. And they are really quite complex.
    The cost for each trade lane in terms of vulnerability 
analysis, security-effectiveness assessment, and then 
implementation of the plan for taking a look at security 
upgrades is about 1.4 million spent with Sandia Labs for each 
trade lane.
    Ms. Sanchez. Thank you.
    And, Mr. Chairman, I see that my time is red.
    Chairman Cox. Thank you, Gentlelady.
    The vice Chairman of the Committee, from Washington State, 
Ms. Dunn?
    Ms. Dunn. Thank you very much, Mr. Chairman. And thank you 
everybody for being here today.
    I'm going to get off topic for a minute because I noticed, 
Sheriff Carona, something in your bio that intrigues me a lot, 
and that is your commitment to the Amber Alert Program. I was 
the House Author of the Amber Alert Program.
    It was a delight to stand in the Rose Garden when the 
President signed that legislation. And I know how involved you 
were.
    And my role in bringing Washington State's Megan's Law back 
to Washington, DC. California had such a law also. We had that 
federalized so we had some accountability for the sexual 
predators when they move back in the community.
    It leaves me to say, there's lots of different types of 
terrorism in our nation today. And I think among the worst of 
those are threats to our children. I want to stay a bit off 
topic and take advantage of both you sheriffs here today.
    Earlier, Sheriff Baca, we had a very fascinating 
conversation about that you were with the Israeli law 
enforcement community and how they were able to profile 
potential suicide bombers.
    Many in the United States fear that could be a easy form of 
terrorism in our free and open society. Yet our conclusion in 
that conversation was, ``Don't bother profiling them because 
somebody could drop a release in a shopping mall.''
    My question to you, what worries you both about the 
terrorism? What do we need to be concerned about as we target 
threats that are going to do damage to people we represent?
    Sheriff Carona. I'm up first again. Both Sheriff Baca and I 
had the opportunity, Congresswoman Dunn, to go to Israel in 
January.
    By way of description, in Israel since the Intifada in 
1999, the number of suicide bombing attacks has gone to a high 
of about 2,000 a year.
    That's a nation of 6 million. In America--America is a 
nation of 300 million. You would assume we had 100,000 attacks 
per year in this country.
    When you look at the types of attacks that are occurring in 
the state of Israel, they're predominantly conventional-weapon 
attacks. While there's always a need to train for biological 
and chemical, the vast majority of terrorism taking place is 
suicide bombings, conventional bombings. The concern I have is 
that the same thing is replicated here in America.
    I think John Miller did a good job of talking about the 
Doctrine of Unintended Consequences: As you harden a certain 
target--the terrorists are not looking strictly at the number 
of kills. They're looking at what we hold most dear--our 
freedom. They will attack the soft underbelly, as they perceive 
it.
    While it's difficult to move a nuclear weapon into the 
United States, it may be difficult to move biological or 
chemical weapons because of the great work done by law 
enforcement, it's not difficult to create a conventional bomb 
in this country. We saw it in Oklahoma City.
    One of the concerns that I have, and I believe I shared 
that with my colleagues in the Southern California area, the 
same suicide bombings that are taking place throughout the 
world to be replicated here in America.
    One of the comments that was passed on, actually by my 
colleague from the Customs office, the idea that they're able 
to identify certain radiological devices that are coming in, 
and some may be medical.
    We did a--Sheriff Baca and I did a tabletop exercise where 
we looked at caesium 164, a medical isotope, and put that with 
conventional weaponry and turned that into a dirty bomb.
    Those are the types of things we are training on locally 
because that's what we think is the highest probability of 
terrorist attack here in California and America.
    Sheriff Baca. The thing that troubles me most is, 
obviously, the fact that we have many, many people who, for 
whatever their reasons are, empathize with the Taliban/Al-
Quaeda mentality. And as a result, they're empathizing with 
that kind of mentality.
    Given conditions of whether they are stabilized or not 
stabilized or mentally ill, or whatever their conditions are, 
frame of reference, unstable people will do things that are 
deadly if they're given the opportunity to do so and they have 
the means in which to do it.
    This doesn't mean that Al-Quaeda is not going to have a 
formidable effort of going on as they promised. But it means 
that, the other part of the same thing of unintended 
consequences, is that if people want to jump on board of some 
of this, including this sad young boy who apparently flew an 
airplane into a building--I believe it was in Florida. And now 
evidence is coming forth that he had some empathy for the cause 
and put himself up to the task.
    An example here at LAX involved a very deranged person from 
the Middle East who went to the El Al terminal and starting 
killing people who were standing in line for airline tickets.
    One of the smarter things I ever did was give El Al 
Airline's security Concealed Weapons Permits. And one of the 
security officers jumped the rail and attacked back the 
suspect. He was stabbed by the suspect and eventually killed 
the suspect in front of hundreds of people who were in that 
terminal.
    This is where I think it's going to partially go. It isn't 
going to be the big explosive as the exclusive attack. It will 
be people who are unstable, who have issues, who have weapons, 
and who have hatred, be it toward Israelis, be it towards 
Americans, be it toward anyone.
    This is going to happen. And so we don't know if we are 
doing everything possible to prevent this, through the system, 
of a major type of attack.
    But we have to be mindful that Israelis are--that most of 
the attacks to the Israelis are snipers firing weapons across 
the border or within the confines of Israel. And we in America 
may have that same kind of threat as was witnessed in a 
different motive in Washington D.C., in that part of the 
country, with the snipers months back.
    Ms. Dunn. That was fascinating, and thank you for answering 
my question.
    And thank you, Mr. Chairman, for the time.
    Chairman Cox. Thank you, Gentlelady.
    The gentlelady from the Virgin Islands, Dr. Christensen?
    Mrs. Christensen. Thank you, Mr. Chairman.
    I know my colleagues are probably going to be surprised 
that it took me this long to ask this question, but from 
knowledge of the health system in either of the two counties or 
both combined, and working with the Committee, the coordinating 
committee that you talked about, can you tell me what the state 
of readiness is of the public's health system?
    I'm sure hospitals are probably able to handle multitrauma, 
an event that might have significant number of trauma.
    But what about biological attack?
    Sheriff Baca. That's a strong question, and I appreciate 
you're asking it.
    Simply this, in our preparation for first-responder 
services, we have done a substantial amount of work with the 
hospital system, both public and private, in both counties.
    We know at any one time that availability. We know through 
the medical system, physician availability. We know nursing 
availability. We know the particular medicines that are 
necessary in terms of its quantity and its availability.
    We have a network that is very strong with the Red Cross, 
which is a first-responder component. Not only fire and police, 
but the Red Cross does a substantial amount of work in this 
area.
    The magnitude of our potential has been laptop tested. We 
have done exercises that would literally defeat the system.
    We wanted to get--.
    Mrs. Christensen. You are practically answering my second 
question.
    Sheriff Baca. We wanted to know what the defeat side of it 
would be in terms of an experience so that we just have such a 
massive amount of human casualty that we couldn't handle it at 
all.
    We learned a lot through that process; that there has to be 
alternative forms of field treatment where not everyone is 
going to get the sanitized version of hospital care;.
    That there's a way to build out field hospitals, field care 
centers, treatment centers, things that when you have 10 
million people, as we have here, and the right type of attack, 
meaning the most lethal type of attack, whether it's New York, 
Chicago, Washington, Philadelphia, Los Angeles, San Diego, 
Seattle or any other part of this wonderful nation of people, 
the right kind of attack will definitely defeat our capacity.
    Mrs. Christensen. I'm pretty sure that unless the attack 
involves such mass casualty that it overwhelms the system, the 
hospital system will probably take care of it.
    And I want to say this--I don't want you to necessarily 
answer it--but the public health system, should a biological 
agent be introduced into a community, particularly a poor 
community or a very densely populated urban community, it would 
take a different kind of response.
    And we do tend to pay more attention to hospitals and acute 
care rather than the public health system. And I hope that, not 
only in Los Angeles and Orange County, but around the country, 
that we're paying attention to that. And it has been our 
experience at other Committee hearings in Washington that not 
enough attention is being paid to that.
    I want to ask Mr. Price a question because you seemed to 
have a lot of concerns about the gaps in vulnerabilities that 
are not being addressed.
    Does the number of cargo manifests trigger an inspection?
    Mr. Price. No. The concern that arises from that is that 
the Automated Targeting System, or the inspector who's 
reviewing it, wouldn't be able to make--wouldn't be able to use 
their experience and their knowledge to make a good targeting 
assessment because of the lack of information or the faulty 
information.
    Mrs. Christensen. So the inability to make a targeting 
assessment wouldn't trigger necessarily an inspection?
    Mr. Price. Not necessarily. In my experience, the 
information that is available would be weighed more heavily.
    Although it is sometimes the case that when information is 
sufficiently lacking, a particular container will become 
targeted.
    Mrs. Christensen. Mr. Chairman, would you like for me to 
yield to the question that you have?
    Chairman Cox. No. If you have a further question, please go 
ahead.
    Mrs. Christensen. One of my questions was going through an 
exercise, and it was partially answered, both with the 
tabletop, radiological and possibly dirty bomb and the other 
tabletop that you mentioned.
    Sheriff Carona. Mr. Chairman, may I answer a question for 
the Congresswoman that she--I can see where she's going.
    Chairman Cox. It's every witness's dream.
    Sheriff Carona. We ran--in Orange County we ran a tabletop 
exercise where public health was the lead on this. And let me 
give you a lesson learned that we didn't expect out of this.
    During the tabletop that was run by UCLA--it was a four-day 
compressed time scale that we ran over one day, and it was the 
introduction of a biological agent.
    The casualties that came about from that were substantial, 
about 2,000. We were able to triage relatively quickly, but the 
number of hospitals that went down because of this event were 
significant.
    And our ability to utilize the military model and start to 
take care of the casualties came into play very, very quickly 
as we moved to our mutual aid model with Sheriff Baca, as well 
as our contacts with the federal government. But here's the 
lesson learned:
    As first-responders we train that when things go ``boom,'' 
we know the source. We know where it took place. If there's an 
introduction of a chemical weapon, we know the source.
    The introduction of a biological weapon, it may very well 
start in a community that you have described, that is 
underprivileged or may not have the resources, or may be 
introduced in a very affluent community. But where it presents 
itself is someplace else across America.
    And the ability to track it back and identify where the 
source was is much different than a bomb or a bullet or a 
chemical weapon. And that's something that we need to train on 
holistically as first-responders because the first-responder 
model changes.
    It's no longer law enforcement or fire enforcement 
responding to an event. It's doctors and scientists trying to 
help us figure out where that event occurred so we can protect 
lives.
    Mrs. Christensen. I understand a lot better from your 
answer that you are aware of the differences and the different 
approaches that need to be taken, and that's the first step. 
Thank you.
    Thank you, Mr. Chairman.
    Chairman Cox. I want to thank our panel. This has been an 
extraordinarily useful exercise for the Committee. And we are 
made to feel very welcome here in Los Angeles.
    It is the evening now. We started out very early today, 7 
o'clock this morning. And yet throughout, we have had nothing 
but gracious assistance. And we are very, very grateful for 
your efforts on your behalf and the nation's behalf and, of 
course, California's behalf.
    We're going to continue to work with you. I just want to 
add, as we conclude, that the members here and some additional 
members were at Northern command yesterday, which is co-located 
with NORAD in Colorado.
    And the Terrorism Early Warning Center that you have here 
and the contacts that you were making with so many different 
agencies outside reminded me a lot of what I saw that the 
Department of Defense is setting up in Colorado. I think it's 
just a matter of time before these circles intersect.
    And as we go forward, I look forward to working with you to 
make sure that that works because where DOD begins and ends is 
yet another piece to this puzzle that we need to get together 
very, very fast.
    As I say, this has been an extraordinarily helpful day for 
us and a hearing, and we thank you very much for your personal 
time, and God bless you for what you do every day.
    The hearing is adjourned.
    [Whereupon, at 7:00 p.m., the committee was adjourned.]

                                APPENDIX

                   MATERIAL SUBMITTED FOR THE RECORD

   PREPARED STATEMENT OF C. PAUL ROBINSON, DIRECTOR, SANDIA NATIONAL 
                              LABORATORIES

    Mr. Chairman and distinguished members of the committee, thank you 
for the opportunity to submit this statement for the record. I will 
discuss Sandia National Laboratories' support of maritime security for 
the ports of Los Angeles and Long Beach.
    I am Paul Robinson, director of Sandia National Laboratories. 
Sandia is a multiprogram laboratory of the U.S. Department of Energy's 
National Nuclear Security Administration (NNSA). We are an applied 
science and engineering laboratory with a focus on developing technical 
solutions to the most challenging problems that threaten peace and 
freedom.
    As early as last summer, the cities of Los Angeles and Long Beach 
took action on their own initiative to begin addressing in a 
comprehensive way the threat of maritime terrorism. Together, these 
ports handle forty percent of the import commerce into the United 
States. Consequently, port security here is not merely a local concern; 
it is a matter of national, and indeed, global importance.
    More than a year ago, Long Beach and Los Angeles formed a working 
group with the U.S. Coast Guard, U.S. Customs, and the maritime 
industry to begin implementing Operation Safe Commerce, even before the 
federal grant funding was available. They should be commended for 
moving aggressively on this challenge.
    In December 2002, Los Angeles and Long Beach each entered into a 
funds-in agreement with Sandia National Laboratories to provide systems 
engineering oversight for their Operation Safe Commerce activities. We 
helped them prepare their joint Operation Safe Commerce Cooperative 
Agreement grant proposal, and we are conducting Security Effectiveness 
Assessments as part of that work. We will provide technical project 
management and support for planning, evaluating, installing, and 
testing security solutions and upgrades for them and for other ports 
and locations along the cargo path.
    Sandia has a fifty-year heritage in security systems for our 
nation's nuclear weapons. We are the principal NNSA laboratory 
responsible for developing the risk assessment methodologies and the 
systems solutions to protect nuclear weapons and nuclear materials at 
facilities and during transport. For more than a quarter of a century, 
Sandia has conducted the International Training Course on Physical 
Protection of Nuclear Facilities and Materials for the International 
Atomic Energy Agency.
    Sandia is a major resource for security expertise and counsel on 
high-consequence assets. Sandia's assistance in security matters has 
been widely sought in recent years by numerous agencies including the 
Department of Defense, the National Institute of Justice, the Secret 
Service, the Federal Aviation Administration, state and federal 
corrections systems, public school systems, state and local 
governments, and the 2002 Winter Olympic Games.
    Sandia National Laboratories is the systems and program integrator 
for ``Second Line of Defense,'' a cooperative threat reduction program 
with Russia and several other nations. The objective of the Second Line 
of Defense program is to prevent smuggling of nuclear materials or 
weapons out of the responsible nation at land crossings, airports, and 
seaports. We are also involved in an extension of the Second Line of 
Defense program to support the U.S. Customs Service's Container 
Security Initiative at foreign megaports to pre-screen container cargo 
bound for the United States.
    Sandia's work for the ports of Los Angeles and Long Beach is 
managed by the same leadership team that supports the Second Line of 
Defense and megaports programs. The project director, Charles Massey, 
is a graduate of the U.S. Merchant Marine Academy and a PhD health 
physicist. During his maritime career, Dr. Massey sailed on a number of 
different types of vessels and advanced his license to Chief Mate. He 
is today a captain in the U.S. Naval Reserve. All-in-all, he has an 
excellent background for this work.
    Project manager Richard Wayne has thirty-two years of experience 
with security of nuclear weapons in both Navy and Air Force commands as 
well as fifteen years of experience leading ``red team'' technical 
evaluations of military installation security systems.
    Our approach to the Operation Safe Commerce project at Long Beach 
and Los Angeles is a rigorous one. We are starting with an in-depth 
threat analysis and security effectiveness assessment, which will serve 
as our baseline for identifying and recommending security upgrades, 
both in terms of operational concepts and in terms of technology. We 
will then help evaluate solution prototypes and oversee the 
implementation and integration of system solutions. The first phase of 
our work will focus on local port security; Phase II will involve the 
entire supply chain.
    The Security Effectiveness Assessment process we use is derived 
from methodologies we developed over many years to help protect nuclear 
weapons and nuclear facilities. The technique has been adapted for the 
protection of other high-consequence assets in both the defense and 
civil sectors. For example, Sandia tailored a security risk assessment 
methodology for use by city water utilities. We have used similar 
strategies to evaluate risks for other critical infrastructures such as 
nuclear power-generation plants, chemical storage sites, and dams.
    Based on the Security Effectiveness Assessment, we will assist and 
advise the ports in their selection of appropriate technologies and 
procedures for recommended security upgrades. Sandia will define a test 
plan and perform test oversight as an independent observer and 
evaluator. Federally funded research and development centers like 
Sandia have a long heritage of providing objective technical counsel to 
government entities facing a confusing assortment of available options.
    There is some urgency to deploy enhanced security systems and 
operational processes as soon as practicable. Operation Safe Commerce 
is not a research and development program, but rather, an assessment 
and demonstration program to identify security enhancements that can be 
implemented in the near term. Other federally sponsored programs are 
underway that focus on longer-term research and development on advanced 
technologies that can be engineered and deployed to improve port and 
border security.
    Sandia is deeply involved in a variety of research and development 
efforts targeted to the emerging threats that will challenge our 
nation's borders. We have already made significant contributions to 
homeland security with sensor systems for chemical, biological, 
radiological, and explosive materials. For example, we developed a 
portable sensor for first responders that is configured to detect 
toxins such as ricin and botulinum. And we are demonstrating systems 
for protecting against chemical or biological attacks in public 
facilities such as airport terminals and subway stations.
    We also have had good success with the design and development of 
spectral sensor systems that can identify radioactive materials quickly 
and accurately as they pass through portals. We are hopeful that 
advanced nuclear sensor technologies currently demonstrable in the 
laboratory can ultimately be engineered into deployable systems that 
can be mass-produced by industry for border applications. In fact, as a 
result of our involvement with Operation Safe Commerce, Sandia has 
entered into discussions with private industry to license one of our 
software applications for nuclear material detection.
    The world has indeed changed, and the challenge of securing our 
borders and ports against new threats--while not significantly impeding 
the free flow of commerce--is formidable. Operation Safe Commerce is an 
important component of the nation's response to this challenge. We at 
Sandia National Laboratories are pleased to be part of the team effort 
with the ports of Los Angeles and Long Beach, the U.S. Coast Guard, 
U.S. Customs Service, and the marine cargo industry to meet this 
challenge.
    Thank you, Mr. Chairman, for this opportunity to submit a 
statement.

                                 <all>

</pre></body></html>
